<html>
<title> - THE FOREST HEALTH CRISIS IN THE SAN BERNARDINO NATIONAL FOREST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
    THE FOREST HEALTH CRISIS IN THE SAN BERNARDINO NATIONAL FOREST

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

       Monday, September 22, 2003, in Lake Arrowhead, California

                               __________

                           Serial No. 108-58

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-420              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, September 22, 2003.......................     1

Statement of Members:
    Lewis , Hon. Jerry, a Representative in Congress from the 
      State of California........................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bialecki, Hugh, Ph.D., President, Save Our Forest Association    66
        Prepared statement of....................................    68
    Blackwell, Jack, Regional Forester, Pacific Southwest Region, 
      Forest Service, U.S. Department of Agriculture.............     7
        Prepared statement of....................................    10
    Bonnicksen, Thomas M., Ph.D., Professor, Department of Forest 
      Science, Texas A&M University..............................    33
        Prepared statement of....................................    34
    Grindstaff, P. Joseph, General Manager, Santa Ana Watershed 
      Project Authority..........................................    62
        Prepared statement of....................................    63
    Hansberger, Hon. Dennis, Chairman, San Bernardino County 
      Board of Supervisors.......................................    21
        Prepared statement of....................................    22
    Jensen, Jay, Legislative Director, Western Forestry 
      Leadership Coalition.......................................    47
        Prepared statement of....................................    49
    Phillips, Eddie, Americans for Forest Access.................    76
        Prepared statement of....................................    78
    Rosenblum, Richard M., Senior Vice President, Transmission 
      and Distribution, Southern California Edison...............    74
        Prepared statement of....................................    75
    Tuttle, Andrea E., State Forester, California Department of 
      Forestry and Fire Protection...............................    38
        Prepared statement of....................................    39
    Watson, Jay Thomas, Director, Wildland Fire Program, The 
      Wilderness Society.........................................    70
        Prepared statement of....................................    72
    West, Allan J., Member, National Association of Forest 
      Service Retirees...........................................    42
        Prepared statement of....................................    43


 OVERSIGHT FIELD HEARING ON THE FOREST HEALTH CRISIS IN SAN BERNARDINO 
                            NATIONAL FOREST

                              ----------                              


                       Monday, September 22, 2003

                     U.S. House of Representatives

                         Committee on Resources

                       Lake Arrowhead, California

                              ----------                              

    The Committee met, pursuant to call, at 1:02 p.m., in the 
Ballroom of Lake Arrowhead Resort, Lake Arrowhead, California, 
Hon. Richard W. Pombo [Chairman of the Committee] presiding.
    Present: Representatives Pombo, Gibbons, Walden and 
Cardoza.
    Also Present: Representative Lewis.
    The Chairman. The Committee on Resources will come to 
order. The Committee is meeting today to hear testimony on the 
forest health crisis in San Bernardino National Forest.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. Today, the Committee on Resources will take a 
closer look at one of the most prominent and ominous case 
studies in this nation's growing forest health crisis. As we 
will hear from an impression slate of witnesses today, Lake 
Arrowhead and her sister communities are teetering on the edge 
of catastrophe, ransacked by Bark Beetles, ravaged by drought 
and deprived of meaningful management for too long, this 
region's dangerously overgrown forests are an ill-placed 
lightning strike or an errant campfire away from the kind of 
catastrophic wild fire that has become all too common out West.
    By now the consequences of large-scale catastrophic wild 
fire are known to everyone. Communities are displaced or worse. 
This summer, the mountain community of Summer Haven, Arizona 
tragically lost several hundred homes to a fast moving fire, a 
hotly destructive wildfire. Old growth forest ecosystems are 
annihilated.
    In a field hearing earlier this summer, this Committee 
heard testimony from a Government witness who testified that 
Colorado's Hayman fire caused almost 100 percent mortality in 
several thousand acre stand of centuries old Ponderosa Pine. 
Many of the cathedral-like old growth that were destroyed were 
between 300 and 600 years old, among the oldest trees in the 
American Southwest.
    Wildlife habitat is decimated on an enormous scale. Last 
summer's Biskit fire in Oregon scorched over 80,000 acres of 
old growth habitat to the endangered Northern Spotted Owl.
    Arizona's Rodeo and Chedeski fire sterilized several 
hundred thousand acres of prime habitat for the federally 
protected Mexican Spotted Owl. These horror stories about the 
impact of wildfire on wildlife are far from unique or isolated.
    Watersheds that provide clean drinking water to millions in 
the West are plundered by the mud, soot and ash that flow in 
the blackened wake of large wildfires. The Hayman fire dumped 
more mud and other contaminants into Denver's primary source of 
drinking water than had been deposited in the critical water 
source over the previous decade. In addition to jeopardizing 
the water source of millions, post-fire erosion and 
sedimentation also does irreversible damage to federally 
protected fish and other riparian life forms.
    As we will hear today, Southern California' most important 
watershed and the fish and wildlife that rely on it for their 
habitat, face similar risks if bold and immediate action isn't 
taken.
    Finally, each summer many wildland fire fighters lose their 
life. In the days just prior to a hearing in Congressman 
Walden's posted in Oregon last month, several battle weary fire 
fighters lost their life while returning home late one evening 
from fighting a wildfire. These are the tragic human and 
environmental consequences of the West's forest health crisis. 
Clearly, this disaster status quo is no longer acceptable.
    That is why the House of Representatives passed the 
bipartisan Healthy Forests Restoration Act earlier this summer. 
This bipartisan bill would streamline the cumbersome 
bureaucratic procedures that currently force many projects like 
those desperately needed here in San Bernardino to endure a 
decisionmaking process that usually takes between three and 5 
years. The slow-moving process is the primary reason that 
Federal foresters treat only about 2 million of the 190 million 
acres of forest lands at unnatural risk of wildfire each year.
    When catastrophe is imminent, such a glacial decisionmaking 
process is wholly unacceptable. Our bipartisan legislation 
takes a balance and thoughtful approach to fixing this 
obviously broken process.
    As a final point, I would note that one of the largely 
unheralded benefits of our broadly supported healthy forests 
legislation is that it will make the project planning process 
significantly more cost effective, thus freeing up tens of 
millions of dollars for forest health projects in the San 
Bernardino National Forest and elsewhere. The Chief of the 
Forest Service has said that his Agency's line officers spend 
over 50 percent of their time, energy and resources on 
planning, paper shuffling and other bureaucratic functions, a 
particularly shocking number in the current fiscal environment.
    A report published by the Forest Service last year 
concluded that streamlining the Forest Service's administrative 
procedures in ways like these outlined in Healthy Forests 
legislation could free up $100 million for more worthy on-the-
ground pursuits, like protecting our forests and communities 
from catastrophic wildfire.
    While substantial, these cost savings won't be enough in 
and of themselves. That is why the President and supporters of 
the Healthy Forest legislation of Congress have vowed to fund 
this program in a significant way, when enacted. That is a 
commitment I share and a commitment I look forward to acting on 
after the President signs this important environmental 
legislation into law.
    It is with that I thank our witnesses and those in the 
audience for joining us today and I look forward to this 
important hearing. I'd like to ask unanimous consent that our 
colleague, Mr. Jerry Lewis, be allowed to sit on the dais and 
participation in the hearing, without objection.
    With that, I'd like to recognize our colleague and our host 
for the event, Mr. Lewis.
    [The prepared statement of Chairman Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Today the Committee on Resources will take a closer look at one of 
the most prominent and ominous case studies in this nation's growing 
forest health crisis. As we will here from an impressive slate of 
witnesses today, Lake Arrowhead and her sister communities are 
teetering on the edge of catastrophe. Ran-sacked by bark-beetles, 
ravished by drought, and deprived of meaningful management for too 
long, this region's dangerously overgrown forests are an ill-placed 
lightening strike or an errant campfire away from the kind of 
catastrophic wildfire that has become all-too-common out West.
    By now, the consequences of large-scale catastrophic wildfire are 
known to everyone.
    Communities are displaced--or worse. This summer, the mountain 
community of Summerhaven, Arizona, tragically lost several hundred 
homes to a fast moving and hotly destructive wildfire.
    Old growth forest ecosystems are annihilated. At a field hearing 
earlier this summer, this Committee heard testimony from a government 
witness who testified that Colorado's Hayman fire caused almost 100 
percent mortality in a several thousand acre stand of centuries-old 
ponderosa pine. Many of the cathedral-like old growth that were 
destroyed were between 300 and 600 years old, among the oldest trees in 
the American Southwest.
    Wildlife habitat is decimated on an enormous scale. Last summer's 
Biscuit Fire in Oregon scorched over 80,000 acres of old growth habitat 
for the endangered Northern Spotted Owl. Arizona's Rodeo-Chediski fire 
sterilized several hundred thousand acres of prime habitat for the 
federally protected Mexican Spotted Owl. These horror stories about the 
impact of wildfire on wildlife are far from unique or isolated.
    Watersheds that provide clean drinking water to millions in the 
West are plundered by the mud, soot and ash that flow in the blackened 
wake of large wildfires. The Hayman fire dumped more mud and other 
contaminants into Denver's primary source of drinking water than had 
been deposited in that critical water source over the previous decade. 
In addition to jeopardizing the water sources of millions, post-fire 
erosion and sedimentation also does irreversible damage to federally 
protected fish and other riparian life forms. As we will here today, 
southern California's most important watershed, and the fish and 
wildlife that rely on it for habitat, face similar risks if bold and 
immediate action isn't taken.
    Finally, each summer, many wildland firefighters lose their life. 
In the days just prior to a hearing Congressman Walden hosted in Oregon 
last month, several battle-weary firefighters lost their life while 
returning home late one evening from fighting a wildfire.
    These are the tragic human and environmental consequences of the 
West's forest health crisis. Clearly, this disastrous status quo is no 
longer acceptable.
    That is why the House of Representatives passed the bipartisan 
Healthy Forests Restoration Act earlier this summer. This bipartisan 
bill would streamline the cumbersome bureaucratic procedures that 
currently force thinning projects, like those desperately needed here 
on the San Bernardino, to endure a decision making process that usually 
takes between 3 and 5 years. This slow moving process is the primary 
reason that federal foresters treat only about 2 million of the 190 
million acres of forestlands at unnatural risk to wildfire each year. 
When catastrophe is imminent, such a glacial decision making process is 
wholly unacceptable. Our bipartisan legislation takes a balanced and 
thoughtful approach to fixing this obviously broken process.
    As a final point, I would note that one of the largely unheralded 
benefits of our broadly supported Healthy Forests legislation is that 
it will make the project planning process significantly more cost 
effective, thus freeing up tens of millions of dollars for forest 
health projects on the San Bernardino National Forest and elsewhere. 
The Chief of the Forest Service has said that his agency's line 
officers spend over 50 percent of their time, energy and resources on 
planning, paper-shuffling and other bureaucratic functions--a 
particularly shocking number in the current fiscal environment. A 
report published by the Forest Service last year concluded that 
streamlining the Forest Service's administrative procedures, in ways 
like those outlined in the Healthy Forests legislation, could free-up 
$100 million for more worthy on-the-ground pursuits, like protecting 
our forests and communities from catastrophic wildfire.
    While substantial, these cost savings won't be enough in-and-of 
themselves. That is why the President and supporters of the bipartisan 
Healthy Forests legislation in Congress have vowed to fund this program 
in a significant way, if enacted. That is a commitment I share, and a 
commitment I look forward to acting on after the President signs this 
important environmental legislation into law.
    It is with that that I thank our witnesses and those in the 
audience for joining us today. I look forward to this important 
discussion.
                                 ______
                                 

STATEMENT OF THE HON. JERRY LEWIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lewis. Thank you very much, Mr. Chairman and Members of 
the Committee.
    We'd all like to begin by expressing our deep appreciation 
to the Committee and the Members for coming to beautiful 
downtown Lake Arrowhead and the San Bernardino National Forest. 
This is truly one of the most magnificent recreation areas in 
the entire country and the forest itself has been noted for its 
beauty for decade after decade. And as a result of that, we 
have visitors who come from all over the country particularly 
in these large numbers from Southern California.
    In recent years, however, the Lord has not exactly been 
with us, for drought has been present for about 5 years. With 
that, the Bark Beetle which is ever present in the forest has 
had its own way and as you can see from these pictures and I 
know that you have seen it from the air, your staff flew over 
by way of helicopter yesterday, literally millions of trees 
standing beautiful, beautiful pine trees standing dead.
    As you know, over a number of years and it takes many years 
to remove these trees, there's bound to be fire. A lightning 
strike just at any moment could lead to a devastating fire, but 
I must mention to you that a rather amazing cooperative effort 
has gone together in our region and our station in connection 
with this crisis.
    About three or 4 weeks ago we had a relatively minor fire. 
It covered about 1500 acres. If everybody had not been ready, 
willing and capable of responding the way they did that fire 
could have reached the forest and we might not be having this 
hearing today.
    I might mention in connection with that, a lot of people 
were evacuated from their home and I want to mention that Wayne 
Austin manages this wonderful facility and Mr. Austin opened 
the doors of the facility, charging those who needed to stay 
like Motel 6 rates, and literally accommodated many, many of 
those who were otherwise without a home. Phenomenal response 
across the community to this crisis.
    So far your Committee, as well as the Congress, has stepped 
up its level of interest and concern. The support from your 
staff, I just cannot express enough appreciation for. The 
Secretary of Agriculture came to the region and gave it a high 
priority in terms of the Administration's beginning to 
understand how severe it is.
    With that, Mr. Chairman, I very much appreciate your 
allowing me to be with you. The witnesses are the most 
important, but I wanted to mention just one more thing, my 
friends from Lake Arrowhead and the mountains who are the 
audience. The Chairman told me that he sent me a notice, 
somehow much staff didn't let me know it, that is, on few 
hearings where we're doing real work, the Chairman does not 
wear a tie and he warned me of that according to his statement 
earlier, so in deference to my Chairman, thank you very much.
    [Applause.]
    The Chairman. I don't wear it unless I have to. Well, thank 
you very much. Obviously, this is an issue that Jerry has 
brought to the Committee's attention many times in the past and 
we've talked quite a bit about the condition in the forest that 
he represents and it's our pleasure to have the opportunity to 
be here and to learn more from the people out here on the 
ground.
    I'd like to recognize Congressman Cardoza for an opening 
statement.
    Mr Cardoza. Thank you, Mr. Chairman. I'm going to not read 
my prepared opening statement because I think what you've said 
previously really does cover this for the most part. I'd just 
like to thank you for the work you've done in trying to save 
important national forests like this one and the work that this 
Committee has done. And also thanking Mr. Lewis for bringing 
this to our attention.
    I think what you've talked about, about the healthy forest 
building, a bipartisan bill, it should be a bipartisan bill. 
You can't drive up here and see the devastation in this forest 
and see the pictures that are on the wall without thinking that 
something serious needs to be done and that we need to take 
some correction action. So thank you for the work you've done 
and I look forward to the testimony here today.
    The Chairman. Thank you. Congressman Gibbons.
    Mr. Gibbons. Again, Mr. Chairman, I will also submit my 
written testimony for the record, only to reiterate what every 
one of us in this room knows by being here today is that the 
demands are no longer casual with what we have before us in 
this forest health problem and crisis. They are no longer 
casually to be looked upon and put off for a time. They demand 
action. They demand action now, not later and you can see that 
if we don't do something the rapidity of which this disease and 
the dead trees will expand throughout not only this forest, but 
all forests, will certainly take what we know and what we love 
as our national forest system and put it into the charcoal bin 
because any fire will rapidly through this, taking lives, 
taking homes, taking property, taking recreational opportunity, 
taking the ecosystem which supports many of us along with it.
    So Mr. Chairman, I think the urgency by which we must 
address the health, not only Southern California's forests, but 
all the forests in this country, demand rapid action and I want 
to thank you for your leadership on this. I want to thank you 
for having this hearing and I look forward of our witnesses 
today and I would like to welcome them when they appear.
    Thank you.
    The Chairman. Congressman Walden?
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
thank Congressman Lewis for inviting us to come to his District 
to see this great part of the world. I also want to point out I 
got the memo, I read the memo, I didn't wear the tie so your 
memos are always noted.
    Mr. Chairman, as one of the co-sponsors of the Healthy 
Forest Restoration Act, I'm pleased that we are here today to 
see first hand what other forests around the country are 
facing.
    I represent a District in Oregon, as you know, Mr. 
Chairman, that suffered from severe fires last year. Mine and 
part of a colleague's of mine saw over 500,000 acres burn in 
one fire alone, the Bisket fire you referenced in your 
testimony, consuming 80,000 acres of Spotted Owl habitat, but 
burning more than 500,000 acres of Federal forest lands, 
costing taxpayers $150 million to extinguish.
    This summer, we had another fire in the heart of my 
District that we all smelled the smoke of when we had a hearing 
in Redmond. That fire, the B&B Complex, has now consumed 91,000 
acres and worse, it has destroyed areas that go up into the 
watersheds.
    There was an AP story this weekend pointing out that a 
hydrologist, Kerry McCallum, says that B&B was higher in the 
watershed than the other fires in the area and therefore, this 
area is going to suffer from extraordinary erosion and 
obviously the mudflows like we heard about in Colorado.
    This has to stop. We all know that if this was our 
backyard, we'd go out and prune and thin and clean up the dead 
and dying timber. And the problem we face from the Federal 
Government standpoint is that so many of these projects, when 
proposed by the Forest Service are appealed by a limited 
number, a handful of interest groups. And in fact, General 
Accounting Office found that 59 percent of the appealable 
thinning projects in America's forests were appealed, 59 
percent.
    The Chief of the Forest Service has told us before that his 
people have to do five or six alternatives knowing full well, 
for every project they want to do, knowing full well that most 
of those alternatives will never be seriously considered.
    So we're wasting a lot of time and money while our forests 
burn and as a native Oregonian I prefer my forests green and 
healthy, not black and dead. These are our American forests. If 
this was public housing, I think we'd be accused, as stewards, 
of being slumlords because these forests are disease-ridden, 
bug-infested and subject to catastrophic fire.
    And so we have to do better. We have to change the law so 
that our professional foresters can do the work they need to 
do, so we have healthy, green sustainable forests for 
generations to come.
    Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Thank you. As I introduce our first Panel of 
witnesses, I would state that this is an official hearing of 
Congress and one of the things that this Committee has tried to 
do over the past several months is to be much more active in 
getting Congress outside of Washington and going out and 
learning for ourselves, looking at what's happening and hearing 
from people who may normally not have an opportunity to testify 
before a congressional hearing.
    We've had a number of field hearings all over the country 
and this is part of that effort, but it is an official hearing 
of Congress. As a result of that, I would request that the 
audience maintain the decorum that is necessary and required by 
House rules during the hearing. As part of that, you will hear 
a number of witnesses today. Some you will agree, some you 
won't agree with. But I would ask that the audience not show 
any favoritism or negative to any of the witnesses that are 
here today in order to maintain the decorum here. So I would 
request that you not show responses from the audience.
    I'd like to introduce our first Panel of witnesses. We have 
Mr. Jack Blackwell, Regional Forester, Pacific Southwest 
Region, U.S. Forest Service; accompanied by Mr. Gene Zimmerman, 
Forest Supervisor, San Bernardino National Forest, U.S. Forest 
Service.
    Mr. Blackwell, welcome.

    STATEMENT OF JACK BLACKWELL, REGIONAL FORESTER, PACIFIC 
  SOUTHWEST REGION, U.S. FOREST SERVICE; ACCOMPANIED BY GENE 
 ZIMMERMAN, FOREST SUPERVISOR, SAN BERNARDINO NATIONAL FOREST, 
                      U.S. FOREST SERVICE

    Mr. Blackwell. Thank you, Chairman Pombo, Members of the 
Committee, Congressman Lewis, I'll submit my formal testimony 
for the record and try to summarize it as quickly as I can.
    We thank you for the opportunity to talk about our forest 
health crisis and the urgent need to treat our national 
forests. The Lake Arrowhead is at the heart of the most serious 
forest health situation in California. In my 35 years of 
Federal service, I have never seen a more serious situation 
where human lives are so threatened by wildfire. The Department 
supports the Healthy Forest Initiative and H.R. 1904, the 
Healthy Forests Restoration Act of 2003.
    Historically, the mixed conifer forest here was quite open 
with mostly larger trees. A lack of natural fire or active 
management has changed those conditions for the worse. The 
forest is now choked with mostly smaller trees, often hundreds 
per acre. The result is a tremendous buildup of hazardous 
fuels. An unprecedented 4-year drought has weakened the trees 
and brush allowing the Bark Beetles and disease to reach 
epidemic proportions. Four hundred seventy-four thousand acres, 
this is a little figure that's just been arrived at through 
inventory this past week, 474,000 acres of public and private 
lands are experiencing severe tree loss that poses an extreme 
threat to life and property.
    The mountain communities have nearly 100,000 structures 
worth approximately $8 billion and 100,000 people live within 
this forest boundary and 24 million live within a 2-hour drive.
    Two weeks ago, not far from here, the 14,000-acre Bridge 
fire forced the evacuation of 1,500 people and closed one of 
three mountain community evacuation routes for over a week. The 
combined response to this fire was a very successful dress 
rehearsal for the fire we hope we never see. The pre-planning 
work was exceptional and the fire suppression work was 
outstanding. Every single person evacuated returned to their 
homes safe and sound.
    I believe the Healthy Forest Initiative will play a key 
role in helping us avoid potential disasters such as the one 
threatening San Bernardino today. It's a common sense approach 
that restores forests and range land health and reduces the 
threat of catastrophic fire to communities and natural 
resources.
    Forest health problems do not recognize ownership 
boundaries. That means the public and private partnership is 
essential in tackling the threat. The forest has forged such a 
partnership with state and local governments and the private 
sector. Two inter-agency organizations have evolved from this 
partnership, one in Riverside and one in San Bernardino County. 
They are called Mountain Area Safety Task forces or MAST and 
have a wide range of committed partners that I have outlined in 
my written testimony.
    Working with local stakeholders, the MASTs have developed a 
comprehensive, three-part strategy to address the public safety 
and forest health issues. The strategy focuses on emergency 
preparedness, protecting communities and evacuation routes and 
on longer term needs. Implementing this strategy will 
significantly reduce the threat to communities and natural 
resources and restore healthy forest conditions. I believe this 
strategy is an excellent model for other areas of the nation.
    I'd like to especially acknowledge the work done by Fire 
Safe Councils in relaying information to communities and in 
developing community-based solutions and the contribution of 
MAST partners, ESRI and Southern California Edison.
    In terms of emergency preparedness, the San Bernardino 
National Forest has nearly 40 percent more fire fighting 
capability than it did just 3 years ago, thanks to the National 
Fire Plan. Our region is also providing additional engine and 
crews on an as-needed basis down here.
    The California Department of Forestry has also 
significantly increased their fire fighting resources and has 
provided other vital support as I'm sure my colleague, Andrea 
Tuttle, Director of CDF, will discuss.
    The Forest Service has increased its fire prevention 
resources and has redirected $3.2 million in state and private 
forestry assistance that help local communities. The Forest 
here has a $9 million budget this year for treating hazardous 
fields. In cooperation with its partners, the priority is to 
improve safety along the evacuation routes and protect 
communities by reducing fields around them.
    The Forest Service has projects completed or underway that 
improve safety along 111 miles of evacuation routes, reduce 
fuels on 12,800 acres and protect critical communication sites. 
Critical work is also being expedited through special emergency 
exemptions for contracting and use of categorical exclusions to 
speed the planning process and the use of emergency 
consultation process for ESA consultations.
    The Forest Service will be taking advantage of the new 
categorical exclusions the Healthy Forest Initiative has made 
available. We are making good progress, but there's much more 
to do. In the long run, to be successful, we must actively 
manage the forest if we are to restore the forest to health, 
reduce the threat of large catastrophic fires and provide long-
term protection to communities and watersheds.
    That means stemming of dense stands of trees not only near 
communities and along roads, but in the rest of the forest. It 
will require a long-term effort, one for which the Forest is 
already planning. It took years for the forest to get into the 
condition that it is in and it cannot be fixed overnight.
    I am very concerned that our experience on the San 
Bernardino will happen again in many other areas of California. 
We have millions of acres of national forest in California that 
are dense and overgrown. Given the rapid growth of communities 
in California's wildlands, those conditions create the 
potential for some truly disastrous wildfires. This is 
especially true in the Sierra Nevada.
    We have seen glimpses of that future in the 2001 McNalley 
fire which burned 150,000 acres in the total perimeter. It 
threatened three giant Sequoia groves, several communities and 
forced the evacuation of 2,000 people.
    We must find other ways to actively manage the forest, stem 
overcrowded stands and return the forest to health. And when 
wildfires will occur, we must continue to respond quickly and 
effectively.
    We are making good progress in California. Thanks to 
National Fire Plan funding, we have reduced fuels in almost a 
quarter of million acres of California's national forests and 
expect to complete another 75,000 acres this fiscal year.
    Nearly two-thirds of those treatments are in the wild land 
urban interface. We have made significant increases in our fire 
fighting resources and over the past 2 years the Forest Service 
has provided 191 grants, totaling over $11 million to local 
communities and organizations to help reduce wildfire hazards.
    We are proposing changes to the 2001 Sierra Nevada Forest 
Plan amendment that will improve our ability to reduce fuels 
and protect old forests. We have already reviewed the Northwest 
Forest Plan in California and are looking at changes to help 
reach the goal of healthier forests more quickly there.
    We look forward to using the tools provided by the Health 
Forest Initiative. These will improve our ability to actively 
manage forests. We continue to work closely with our Federal, 
state and local partners at the forest level and throughout the 
California Fire Alliance at the state level.
    A number of Fire Safe Councils is growing across the state. 
These community-based organizations are doing excellent work. 
They're increasing the awareness of the problem and they're 
helping local residents take action to reduce the risk of 
wildfire to themselves and others.
    As our Chief, Dale Bosworth, observed in his August 
testimony to you, it will take decades of work to restore these 
forests to healthy conditions, providing our society is willing 
to focus on this issue over time and commit the needed 
resources.
    We must take a comprehensive, strategic approach and have 
all the necessary tools available to actively manage the land. 
We also must work cooperatively to draw on the strengths of all 
involved.
    I am committed to doing everything I can to avert disaster 
in Southern California and to restore California's national 
forests to healthy conditions. The San Bernardino National 
Forest is a wake up call we all must heed.
    This concludes my testimony. I'd like to thank you for the 
opportunity to be here today before Supervisor Zimmerman and 
I'd be happy to answer any questions.
    [The prepared statement of Mr. Blackwell follows:]

   Statement of Jack Blackwell, Regional Forester, Pacific Southwest 
         Region, Forest Service, U.S. Department of Agriculture

    Chairman Pombo and members of the Committee, thank you for the 
opportunity to talk with you about the forest health crisis we face on 
the San Bernardino National Forest and the urgent need to treat our 
national forests to reduce the severe threat of catastrophic wildfire. 
I am also pleased that you chose Lake Arrowhead as the location for 
this hearing since this community and its residents are located at the 
heart of an environmental crisis. I have with me today Gene Zimmerman, 
Forest Supervisor for the San Bernardino National Forest.
    As the Forest Service has testified before the House of 
Representatives and the Senate, the Department of Agriculture strongly 
supports the President's Healthy Forests Initiative and H.R. 1904, the 
Healthy Forests Restoration Act of 2003.

Background
    At 672,000 acres, the San Bernardino National Forest is not one of 
the nation's largest national forests, but with 24 million people 
living within a two hour drive, it is certainly one of the nation's 
most heavily used forests. It provides some of southern California's 
most valuable recreational open space in an ever-expanding sea of urban 
development, and it also contains otherwise dwindling habitat for 
wildlife and plants, 40 of which are considered threatened or 
endangered species.
    The San Bernardino National Forest is going through a significant 
cycle of drought-related, vegetation mortality. As of July 2003, 
approximately 474,000 acres in the San Bernardino and San Jacinto 
Mountains on both private and public lands were experiencing severe 
tree loss, ranging from ten percent of all the trees in a given area to 
100 percent. The four-year drought has weakened trees and brush 
allowing bark beetles, root disease and dwarf mistletoe to reach 
epidemic proportions.
    Historically, this forest was fairly open, with mostly larger 
trees. Today, a very different forest, one choked with mostly smaller 
trees--often hundreds per acre--all competing for limited moisture and 
nutrients. Much of the area is in the mixed conifer forest type in 
which frequent wild fire is a natural event. However, much of this 
forest has not burned in 90 to 120 years, an average of three to four 
skipped fire cycles. The result is a tremendous build-up of hazardous 
fuels. Using prescribed fire to reduce the fuels has been difficult 
because of the risk to communities within the national forest 
boundaries.
    Mechanical removal of the fuels has not kept up with the fuel 
build-up for several reasons. Some community covenants have restricted 
landowners since the 1920's from tree removal activities on private 
land within the National Forest. The Forest has not had an active 
timber harvest program for nearly 10 years. There are no lumber mills 
in southern California and now the current removal of dead and dying 
trees is difficult and expensive.
    Approximately 100,000 people live within the Forest boundary. If a 
large fire occurs, it is likely to threaten the lives of many residents 
and forest visitors. The mountain communities have nearly 100,000 
structures, assessed by the San Bernardino County Assessors Office at 
approximately $8 billion. The dead trees and vegetation mortality lead 
to an increased risk of catastrophic wildfires that likely would 
threaten life and property and could damage public utilities and other 
infrastructure.
    Two weeks ago, the 1,400 acre Bridge Fire at the foot of the 
mountain forced the evacuation of 1,500 people and closed one of three 
key mountain community evacuation routes for over a week. I am very 
proud of the hard work of the Forest Service staff and our partners 
during this fire and in the months before. Every single person 
evacuated from Running Springs during the Bridge Fire was able to 
return safely to their home. The pre-planning that went into fighting 
this fire was exceptional and was the deciding factor in bringing that 
fire to a safe end.
    The President's Healthy Forest Initiative would play a key role in 
helping us avoid situations such as we see on the San Bernardino 
National Forest today. The initiative is based on a common-sense 
approach to reducing the threat of catastrophic wildfires by restoring 
forest and rangeland health and ensuring the long-term safety and 
health of communities and natural resources in our care.

Cooperation is Key
    The forest health situation in the San Bernardino and San Jacinto 
mountains does not recognize ownership boundaries or agency 
responsibilities. That means a public and private partnership is 
critical in providing an integrated and coordinated approach to address 
the crisis Forest-wide.
    The San Bernardino National Forest has forged such a partnership 
with State and local government agencies and private sector. There are 
two interagency organizations that evolved from that partnership, the 
Riverside County and the San Bernardino County Mountain Area Safety 
Task Forces or MASTs. Each MAST includes representatives from 
individual agencies and organizations such as the USDA Forest Service, 
California Department of Forestry (CDFFP) county fire, sheriff and 
solid waste management, CalTrans, air quality management districts, 
municipal fire and water districts, state and county offices of 
emergency services, Environmental Systems Research (ESRI) and Southern 
California Edison.
    Working with stakeholders in local communities, the MASTs have 
developed a comprehensive strategy to address the public safety and 
forest health issues on both public and private land. The foundation of 
the strategy is to collaboratively develop one plan, and then implement 
the plan based on each agency's jurisdiction and resources. 
Implementing this strategy will significantly reduce the threat to 
people and communities as well as to the environment, and will restore 
the forest to more healthy conditions. This is one of the most 
extensive, pre-event planning efforts to ever take place for a national 
forest and its surrounding communities. I believe it is an excellent 
model of collaboration for other areas in the nation.
The MASTs strategy has three parts:
    <bullet> Emergency Preparedness Response--Develop and implement a 
coordinated plan with other emergency response agencies which provides 
for public and employee safety by identifying evacuation routes, 
staging areas, and safety zones;
    <bullet> Fuel Reduction Around Communities and Key Evacuation 
Routes--Remove extreme levels of fuel around community's public 
infrastructure and key evacuation routes; and
    <bullet> Long-Term Planning and Treatments--Actively manage 
national forest lands to improve stand vigor and restore forest health. 
Encourage and assist homeowners in clearing vegetation and removing 
excess trees on their property.
    The contribution and dedication to the cause of all of the involved 
partners is noteworthy. The generosity of ESRI and Southern California 
Edison are notable examples. ESRI has provided essential technical 
assistance and Geographical Information Systems software. The company 
has assigned its best people to assist the MASTs efforts and has 
provided computer mapping software and assistance so valuable its worth 
would be difficult to calculate.
    In April 2003, the California Public Utilities Commission (CPUC) 
directed Southern California Edison and other utilities in the affected 
counties to take action to remove trees that could fall on power lines, 
recognizing the danger they pose. Southern California Edison's 
contribution to removing dead and dying trees in both public and 
private lands in the San Bernardino and San Jacinto mountains alone 
will be over $300 million and includes reimbursing homeowners for doing 
this work.
    The forest health partnerships on the San Bernardino National 
Forest go beyond financial commitments. Firesafe Councils are playing 
an essential role in relaying information to communities and thousands 
of interested citizens, and in developing community-based solutions and 
priorities. The MASTs rely heavily on their help. The San Bernardino 
National Forest Association's Fire Education Volunteers and Volunteer 
Fire Lookouts, and CDF's Volunteers in Prevention provide countless 
hours and effort dedicated to educating the public about fire 
prevention. All of these groups are vital to the public understanding 
and support necessary for the overall long-term success of the 
strategy.

Emergency Preparedness Response
    Southern California wildland firefighting capability is already 
considered to be one of the highest in the country on a ``normal'' fire 
year. Since 2001, fire suppression resources on the San Bernardino have 
increased by nearly 50 percent as a result of the National Fire Plan, 
providing additional aircraft, engines and crews. Moreover, fire 
suppression resources from other national forests are rotated through 
San Bernardino National Forest as they are needed. The CDFFP has 
increased their fire fighting resources by 25 percent in southern 
California. CDFFP has also supplied a crew to assist making evacuation 
routes safer, and is providing direct assistance to private landowners.
    This year the Forest Service to date has redirected $3.2 million in 
State Fire Assistance and Community Protection/Community Assistance 
funding for wildfire prevention and hazardous fuels reduction for 
communities in the San Bernardino National Forest areas. In an attempt 
to reduce human-caused fire ignitions, the Forest has also increased 
the fire prevention workforce and supplemented that workforce with 
additional resources such as volunteers and grassroots organizations.

Fuel Reduction Around Communities and Key Evacuation Routes
    The San Bernardino National Forest has also been approved for $9 
million in hazardous fuels treatment for the current fiscal year. The 
San Bernardino National Forest, in cooperation with its state and local 
partners, is moving forward with work to remove dead trees along 
evacuation routes and reduce fuel hazards. The San Bernardino National 
Forest has five projects underway or completed that will help make 111 
miles of roads safer to use as evacuation routes. It has 13 fuel 
reduction projects underway or completed that treat 11,600 acres, and 
is in the planning stages for two more projects covering 1, 200 acres. 
These projects will enhance protection of local communities and homes. 
Four projects are underway that provide added protection for critical 
communication sites.
    The San Bernardino National Forest is expediting this critical work 
in several ways, requesting and receiving a special exemption to 
shorten the contracting process. The San Bernardino National Forest has 
worked with the U.S. Fish and Wildlife Service to develop a Memorandum 
of Understanding to expedite the consultation process and has been 
using the emergency consultation process and timelines whenever 
possible.
    The San Bernardino National Forest has used categorical exclusions 
contained in its National Environmental Policy Act (NEPA) procedures 
for timber stand and wildlife habitat improvement to expedite 
environmental review on seven projects and decisions issued before 
March 10, 2003, that have avoided sensitive species, threatened and 
endangered species, and archaeological resources. In the future, the 
newly finalized categorical exclusions for fuels treatments provided by 
President's Healthy Forest Initiative will further increase the San 
Bernardino National Forest's capability to do urgently needed fuels 
treatments.
    The San Bernardino National Forest has made good headway, but there 
is much more to do. In 2004 the Forest will continue these types of 
projects, treating additional acreage and maintaining work completed 
earlier to reduce the fuel load in the Wildland Urban Interface (WUI). 
The San Bernardino National Forest is working with the communities to 
design and implement demonstration projects to show what a healthy 
forest really looks like.

Long-Term Planning and Treatments
    During the last year, the focus of work by the MASTs has been on 
meeting essential, immediate public safety needs. The San Bernardino 
National Forest is now beginning to plan for the long-term work that 
must be done. Active forest management is critical to improving stand 
vigor, minimizing vegetation mortality, and reducing the threat of 
large stand-replacement fires. That means thinning dense stands of 
trees. It took a long time for the San Bernardino National Forest to 
get into this unhealthy forest condition and it cannot be fixed 
overnight. It will take a lot of time and effort by the Forest Service 
and its partners to return the Forest to a healthier condition.

Looking Beyond the San Bernardino NF
    I am very concerned that what we are seeing on the San Bernardino 
National Forest will happen again in many other forested areas in 
California. Forest conditions--dense and overgrown--on other national 
forests in California are similar to those on the San Bernardino. Those 
ecological conditions, combined with the massive influx of people into 
California's wildlands and the rapid growth of communities in and 
around those wildlands, particularly in the Sierra Nevada, have created 
the potential for truly disastrous wildfires.
    Many of California's national forest ecosystems have evolved with 
fire. However, as we have seen on the San Bernardino National Forest, 
in many areas we cannot rely on fire to restore them to healthy 
conditions. The risk is too great, the forests are too dense, there is 
too much fuel, and too many people living too close to the forests. 
Under these conditions we must find other ways to actively manage the 
forests, thin the over-crowded stands and return the forests to health. 
When wildfires do occur, we need to continue to respond quickly and 
effectively.
    We are making good progress throughout California:
    <bullet> Over the past two years, we have reduced fuels on almost 
a quarter of a million acres of California's national forests and 
expect to treat another 75,000 acres in 2003. Nearly 75 percent of 
those treatments are in the WUI;
    <bullet> We have significantly increased our wildland firefighting 
resources and provided 191 grants totaling over $11 million to local 
communities and organizations, helping them reduce wildfire risk. For 
example, this year the San Bernardino National Forest awarded $800,000 
in grants to local counties and Fire Safe Councils;
    <bullet> We are proposing changes to the 2001 Sierra Nevada Forest 
Plan Amendment. I feel strongly that these proposed changes will 
improve our ability to reduce fuels and protect old forests, wildlife 
habitats, watersheds, and communities. We will continue to place 
priority on treatments in the WUI and treat sufficient area in the 
wildlands to ensure success in the urban interface;
    <bullet> The Pacific Southwest Region recently completed a review 
of the Northwest Forest Plan Forests in northern California. We found 
problems similar to those we found in the Sierra Nevada, and we are now 
working with local Tribes, counties, and interest groups to make 
changes that will help us reach our goal of healthy forests more 
quickly and efficiently;
    <bullet> We are looking forward to applying the tools provided by 
the Healthy Forest Initiative. These will improve our ability to 
actively manage forests and reduce dangerous accumulations of hazardous 
fuels with greater speed and efficiency and better protect watersheds 
and habitat; and
    <bullet> We are working closely with our federal, state and local 
partners at the Forest level and, through the California Fire Alliance, 
at the state level to better coordinate our efforts. The number of Fire 
Safe Councils is growing across the state. These community-based 
organizations are doing excellent work in increasing awareness of the 
problem and helping local residents take action to reduce the wildfire 
risk to themselves and others.

Summary
    The forest health situation on the San Bernardino and throughout 
the Pacific Southwest Region is very dynamic. The key to avoiding 
potential catastrophic wildfire is by taking a comprehensive, strategic 
approach with all involved organizations, and having all the necessary 
management tools available to use. Long-term success will also require 
building and maintaining relationships and cooperative planning that 
draws on the strengths of everyone involved.
    I am committed to doing everything I can to avert disaster in 
Southern California and restore the rest of California's national 
forests to healthy conditions. The San Bernardino National Forest is a 
wake-up call we must heed. This concludes my testimony. Both Forest 
Supervisor Zimmerman and I would be happy to answer any questions the 
Committee might have.
                                 ______
                                 
    The Chairman. Thank you and Mr. Zimmerman, I understand 
you're here to help answer questions, specifically with San 
Bernardino Forest.
    Mr. Zimmerman. That's correct.
    The Chairman. Mr. Blackwell, in your testimony you talk 
about the density on the forest and that there were hundreds of 
trees per acre. What would be a more natural stand in this 
forest here?
    Mr. Blackwell. One size doesn't fit all, but I know we'll 
have some other experts today who may wish to query on that, 
but 40 to maybe a high of a 100 trees per acre with most of 
them at the lower end, perhaps 40 trees per acre.
    The Chairman. Talking about taking aggressive action on our 
forests, if we don't--if Congress and the Federal Government 
doesn't step forward at this point, what do you predict and I 
know that's a difficult thing to do, but what do you predict 
would happen with this forest here if we're not taking action 
and doing the kind of things and giving you the ability to do 
the things you need to do?
    Mr. Blackwell. Well, the worse case is serious loss of life 
and property and if we don't take action, sooner or later 
that's going to happen. We know these fires today have more 
resistance to control, they burn hotter with more intensity, 
they're more difficult to put out. We see that across the West 
and this national forest is no different. The situation here 
though is far more serious with these 100,000 people living 
within the boundary.
    The Chairman. In terms of the investigation and the insect 
infestation, if we don't take some kind of action, Forest 
Service doesn't take some kind of action, and that continues to 
spread, does it not just kill off the forests?
    Mr. Zimmerman. Conceivably, the worse case scenario we 
could be left with a forest with no conifer trees or at least 
very few.
    The Chairman. What would replace it?
    Mr. Zimmerman. Brush, shrubs, perhaps a few small trees, 
hopefully a large reforestation program, a lot of slash on the 
ground, incredible hazard for fire in the meantime.
    The Chairman. What impact would that have on watershed?
    Mr. Zimmerman. I think you'll hear later today from a 
person involved in the Santa Ana Watershed and some of the 
reading that I've done is catastrophic effects on some of the 
watersheds, particularly if there's a large fire, in terms of 
the downstream effects on water quality as well as the cost to 
treat that water, so it's usable downstream.
    The Chairman. Just refresh my memory, approximately how 
many acres is the San Bernardino forest?
    Mr. Zimmerman. Slightly over 800,000 acres gross, about 
200,000 of that is private land, so there's about a 640,000 
acres net national forest land inside the boundary.
    The Chairman. So a lot of the private land that is held 
within the forest are the areas that are inhabited?
    Mr. Zimmerman. Yes.
    The Chairman. And one of the things that has been proposed 
and people have talked about is just limiting the treatment of 
the forest and the public lands to within a half a mile of the 
urban wild land interfaces, as they call it.
    In a forest like the San Bernardino forest, what impact 
would that have if we limited the ability to treat within a 
half mile of the urban areas and what impact would that have if 
we did have a catastrophic fire?
    Mr. Zimmerman. First of all, I don't believe that narrow a 
protection zone around the forest will provide adequate 
protection. Many of these fires start down in what we call the 
front country, down in the chaparral, down below, and by the 
time they move up the hillside under or across the hillside 
coming up the slope, they have a pretty wide front and when 
they hit the top or hit the private land with that real wide 
front it spreads the fire fighting resources very thin. It also 
puts a lot of community buffer boundary at risk and the 
probability of us being able to contain a fire of that narrow 
boundary would be very, very low.
    The Chairman. Thank you. Mr. Cardoza?
    Mr Cardoza. Thank you, Mr. Chairman. Sir, if we were to 
engage in different kinds of forestry practices, basically 
clearing out dead trees and such, would in fact we have the 
situation we have now with the devastation and the beetles?
    Mr. Zimmerman. I don't believe so. I think we get forest 
practices that we can employ that are pretty light on the land, 
there's equipment that's light on the land. There's a lot of 
work that can be done by hand with manpower crews, youth 
employment programs and that sort of thing.
    We do know that there will be impacts as we treat the land, 
but we know that those impacts are much less than the impacts 
of a catastrophic wildfire and that's the balancing act that we 
have to take here.
    Mr Cardoza. How does the interface between state lands, 
private lands and Federal lands work? Obviously, beetles don't 
know where geographic boundaries are, so if the state isn't 
managing its land adequately, that can adversely affect private 
land and Federal land, even if they're doing a good job on 
those other two areas?
    Mr. Zimmerman. At this point, the population of beetles is 
so high that it doesn't make any difference what people have 
done in the past to manage the lands. The beetles are going 
everywhere and when they attack trees, you can write them off.
    Mr Cardoza. It's my observation that these problems have 
been exacerbated as new regulations have come on line, for 
example, Timber Harvest Plans have been a bit more difficult. 
Recently, in the State of California, they just passed a new 
proposal for additional regulations on Timber Harvest Plans.
    Can you speak to how that may adversely or beneficially, if 
I'm wrong, affect the situation?
    Mr. Zimmerman. I think perhaps Andrea Tuttle could better 
answer that. Jack, do you want to answer that?
    Mr. Blackwell. I have no first hand experience either. I 
hear concern about that.
    The Chairman. Mr. Lewis?
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Mr. Zimmerman, you and I have worked personally closely 
together over all these months as this crisis has begun to 
explode upon us. It's apparent that it's going to take years, 
not just weeks or months to get a handle on the number of dead 
and dying trees and it seems as Mr. Blackwell indicated, every 
week the number is exploding upon us. So there's a huge cost 
that is involved in progressively taking out those dead trees 
over a long period of time. As a practical matter, it is 
important that we move forward on public land, private land, 
state, Federal land regardless.
    I would ask both of you what is happening in terms of the 
Forest Service as it relates to priority of budgets. Are you 
confident that there is a level of understanding as well as a 
shifting of priority that will cause the budget year ahead of 
us to see a significant adjustment upward in the palm of the 
Forest Service?
    Mr. Blackwell. I'm confident there's a great awareness and 
understanding and speaking from my level at the region, I will 
move dollars, funds and people around to the highest priorities 
in the region. It would be irresponsible for me to do anything 
else and that's what I've done in the past year, shifting funds 
down here. I will continue to do that, again, as needed.
    There's, as I said, good awareness in the Administration 
and I believe increased budget requests from us and I'm hopeful 
that we'll see some of that increased funding.
    Mr. Lewis. As you know, when the Secretary of Agriculture 
was here, she made a public commitment of $5 million of 
additional money to meet the challenges here, to begin to 
mitigate against this problem. Just recently, we've learned of 
$30 million in the 2003 supplemental that is going to be 
applied to the forests in this region and I would hope that a 
significant piece of it will be flowing for mitigation 
purposes.
    Is the local forest organization prepared and ready and 
able to handle a significant increase, a rapid increase in 
those dollar quotes.
    Mr. Blackwell. Maybe I'll let Gene answer that.
    Mr. Zimmerman. Yes, I'll comment on what we've done this 
past year. We've spent $9 million on this effort in the past 
several months with a very small organization. I think we spent 
that money quite efficiently. A lot of the work that we're 
talking about doing is very expensive in the range of up to 
$4000 per acre using contractors to do that work.
    So moving from $9 million to $12 million or $10 million is 
not a real big jump. Of the $30 million that you mentioned, $10 
million will be coming to the Forest Service is my 
understanding and $20 million to local governments, so with the 
$10 million that's earmarked, less about $2 to $3 million 
through normal appropriations coming to the Forest, about a $12 
million program next year, again, they'll say isn't that a big 
jump from this past year's program. In terms of our capability, 
I think we've got all the capability in the world to spend that 
money and do it wisely.
    Mr. Lewis. Mr. Chairman, your being here is a reflection of 
the priority the Committee gives to our Healthy Forest 
Initiative, should we find ourselves in a circumstance where a 
major fire takes place, we've already heard about the 
beginnings of the potential devastation that that would mean to 
the region.
    In the meantime, this forest, the effort to save this 
forest could very well become a model for the country and in 
connection with that, one of my friends recently, who was more 
expertise than I, suggested that we ought to be considering a 
major nursery program, that is presently collecting seeds with 
the same DNA as the forest that's here, attempting to put 
together a package that would perhaps fund major nursery 
efforts, to grow sizable volumes of trees and begin a plan for 
planting trees now to replace that which could be before us.
    Could you comment about that prospect?
    Mr. Zimmerman. You're exactly right. We've already awarded 
a contract for seed collection this fall, that's part of our 
priority work in restoration of the forest. We can have those 
seedlings planted in a variety of nurseries up and down the 
state and other places in the West actually have them grown 
there from local seed and then bring them back here and plant 
them after they've grown for a couple of years.
    Mr. Lewis. Is there specific funding required to increase 
that effort? Among the dollars that are flowing should the 
Committee be considering a special authorization that would 
ratch it up, what is pretty much a standard effort on the part 
of the Forest Service?
    Mr. Zimmerman. We are going to need considerably millions 
of dollars in the restoration efforts, so you're exactly right.
    Mr. Lewis. Mr. Chairman, thank you.
    The Chairman. Thank you. Mr. Gibbons?
    Mr. Gibbons. Thank you very much. Gentlemen, thank you for 
your presence here today. Your testimony is indeed enlightening 
to all of us and I'm sure to the people in the audience as 
well.
    Mr. Blackwell or Mr. Zimmerman, if you did nothing, could 
this forest recover without intervention?
    Mr. Blackwell. I don't believe so. I'll let Gene elaborate.
    Mr. Zimmerman. Perhaps it would, but it would take 
hundreds, if not a thousand years. I'm not an ecologist. I call 
it a sawdust forester, but it would go through a long 
evolution, particularly--this is fire prone country, so if we 
were to have one fire and kill a lot of what's left and leave a 
lot of materials still behind because it won't all be consumed 
in the first fire, perhaps cones will open up in that first 
fire and some new trees will start, but typically a second fire 
will follow or a third fire. And pretty soon, you have a barren 
landscape with no viable seed to start a new forest and then 
you'll start all over.
    Mr. Gibbons. I've seen some of the moonscapes in the Sierra 
Nevada range that have followed after a very hot fire. There is 
nothing there, barren sand, simply eroding away.
    Let me ask a question also, with the $9 million which you 
say is treating 12,800 acres or the $12 million which Mr. Lewis 
has alluded to, and you have said in your testimony as well, 
can you stay ahead of the advancement of the disease and dying 
trees in this forest at that rate?
    Mr. Zimmerman. At some point in time there will be more 
trees left to die. At that point maybe we'll gain on this. 
Whatever we have, I guess--we've lost another 100,000 acres, 
have been affected. I shouldn't say lost, had been affected by 
mortality in the last 6 months. On the Forest Service side, 
we've only treated 12,800 acres.
    Mr. Gibbons. So you're losing 100,000 acres in 6 months. 
The $12 million is only going to cover say 15,000 of those 
acres. You're vastly behind the power curve on this issue.
    Mr. Zimmerman. I suggest you're right.
    Mr. Gibbons. Let me ask another question. The cost of 
fighting a fire, reforestation, compare that to the cost of 
treatment of a forest?
    Mr. Blackwell. Well, the cost of fighting a fire is far 
greater than the cost of treatment. There's just no question 
about it. And that's where the dollars can be saved. The 
Healthy Forest Initiative makes so much sense. Rather than 
spending $1 billion or $1.2 billion a year ago in suppression, 
if we could be putting funds like that into treatment, we 
wouldn't have the need for suppression costs like that.
    Mr. Gibbons. So it's my grandmother saying an ounce of 
prevention versus a pound of cure.
    Mr. Blackwell. Exactly.
    Mr. Gibbons. Is what we need. Let me follow up by the 
economics of treating, the thinning program. What do you do 
with the large trees that you cut down? What is the process 
through which they go? California, in this area, doesn't have 
saw mills to take advantage of the lumber. What happens to 
these trees?
    Mr. Zimmerman. This is an incredibly tough problem here. 
Some of the material is going to a generation plant near Palm 
Springs. Some of it goes up north to saw mills, a very small 
percentage is going to a saw mill up north. Some is going to 
land fills, using it as daily cover on the land fills. A lot of 
on the Forest Service side we're going to pile and burn in 
place. Using crews, by hand they'll pile the slash and we'll 
burn it in wet season or using tractors, we'll pile it.
    We're chipping with large commercial chippers. And we're 
also using air curtain destructors and I think Supervisor 
Hansberger might address that issue, but there are a large 
amount of bins that have fans that help dump the material in 
and burn. That's an expensive process, just like the land fill 
process is.
    Mr. Gibbons. Could the economics of thinning be advanced by 
having a commercialized capability for dealing with this? In 
other words, the cost of thinning be mitigated in some fashion 
by having commercially available individuals who can treat 
forests?
    Mr. Zimmerman. Yes. A large part of the money for 
treatment, particularly on the private lands is going to the 
disposal site or the waste stream side, as we're calling it and 
if we could alleviate part of that cost, it would make more 
money available for actual treatment and make the whole 
operation more efficient economically.
    Mr. Gibbons. Gentlemen, thank you very much for your 
testimony today. I'm always reminded that the arguments of 
emotion trump science. It's too bad we can't use science as the 
basis by which we treat our forests. Thank you for your 
presence here today.
    The Chairman. Mr. Walden?
    Mr. Walden. Thank you, Mr. Chairman. Later, in Chairman 
Hansberger's testimony before the Committee, he's going to say, 
among other things, that the dead trees are rotting at 3 to 5 
times faster than normal. Can you explain to me why that's 
occurring?
    Mr. Zimmerman. I can't explain that. I think we all have 
that intuitive reaction to what's going on out there. I've seen 
no science to support that, but I believe all of us feel like 
that deterioration is rapid and more rapid than we would 
expect.
    Mr. Walden. That then presents costly alternatives and 
problems for trying to get these trees dealt with by people 
doing the falling?
    Mr. Zimmerman. And it would also present significant safety 
hazards down the road in a year or two for the people who are 
working on this material.
    Mr. Walden. Now I want to go back to a comment about the 
wild land urban interface because I recognize that there's an 
extraordinary need to deal with these treatments around wild 
land urban interface, and I know that some of the fires up in 
my part of the world, they were spotting two to six miles out, 
embers were flying still hot and starting grass fires. Can you 
telling me if there's any sound, scientific basis to not treat 
these forests back up in the watersheds away from the wild land 
urban interface? And second, is there any way that a fire 
reaches 2600 feet from a community and says OK, I'm going to 
stop here? At least here, the Senate is trying to water down 
this bill and say put virtually all the effort within a half 
mile of a community and I don't think that's going to solve the 
problem.
    Mr. Blackwell. There's no way that a fortress like approach 
just around the community will work. These fires, as you said, 
have been observed in Oregon, spot great distances and not only 
must we treat the wild land urban interface, but we must treat 
some of the forests out there. We just must.
    Mr. Walden. It seems to me the other issue that some in the 
Senate seem to be hung up on is this issue of not treating old 
growth, somehow protecting that and I'm all for preserving the 
best of our forests, but it strikes me that if you've got a big 
old tree that's disease-ridden, why would you leave it because 
it's big and old when it needs to be removed versus protecting 
the smaller diameter trees that are healthy? Is that how you 
manage today in thinning?
    Mr. Blackwell. No. My answer would be that we need a 
diversity of age classes in forests. There are species, 
habitats that are very dependent on each and we need early soil 
conditions, we need mid-soil conditions and we need some 
percentage of old forest. The problem is it can't all be old 
forest, it just doesn't work that way.
    Mr. Walden. And is there a way that we can set a breadth-
height diameter and call it old growth and have that work for 
your management strategies?
    Mr. Blackwell. There is no science basis for an arbitrary 
diameter limit cutoff. There's some social reasons, sometimes, 
that we've tried to do this, but there is no science basis.
    Mr. Walden. No science-based reason to do that. OK. And I 
guess the other question, I was stunned, frankly, driving up 
here to come around the corner and see a high school. I mean 
I'm not used to that in a forest, quite like that.
    And then it amazed me that 100,000 people are up through 
here. I just noticed one road in and out. Has anybody done any 
studies to say what mortality may occur if you get a runaway 
fire coming up thee canyons?
    Mr. Zimmerman. I don't think there's been a study per se. 
All of us in the emergency service side of this equation are 
very, very concerned about the possibility of a large rapidly 
moving fire, put against the issue of evacuation. And at the 
same time trying to get equipment up the hill while we're 
trying to get people down the hill.
    There are three evacuation routes off the San Bernardino 
Mountains that are public highways.
    Mr. Walden. Are they all as windy and twisty as the one we 
came up?
    Mr. Zimmerman. None of them are straight.
    Mr. Walden. When Congressman Lewis is done with the 
appropriations process, you're going to have a----
    [Laughter.]
    Right there. In all seriousness, you could get yourself 
twisted pretty tight thinking about the ramifications. I mean I 
look at some of the exit problems we had in some of our forests 
getting small communities evacuated. My God, if a fire comes 
blazing up these hills at 120 mile an hour Santa Ana blowing 
it, what do you do?
    Mr. Zimmerman. We're very concerned about that. I will say 
this, we are concerned about--the first we had a large fire 
this summer, about hysteria, if you will on the public side. We 
had the Bridge fire a couple of weeks ago. People who lived 
directly above that fire in Running Springs, in the Running 
Springs area were equally professional as the fire fighting 
services, they were very orderly, they knew what they to do and 
they did it when they were told to do it. So if we experience 
that with 1500 people, I hope we can have a similar situation 
when we have perhaps several thousand people at risk.
    Mr. Walden. How many thinning projects do you have in the 
planning stages right now in this forest?
    Mr. Zimmerman. We have probably 15 projects that are in one 
state or another of planning, relative to dealing with the 
problem that we have at hand that we're talking about here 
today.
    Mr. Walden. And given the progress of those, how many have 
been appealed or do you anticipate being appealed?
    Mr. Zimmerman. None have been appealed. We're working right 
in the urban interface right now and I think almost everybody 
and all the mainstream environmental folks seem to be well 
aligned with this notion that we have to do something right in 
the urban interface. It's when we get deeper into the national 
forest, that distance that you were talking about earlier, that 
perhaps the arm wrestling is going to begin.
    Mr. Walden. And when you say the wild land urban interface, 
how are you defining that?
    Mr. Zimmerman. We're working right now on what we call kind 
of a triage fashion. We're going around the community just in 
treating a very narrow area 200, 500, 600 feet wide.
    We anticipate coming back and then moving deeper into the 
forest because we know that's not adequate.
    Mr. Walden. As you've already alluded to.
    Mr. Zimmerman. I know I've gone over time. Thank you, Mr. 
Chair.
    The Chairman. Thank you. I want to thank our first panel 
for their testimony and for answering the questions. I'm going 
to excuse you two gentlemen and call up our next panel. Thank 
you.
    I'd like to call up the second panel. On Panel Two, we have 
the Honorable Dennis Hansberger, Chairman, San Bernardino 
County Board of Supervisors, accompanied by Dr. Thomas 
Bonnicksen, Professor, Department of Forest Science, Texas A&M 
University; Ms. Andrea Tuttle, State Forester, California 
Department of Forestry and Fire Protection; Mr. Alan J. West, 
member of the National Association of Forest Service Retirees; 
and Mr. Jay Jensen, Legislative Director for the Western 
Forestry Leadership Council.
    Thank you all for being here. I'd like to remind the 
witnesses that under Committee rules, you must limit your oral 
statements to 5 minutes, but your entire written testimony will 
appear in the record.
    I'd like to now recognize Chairman Hansberger for his 
statement.

    STATEMENT OF HONORABLE DENNIS HANSBERGER, CHAIRMAN, SAN 
             BERNARDINO COUNTY BOARD OF SUPERVISORS

    Mr. Hansberger. Honorable Members of the Committee, 
Chairman Pombo, thank you very much for your presence here 
today. As Chairman of the Board of Supervisors on behalf of the 
citizens of our county, we thank the Committee for its work to 
protect our forests and for its special interest in this 
extreme situation.
    The drought has left our forests vulnerable to the Bark 
Beetle infestation. While the County has done much to address 
this threat, the problems dwarfs the resources at our disposal.
    Other forest regions may have as many dead and dying trees, 
but this forest is the most widely visited in the Nation and 
the most populated, containing $8 billion worth of homes and 
businesses. Our County has aggressively attacked this crisis 
and has already spent or committed over $6 million of general 
fund monies. We've taken steps to remove dead standing fuel. 
We've created lumber staging areas to store equipment, deck 
logs and managed wood products at a lower costs. We've sited an 
incinerated on Forest Service property to reduce the burden of 
managing wood products at our land fills.
    Nine months ago our solid waste system managed 5 tons of 
wood waste per day. We have now exceeded 500 tons per day which 
has an expense of several hundred thousand dollars a month to 
our cost.
    The residents of this county are at the heart of this issue 
and deserve to be recognized today. They have removed far more 
dead and dying trees than all other agencies combined. They 
have risen to the occasion and done what is necessary for 
themselves, their neighbors and our mountain communities.
    The economic hardships are enormous and beyond the means of 
many mountain home owners, one third of whom are considered low 
or moderate income by Federal standards. These are working 
families, the elderly, the disabled who risk foreclosure, 
draining their savings, using up their equity and going into 
debt. We appreciate the Southern California Edison working 
partnership with us to reduce the fire hazard and the cost of 
tree removal. However, this collaboration does not relieve 
citizens from that economic burden.
    The Board of Supervisors authorized the Mountain Area 
Safety Task force known as MAST to be the mechanism to manage 
this multi-jurisdictional agency. MAST works to coordinate fire 
prevention, emergency responsive evacuation and is looking 
years ahead at reforestation. Equally vital to our success, 
Fire Safe Councils have effectively involved the community 
through their volunteer efforts, community projects, public and 
town hall meetings. There were just a few weeks ago over 700 
people in this room and the halls adjacent to it meeting on 
those very subjects.
    The efforts of MAST and the Fire Safe Councils were put to 
the test just 2 weeks ago during the Bridge fire. Many men and 
women who fought that fire are here today. Their hours of 
multi-agency planing and preparation paid off. No lives or 
homes were lost and the fire was stopped before it reached the 
community of Running Springs.
    Today, I'm asking that Congress reexamine national policies 
that require up to 4 years of study before fuels can be 
treated. The fuels we are studying are dying, dying in our 
neighborhoods, not in our years, not in 4 months, but in less 
than 4 weeks. The process simply does not fit the problem and 
by the time we study it, it will be and is, too late. I implore 
this Committee and Congress to reconsider the policies that 
guarantee hundreds of millions of dollars for relief after the 
ravage of catastrophic fire, but nothing to prevent it.
    This disaster is predictable and with the solutions 
provided by the President's Healthy Forest Initiative, 
responsible and professional land managers will have the 
ability to effectively reduce hazardous fuels.
    I also am asking Congress to consider the environmental 
permitting and review processes that will allow us to more 
rapidly develop projects and facilities that would reuse 
renewable resources. Facing this ecological disaster, we want 
to take advantage of new technologies that do not rely on 
fossil fuels to create energy.
    We have created a bureaucratic process that hamstrings 
common sense procedures and keeps qualified professionals from 
being able to do their jobs. Our County has urged the President 
to declare a Federal emergency in our forests and open the door 
to additional support needed to address this crisis. Your help 
is needed to establish this declaration.
    In closing, had the vision embodied in the Healthy Forest 
Initiative been realized many years ago, our forest communities 
would not be facing this crisis today. We have the makings of 
the worse fire in American history.
    Mr. Chairman and Members, we ask you to give us the 
assistance, tools and regulatory relief needed to prevent such 
a historic tragedy.
    Finally, I would like to thank Congressman Lewis for his 
commitment to the safety of our citizens, also his efforts to 
work with Congress to find funding where none had previously 
existed. We wish we had brought you here today to enjoy our 
forests, however, we do sincerely appreciate your efforts in 
making them healthy and safe and beautiful again. Thank you, 
Mr. Chairman and Members of the Committee.
    [The prepared statement of Mr. Hansberger follows:]

        Statement of The Honorable Dennis Hansberger, Chairman, 
               San Bernardino County Board of Supervisors

    The County of San Bernardino would first of all like to express its 
appreciation to the Committee for the work it has done to protect our 
forests and for taking such a special interest in the extreme and 
unprecedented crisis we face.
    Had the vision embodied in the Healthy Forests Initiative been 
realized many years ago, San Bernardino County's forest communities 
would not be facing the crisis we have today. Our forest is clearly 
overgrown, and this density created a perfect environment for drought 
and pestilence. Had we managed the forest as nature intended and in a 
manner consistent with the way we found it centuries ago, we would be 
living in harmony with our environment rather than taking expensive and 
exhaustive steps to protect ourselves from it.
    Years of drought have left the millions of evergreens in our forest 
communities vulnerable to bark beetles, and these insects have turned 
entire tracts of once-emerald forests brown with death. The County has 
done much to address the threats posed by this situation, but the 
problem dwarfs any and all resources at our disposal.
    The County of San Bernardino alone has so far invested more than $6 
million in the effort to address this crisis. This funding comes from a 
very limited source. Because of state and federal mandates and other 
inflexible needs, the County has true discretion over only a small 
fraction of its annual budget, and these dollars are under constant 
threat of being commandeered by the state to help solve California's 
fiscal crisis.

Tree Mortality Emergency
    All of San Bernardino County's mountain communities--from 
Wrightwood to Oak Glen, including the densely populated communities of 
Lake Arrowhead, Crest Forest, City of Big Bear Lake and the rest of the 
Big Bear Valley--are heavily impacted by this emergency. In some 
neighborhoods in these communities, 100 percent of the trees are dead.
    As of January 2003, the U.S. Forest Service had mapped more than 
99,500 acres of dead trees in the San Bernardino County portion of the 
San Bernardino National Forest. Of that, approximately 72,500 acres are 
on public lands and approximately 27,000 exist on privately held 
residential and commercial land. Of these 27,000 acres, more than 
21,000 acres have greater than 20 percent mortality, with properties 
within most of the Crestline/Lake Arrowhead communities experiencing 80 
percent to 100 percent mortality on each lot. This is more than a 300 
percent increase from the mapping performed in October 2002.
    After a brief spring respite from February through May 2003, the 
mortality returned in full force in June and some say worse than before 
with trees dying in weeks, not months. The numerous amounts of dead 
trees within private, public, and developed lands pose serious threats 
to life and property from fire, falling and damage to public utilities 
and other infrastructure. In addition to the devastating impact on 
private/residential property, the majority of the communities are host 
to high-volume tourist and vacation activities. On certain weekends, 
some communities host more than 150,000 visitors on top of a base 
population of 97,000 people.
    It is important to note that, if luck prevails and no catastrophic 
fire occurs, the trees that are dead are rotting 3 to 5 times faster 
than normal. This creates a serious falling hazard. There have been 
several incidents involving trees falling with damage to structures and 
utilities. Also the longer the trees stand dead, the more reluctant 
tree fellers are to climb them and will call for a crane to remove them 
rather than climb them. This often doubles the cost of tree removal.
    The potential for fire hazard is unprecedented. If a fire starts 
within or near the mountain communities, homes, lives, and the forest 
could be destroyed. According to the County Tax Assessor, the mountain 
communities that make up approximately 45,817 improved parcels have 
approximately $7.6 billion in assessed property valuation including 
residential and commercial property. This does not include the value of 
non-taxable infrastructure, such as roads, schools, and utilities.
    Fire officials usually declare the fire season for the area 
beginning in June, and ending in late October. Strong warm winds are 
prevalent throughout this time, and gusts have been measured at up to 
120 miles per hour. Given the current state of the forest, this is a 
recipe for an unprecedented wildfire disaster.

Barriers to Success:
    Unfortunately, the efforts to date are dwarfed by the magnitude of 
the problem. There are several barriers to rapid and complete response 
of this problem:
    <bullet> Financial: Removing the trees and diminishing the risk in 
a particular area relies primarily on the efforts of the private 
landowners, who bear the total cost of removal. Most property owners 
have hazardous dead trees and fuel located adjacent to their homes and/
or on nearby slopes. Typically, tree removal in these cases requires a 
crane and highly-skilled individuals. Local contractors currently 
charge from $1,000 to more than $10,000 for each tree that is within 20 
feet of a structure. Trees further away from a structure are generally 
$200 to $500 to remove. It is common, however, to find 80 percent to 
100 percent mortality on a single property, which can equate to as many 
as 20 to 30 dead trees on one lot. Therefore, tree removal bills 
average $5,000 to $10,000. This is a significant expense to property 
owners, and the majority cannot afford removal. Some property owners 
are taking out second and third mortgages on their homes to pay for 
tree removal. However, others cannot afford to take out these 
mortgages. The County is researching the creation of a Special 
Assessment District in which a municipal bond could be issued and the 
removal work performed under contract, thus providing a more rapid 
response. However, under California law this would require a two-thirds 
vote of the property owners and is not an immediate viable option.
    <bullet> Lack of Resources: Last year, there were only half-a-
dozen tree removal companies scattered across the mountain, so the lack 
of adequate competition originally created an expensive and unstable 
market. The County, working with community Fire Safe Councils, has been 
actively trying to attract tree removal companies and loggers from 
Northern California and other parts of the United States to come into 
the area to foster competition and create more of a balance in supply 
and demand. That would lower the cost to the private resident. A 
significant degree of success has been obtained in that there are now 
two dozen companies that provide services to our mountain communities.
    <bullet> Uncertain Funding Sources: Some of these companies have 
expressed reluctance to come to Southern California and enter our 
market. Companies outside the area mainly ask, ``What assurance do I 
have to get paid if I set up an operation in Southern California?'' 
Prior to the implementation of the Block Concept and the participation 
of Southern California Edison, contractors were competing against each 
other on a door-to-door basis against two dozen other contractors. The 
competition has had a significant positive effect in the reduction of 
costs that each homeowner must pay. Prices for tree removal over the 
last year have dropped by two-thirds. This highly competitive market 
did not allow tree companies to grow and increase their tree removal 
capacity because of the lack of consistent predictable income. In some 
cases, companies refused to enter the market because of the hit and 
miss, door-to-door revenue generation process.
    <bullet> Lack of Landfill Capacity and Options: Trees produce a 
significant amount of solid waste. For every truckload of logs there 
are two to three truckloads of branches--``slash''--that join the 
County's solid waste stream. When lumber prices fall, as is the case 
now, those logs join the slash and other waste the County has to 
handle. The County's current solid waste management system is not 
designed for and cannot manage the amounts of wood waste being created 
today. The system is funded primarily by a flat rate charged to 
residents based on the average amount of waste produced by their 
communities. This rate cannot begin to cover the tonnage the County 
must now handle.
      Prior to this emergency, the County's Solid Waste Management 
Division (SWMD) processed 5 tons of wood waste per day. As soon as the 
County Fire Department began issuing tree removal notices, the amount 
of wood waste skyrocketed to more than 200 tons per day. Now that the 
lumber market has been saturated and prices have declined, the stream 
is approaching 500 tons per day.
    <bullet> Environmental Permitting: Other areas of the country that 
routinely produce vast amounts of wood waste are home to a number of 
viable solutions ranging from traditional lumber mills to the use of 
wood chips to create electricity, methane, and even ethanol. These 
businesses are reluctant to set up shop in our forest because of the 
length and complexity of the environmental review process. Our 
emergency is predicted to last five to seven years, but environmental 
review and the land use approval process takes two to three years. This 
limits the ability of an investor to obtain a return on their capital 
and equipment. Time frames need to be shortened. This inability to 
remove dead standing wildfire fuels poses a much greater threat to the 
environment than reasonably streamlining the environmental approval 
process.

Crossing Barriers
    The County is crossing these ``barriers'' and has established a 
systematic program to utilize our existing resources and establish an 
infrastructure sufficient to establish a long-term solution to the 
problem. The effort that will be assisted by the Hazard Mitigation 
Grant Program grant that will result in the removal and disposal of 
more than 4,560 trees on developed private and non-federal public 
properties.
    The program includes a series of tasks ranging from citizen 
participation, mapping the mountain areas to determine priority tree 
removal areas, coordinating efforts with Southern California Edison, 
using logging engineers and market specialists to provide technical 
assistance with removal and disposal/reuse techniques, minimizing 
impacts on solid waste systems, organizing tree removal by blocks, 
assisting low income home owners in the cost of tree removal, and 
reducing the per tree cost by aiding in the collection and disposal of 
slash and debris created by the block by block removal of trees. 
Additionally, the County will coordinate with all other allied agencies 
through the Mountain Area Safety Taskforce (MAST).

Citizen Participation
    First and foremost we must commend the actions of our citizens. 
They have risen to meet this challenge head on. County citizens have 
removed more trees, either voluntarily or under order of the County 
Fire Department, than all other government agencies combined.
Tree Removal Fund
    The Board of Supervisors has created a $1 million revolving fund to 
assist in removing dead trees. This fund was created using several 
sources of County and Federal funds. This fund will be used to provide 
working capital to assist households particularly those with low income 
in the removal of their trees. It is also to be used to conduct tree 
removal enforcement actions on properties that refuse to cooperate with 
tree removal notices. In addition, the Board of Supervisors has also 
created a $2 million contingency within the County's General Fund. In 
other efforts to assist the low-income households last year, the Board 
has allocated $85,000 of Community Development Block Grant funds.

Business Assistance
    County Economic and Community Development Department has been 
providing low interest loans to assist tree removal contractors and 
licensed timber operators. These loans can be from the thousands to the 
hundreds of thousands of dollars. They have provided financial 
stability and have allowed businesses to increase tree removal capacity 
by acquiring more equipment, chainsaws, vehicles and acquiring 
additional employees. Recently ECD received support from the U.S. 
Forest Service in the form of $124,000 Grant to support wood milling 
and wood product development.

County Financial Contribution
    The County has already dedicated thousands of staff hours to manage 
this ongoing emergency without reimbursement or compensation. The 
County's Solid Waste Management Division (SWMD) in just the past nine 
months has spent approximately $2 million, including amortized capital 
costs, to process approximately 60,000 tons of bark beetle waste. We 
anticipate our costs in FY 03/04 to exceed $4 million. The Fire 
Department has spent $405,000 in salaries alone. Public Works 
Transportation has spent $138,600 for additional roads activities and 
slash crew activities. There has been no assessment on the damage done 
to roads by heavy equipment in the tree removal operations. The Flood 
Control District allocates $132,000 to support the State CDF tree 
removal crews. The Sheriff's Office has spent more than $100,000 in 
responding to this emergency.

Other Funding Sources
USFS
    The County recently received two grant approvals from the U.S. 
Forest Service for $200,000 each. One to operate a slash crew made up 
of County prisoners. A second was to support the operation of the 
staging area that is being used by the tree removal contractors.
National Resource Conservation Service
    The County was also exploring a grant from the National Resource 
Conservation Service Emergency Watershed Protection Program (NRCS). The 
County in cooperation with the NRCS endeavored to develop a damage 
assessment that would then be forwarded to Congress with an appeal for 
an allocation of supplemental Federal funding. The County was prepared 
to provide a hard match of 25 percent within in the last week the 
County was notified that the NRCS would not be forwarding our proposal 
for consideration.

Other Attempts At Funding
    The County explored the feasibility of creating a Special Tax 
Assessment or Tax District. This District would have charged property 
owners an annual assessment or tax. For that fee, a Forest Management 
Plan could have been prepared, property owners would have received free 
tree removal, and more importantly, the Assessment District would have 
had the ability to bond to fund future disasters, or meet matching 
requirements of any future grant. Before an Assessment District could 
be implemented, all property owners in the proposed district boundaries 
must vote on the assessment. California law requires two-thirds voter 
approval for such an assessment, and it became clear to the County that 
this level of support does not exist at this time for this option.

Federal Support
    In February 2003, Congressman Jerry Lewis secured approximately 
$3.3 million from the Federal Emergency Management Agency (FEMA)'s 
Hazard Mitigation Grant Program, under Public Law 108-7, for Riverside 
and San Bernardino counties to utilize toward tree removal programs on 
private properties in the San Bernardino and Angeles National Forests.
    On March 7, 2003, Governor Davis signed a Declaration of a State 
Emergency for the San Bernardino Mountains. The Governor at that time 
forwarded the local proclamation of emergency to the President. The 
Boards of Supervisors for Riverside and San Bernardino counties have 
continued to adopt Local Emergency proclamations for the individual 
counties since March and April of 2002 respectively.
    The County of San Bernardino has strongly urged the President to 
declare a federal emergency for our mountain communities, which would 
open the doors to the additional support that is needed to address this 
crisis.

Finance/Administration
    The County Office of Emergency Services is responsible for 
gathering and reporting expenditures of the Bark Beetle Emergency 
Hazard Mitigation Grant Program the County was awarded on June 26, 
2003. Total grant expenditures are $3,564,134.66 with $2,673,101 
federal share and $891,033 county share.

    The Office of Emergency Services has developed a system that 
records all expenditures related to the Bark Beetle Emergency HMGP Tree 
Remediation Grant. System reports are used to request grant 
reimbursement from the State Office of Emergency Services as well as in 
efforts to obtain additional funding and grants for the Bark Beetle 
Emergency.

Public Education
    Providing information to the public about this emergency and how 
they can deal with it and possibly mitigate its effects is critical to 
mission success. The County has been involved in creating and printing 
informational items regarding the Bark Beetle, reforestation, erosion 
control, and evacuation planning. A public outreach program coordinated 
by the Mountain Area Task Force (MAST) has been implemented to inform 
and educate the mountain communities. The County provides leadership in 
the Public Information Section of MAST. In cooperation with the Fire 
Safe Councils, the County and allied agencies have held numerous 
community meetings, on various topics related to the emergency with 
overwhelming attendance. Each of these meetings has been attended by 
100 to 700 people.

Partnership with ESRI
    The Environmental Systems Research Institute (ESRI) of Redlands, 
California, is the largest provider of geographic information systems 
software and expertise in the world. The County and other MAST agencies 
have worked with ESRI to develop maps that show the growing tracts of 
dead and dying trees and merge them into a database that allows users 
to track the crisis and develop strategies. This information is being 
developed into a web-based platform, which will be available to 
agencies and the public.

Data Gathering and Access to Public Information
    LA key component of providing information to the public is 
collecting and centralizing a location that it can be accessed. This is 
a job for the Internet. Data mapping and statistics gathering has been 
an integral part of the Bark Beetle Emergency. The San Bernardino 
County Fire Department, Office of Emergency Services is in the process 
of collecting critical statistics related to tree mortality in the San 
Bernardino and Angeles Forests.

    This data will be used for Natural Resource Conservation Services 
(NRCS) funding, Hazard Mitigation Grant Program (HMPG) funding, Pre-
Disaster Mitigation funding, and other programs that might be 
available. The statistics relate to the number of dead trees, community 
population, total number of structure, and parcel values.

Tree Removal Efforts
    To address the problem the County has worked collaboratively with 
the general public, Southern California Edison, the U.S. Forest 
Service, the California Department of Forestry, the California 
Department of Transportation, and other agencies. The following efforts 
are underway:
    <bullet> Hazard Tree Abatement Program: The County Fire Department 
operates a Hazard Tree Abatement Program that inspects trees on private 
property, issues tree removal notices, and conducts follow-up in all 
unincorporated areas of the mountains. This program has the legal 
authority to cite private property owners to remove hazard trees and 
fuel when the private property owner fails to do so. To date, County 
Fire has issued more than 5,000 tree removal notices. Typically, if the 
private property owner who received the tree removal notice fails to 
remove the dead trees within a stated time frame, such as 30 or 60 
days, the County will pay a contractor to remove all of the hazardous 
fuel on the property, and lien the property for reimbursement. This 
program was very successful until mid-2002 when the impacts of the 
four-year drought and bark beetle infestation began to accelerate 
significantly. County Fire does not have the funding to remove all of 
the dead, hazardous fuel for property owners who fail to comply.

      The high cost of tree removal lead one mountain neighborhood to 
develop a cooperative agreement involving everyone in the neighborhood. 
This neighborhood concept did indeed reduce costs for property owners 
and, once implemented, the ``Block'' concept was born. County Fire is 
implementing the block concept in cooperation with Southern California 
Edison. County Fire is working more diligently with property owners to 
contract directly with tree removal companies, and working to assist 
property owners in ensuring cost-effective removal.
    <bullet> Southern California Edison: Southern California Edison 
(SCE) has been directed by the state Public Utilities Commission to 
completely remove all trees that could possibly fall into SCE 
electrical transmission lines. County Fire, Running Springs Fire, Crest 
Forest Fire and all involved fire agencies are collaborating with SCE 
in the removal of dead trees adjacent to electrical transmission lines 
that are threatening evacuation routes and causing high fire hazard 
areas. Again, the block concept is being implemented. SCE pays the 
licensed contractors directly for the tree removal. However, the 
County's role is to implement a programmatic approach for all tree 
removal, including non-SCE trees, that ensures cost-controls to the 
homeowner, which ensures that the homeowner will receive the most cost-
effective and affordable service.
    <bullet> County Slash Crews: The County Fire Department in 
cooperation with the Sheriff's Department has created a crew of County 
inmates to assist in the removal of slash, which consists of branches 
from the removed trees. Slash removal can account for 30 percent to 50 
percent of the cost for a tree removal, so these crews provide a 
valuable service to homeowners.
    <bullet> CDF State Inmate Crews: California Department of Forestry 
and Fire Protection (CDF) has a program that trains minimum-security 
inmates to climb actively infested trees on private property and cut 
them down. It is important to note that the County of San Bernardino 
provides one half of the funding for this program. By State 
regulations, CDF crews can only cut and spray actively infested trees 
not located adjacent to structures on private property. In January of 
2003 these crews were reassigned by MAST to work on evacuation routes. 
These same inmate crews also provide hand crew support during fires.
    <bullet> Activities on Adjacent Federal Land: More than 60 percent 
of the dead and dying trees are on federal land. The San Bernardino 
National Forest will soon be advertising for timber harvest sales and 
service contracts with product removal. It is crucial to the safety of 
residents who live adjacent to these federal lands that immediate 
action is taken.

Financial Assistance for Tree Removal
    Of the approximately 97,000 full-time residents affected by the 
mortality, approximately 30 percent are classified as low or low-
moderate income per the federal Housing and Urban Development (HUD) 
Department or some other similar low-income standard. While not all of 
the persons are property owners, there are those who do own their 
homes, and their properties do have dead or dying trees. Low and low-
moderate income property owners are typically senior citizens or 
disabled persons. The FEMA grant includes an allocation of $500,000 for 
financial assistance to individuals who meet the HUD guidelines for low 
and moderate income. In addition to assisting low-income individuals, 
in an effort to facilitate block tree bidding a sliding scale may be 
developed for those property owners within a block bid area who 
otherwise could not participate financially. As identified above, those 
that are targeted as eligible to receive financial assistance will be 
targeted during the block tree removal notification process. A voucher 
will be issued to the successful contractor to be redeemed from the 
County for the work performed on these specific properties.

Solid Waste Management
    In response to the Bark Beetle Emergency, the County's Solid Waste 
Management Division has been handling an unanticipated increase from 5 
tons per day of green waste to a current 400 tons per day. This amounts 
to additional County expenditures of more than $12,000 per day, or more 
than $320,000 per month.
    The Solid Waste Management Division is responsible for the disposal 
and diversion of the waste trees and material generated from the Bark 
Beetle Emergency.
    Homeowners currently pay private tree companies to haul the tree 
waste to one of two locations: the Heaps Peak Transfer Station, located 
in Running Springs, or the Burnt Flats Wood Waste Processing Facility 
in Lake Arrowhead. Both sites are currently running at maximum 
capacity, with the Burner site operating 24 hours per day. The amount 
of wood waste is expected to more than double when Southern California 
Edison ramps up its mandated tree removal program. Solid Waste 
Management's next phase is to begin log storage and processing at the 
closed Cajon landfill, which is next to a rail line. This will 
facilitate less expensive long-range transportation.
    The operation at Heaps Peak consists of chipping and grinding for 
use for erosion control or alternative cover on our landfills, and 
approximately 500 tons per week for Colmac Energy, a biomass facility 
in Mecca, located in Riverside County.
    In cooperation with the USDA Forest Service and Caltrans, the 
County was able to site, permit and operate the first incinerator in 
more than 20 years in Southern California. This is the first time in 
known history that Caltrans allowed a county to pave an unpaved State 
Highway.
    The Burnt Flats facility consists of two wood waste incinerators, 
which each burn approximately 7 tons per hour. These are operated 24 
hours per day, six days per week. The County is in the process of 
purchasing a third, larger burner, which is anticipated to burn between 
11 and 14 tons per hour.
    An industrial work area was developed by the County in less than 3 
months to accommodate equipment storage, log decking and other tree 
removal related operations for six tree removal contractors and 
licensed timber operators. They have so far been able to remove 
thousands of trees off of privately held lands.
    Between December and June, much of the wood was diverted to Sierra 
Forest Products, a sawmill near Bakersfield. The mill paid loggers for 
their loads brought to the mill. However, a drop in lumber prices in 
late June forced Sierra Forest Products to lower the price they paid 
loggers for the wood. Since that time, we have seen a sharp increase in 
the amount of wood brought to our disposal facilities. As an example, 
during the week ending July 20, 2003, our disposal facilities received 
1,303 tons. The following week, ending July 27, 2003, our disposal 
facilities received an additional 1,188 tons.
    In the last nine months, Solid Waste Management has spent 
approximately $2 million, including amortized capital costs, to process 
approximately 60,000 tons of bark beetle related waste. We anticipate 
our costs in FY 03/04 to exceed $4 million. Our portion of the FEMA 
grant assistance recently secured by Congressman Jerry Lewis is 
approximately $850,000.
    Our County is constantly researching and attempting to foster 
markets for the wood in order to divert it for better and higher uses. 
The biggest challenge in most of the markets appears to be the high 
cost of transportation.
    Our County is currently working to foster the location of two 
sawmills, one in Lake Arrowhead and one in San Bernardino, in addition 
to working with paper companies and other outlets throughout the 
western United States, Mexico and even China.

Beetle Control Study
    County staff has obtained mixed messages from experts as to the 
effectiveness of pheromone traps to trap Bark Beetles so they avoid 
destroying trees. Therefore, County staff will work with the U.S. 
Forest Service and other scientists on a study to determine if there is 
a feasible infestation control mechanism for future implementation. 
Field surveys may be a part of this task, and a report is expected to 
be generated at the end of the study period.

Participation in the Mountain Area Safety Taskforce
    Due to the magnitude of this problem, the Mountain Area Safety Task 
Force (MAST), a multijurisdictional task force, was formed in 2002 to 
develop a mitigation and emergency plan to address this problem. 
Agencies in MAST include representatives of the San Bernardino County 
Fire Department, San Bernardino County Department of Public Works 
(Divisions of Transportation and Solid Waste Management), San 
Bernardino National Forest (USFS), California Department of Forestry 
(CDF), San Bernardino County Sheriff's Department, California 
Department of Transportation (CalTrans), South Coast Air Quality 
Management District, (SCAQMD), Southern California Edison (SCE), 
California Highway Patrol (CHP), California State Office of Emergency 
Services (OES), San Bernardino County OES, and community 
representatives of the Fire Safe Councils.
    MAST has been working on a strategic-type plan to coordinate 
efforts to ensure that all aspects of the issue are being addressed. 
The MAST has developed a plan to address the tree mortality issue. The 
plan is arranged into the following three (3) phases: immediate, mid-
term, and long-term. The plan was designed with the understanding that 
work could be performed in any one of the phases simultaneously:
    <bullet> Immediate phase: Identifying critical community 
infrastructure and removing impediments and/or potential impediments to 
ensure safe evacuation routes, distribution of utilities and 
communication service;
    <bullet> Mid-term phase: Addressing forest management practices; 
and
    <bullet> Long-term phase: Improving forest health and community 
safety.
    The main workload in completing the current tasks is removing 
affected (dead and/or dying) trees. The removal of affected trees will 
help reduce the direct threat to lives and homes. Additionally, in 
conjunction with local Fire Safe Council's awareness efforts, the 
removal of the affected trees will reduce the fuel loads, create 
defensible space, and lessen the impacts from wildfires.
    A four-point action plan has been developed to implement the above 
phases which includes:
    <bullet> Assure public safety (develop evacuation plans and clear 
potential hazard trees from transportation routes);
    <bullet> Obtain assistance to secure funding through local, state, 
and federal legislators;
    <bullet> Reduce fuel and create fuel breaks in strategic 
locations. This means working to eliminate dead standing trees, reduce 
tightly packed ground vegetation, and create defensible space around 
developed areas; and
    <bullet> Develop commercial use or disposal options for waste wood 
products.
    The County's program is consistent with the MAST plan.
Long-Term Maintenance and Recovery
    It has been determined that tree removal of the affected areas 
would exceed $200 million. Suppression and damage from a fire in these 
same areas, however, could exceed tens of billions of dollars.
    The County of San Bernardino's approach provides a long-term 
programmatic solution in that it offers public services for effective, 
low-cost tree removal. This framework provides the basis to receive 
other grant funding to continue these services.

Conclusion
    Once again the County expresses it's appreciation to the Committee 
for the interest it is showing in our emergency and the support you 
have provided.
    The County would be remiss if it did not acknowledge the efforts of 
our federal representatives, particularly Congressman Jerry Lewis and 
Senator Dianne Feinstein, and various federal and state agencies to 
secure funding and resources to address this emergency.
    Every action the County has taken in response to this crisis and 
every dollar that has been spent has focused on the tens of thousands 
of human lives that could be lost if this challenge is not met and our 
mountains erupt in wildfire.
    The County of San Bernardino is committed to dedicating every 
available resource to address this emergency, but with one million 
trees already dead and dying and many more to follow, this crisis is 
well beyond the capabilities of local government and private citizens. 
The County will continue to work with the federal government to secure 
the funding necessary to manage this threat, and the County urges 
Congress to untie the hands of the U.S. Forest Service so that it may 
quickly respond to a quickly dying forest.

    [Attachments to Mr. Hansberger's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T9420.003
    
    [GRAPHIC] [TIFF OMITTED] T9420.004
    
    [GRAPHIC] [TIFF OMITTED] T9420.005
    
    [GRAPHIC] [TIFF OMITTED] T9420.006
    
    [GRAPHIC] [TIFF OMITTED] T9420.007
    

    The Chairman. Thank you.
    Dr. Bonnicksen?

 STATEMENT OF DR. THOMAS BONNICKSEN, PROFESSOR, DEPARTMENT OF 
              FOREST SCIENCE, TEXAS A&M UNIVERSITY

    Dr. Bonnicksen. Mr. Chairman, Members of the Committee, I 
appreciate the opportunity to be here today. I'm a Professor of 
Forest Science at Texas A&M University with over 30 years of 
experience working in California's forests and other forests in 
the nation. I'm also a Member of the Board of the Forest 
Foundation in California. I wrote the book America's Ancient 
Forests describing the history of America's native forests and 
I'm co-founded of the International Society of Ecological 
Restoration.
    With that, I would comment that I, too, like Jack Blackwell 
have never seen a disaster of this magnitude and I say that not 
because we haven't lost a lot of forest insects because we 
have, but this is the first time we've lost an entire forest on 
one mountain range and a forest that is so heavily populated. 
Nothing like this has ever occurred in my experience or in my 
knowledge of history. And my grave concern is not just for this 
forest, but this forest represents what could happen next in 
the Sierra Nevada Mountains. It's poised and ready to be 
devastated as well.
    The cause. Many people think the cause is drought. That's 
not the cause any more than that's what puts the forest in the 
Sierra at risk. It's overstocked dense forest unnaturally thick 
so that the trees are weak, unhealthy, and incapable of 
resisting massive attack. All the drought did was trigger the 
infestation. It didn't cause it.
    We've known that this forest in the San Bernardino 
Mountains was subject to this kind of devastation long ago. I 
actually facilitated a workshop here in Lake Arrowhead in 1994. 
It's 10 years ago now in which all the people from the various 
agencies and community interest groups got together to address 
the fire hazard in Lake Arrowhead. And they came to the 
unanimous conclusion that management was needed in the forest 
and it parallels the national fire plan, actually anticipated 
it in many ways. But nothing happened.
    Why did nothing happen? Well, in part, because people, in 
general, have not seen the hazard. It's not evident like it is 
now. Also, people have an image of forest as natural when 
they're thick and green and we have an aversion of cutting 
trees, even though they don't mind pruning their garden.
    And there is also an environmental component. This became a 
recreational forest and for that and many other reasons nothing 
happened. So now we're facing the results of inaction. We have 
a disaster that will end up in the history books. Our great 
grand children and our great, great grandchildren will be 
reading the history of the loss of an entire forest. This 
again, is truly history.
    But let me tell you there's another point of history that 
they'll be reading about and that's us, what did we do to 
respond to this disaster? That will also be in the history 
book. We can write that history now or we can tell them in that 
book we did nothing and that's why they're reading it in a 
forest without trees.
    So what should we do, right here and now? Some people think 
what we ought to do is just remove the dead trees, pile, slash, 
burn and then we're safe. If you do that and only that, if you 
look at those pictures over there, I think you'll get an idea 
of what this forest is going to look like. It's going to be a 
474,000 acre parking lot because I've seen what happen when a 
large percent of the trees are dead and are removed. When I'm 
talking about 100 percent, I mean restored.
    What we have to do is remove these dead trees quickly by 
doing that protects whatever trees remain because those trees 
that are left really represent the future forest. We have to do 
it in a way that protects the soil. We have to be sensitive to 
wildlife by leaving snags and logs in the ground and in 
essence, we have to do it right because we must not just reduce 
the fire hazard, we must use this opportunity to also rebuild 
the new forest that those kids are going to be reading about a 
century from now. We'll either be their heroes or their 
villains, it's up to us.
    We have to also work quickly in the Sierra Nevadas to think 
those forests so that this doesn't happen there as well.
    What will we get when we're done? If we use the historic 
forest as a model, we'll get a forest that's diverse, 
beautiful, full of large trees as well as all the other ages of 
trees that are need, full of wildlife and we will have saved or 
solved the endangered species problem. Why? Because the 
historic forest that's the model for the future for us we hope 
to rebuild is a forest in which there are no endangered 
species. Why not use it as a model for our forest?
    And finally, who will paid for it? Unfortunately, in this 
case we're going to pay for it, but as part of that payment, I 
think we ought to invest in infrastructure. We have the ability 
to process wood now and in the future when the forest is being 
maintained so that this never happens again and the forest we 
leave to those kids reading the book is a forest that they'll 
not only be proud of, but they'll be able to keep. Thank you.
    [The prepared statement of Dr. Bonnicksen follows:]

Statement of Dr. Thomas M. Bonnicksen, Professor, Department of Forest 
 Science, Texas A&M University, Visiting Scholar and Board Member, The 
                 Forest Foundation, Auburn, California

Introduction
    My name is Dr. Thomas M. Bonnicksen. I am a forest ecologist and 
professor in the Department of Forest Science at Texas A&M University. 
I am also a visiting scholar and board member of The Forest Foundation 
in Auburn, California. I have conducted research on the history and 
restoration of America's native forests for more than 30 years. I have 
written over 100 scientific and technical papers and I recently 
published a book titled America's Ancient Forests: from the Ice Age to 
the Age of Discovery (Copyright January 2000, John Wiley & Sons, Inc., 
594 pages). The book documents the 18,000-year history of North 
America's native forests.

Forest Devastation and Restoration
    With millions of dead trees covering approximately 350,000 acres of 
the San Bernardino Mountains, this forest is lost. Bark beetles 
feasting on over-crowded, moisture-stressed trees will have killed 
about 90 percent of the pine trees when they end their rampage. Then, 
Lake Arrowhead and other communities here will look like any treeless 
suburb of Los Angeles.
    Among the saddest aspects of this forest being wiped out is that 
the devastation was predictable and preventable. In fact, specialists 
representing many interests and agencies came together in a 1994 
workshop to do something about the unnaturally thick forests in the San 
Bernardino Mountains. They knew that communities like Idyllwild, Big 
Bear, and Lake Arrowhead were in imminent danger from wildfire. The 
workshop produced a report charting a course to improve the safety and 
health of the forest and surrounding communities. The recommendations 
were never acted on. Now, an entire forest is lost.
    Instead of acting to restore the forest and protect human lives 
before the crisis reached critical mass, politicized debates and 
overbearing regulations created inertia--a complete standstill during 
which the forest grew so dense, devastation became inevitable.
    Throughout the 1990s, extremists here advocated ``no cut'' 
policies, wanting no active management for the forest. Their battle cry 
was ``leave it to nature'' despite indisputable evidence that the 
forest's imperiled health was entirely unnatural, brought about by a 
century of absolute fire suppression and completely stifled harvesting. 
Now we are stuck with a dangerous, unsustainable forest.
    Unfortunately, it is too late to save the San Bernardino National 
Forest. It is not, however, too late to learn from this disaster, to 
restore the forest to its original grandeur, or to save the forests of 
the Sierra Nevada that will undoubtedly face a similar fate if we 
continue down our current path. Indeed, we can anticipate similar 
catastrophes throughout our Western forests if we do not change our 
ways. We have already seen the beginnings of forest devastation in 
Arizona and Colorado.
    In the San Bernardino Mountains, there are simply too many trees. 
Drought has contributed to the crisis, but it is not the underlying 
cause. Forest density is ten times what is natural--300 or more trees 
stand on an acre where 30 would be natural and sustainable. Over-
crowded trees must fight for limited nutrients and water, and, in doing 
so, become too weak to fight off insect attacks that healthy trees 
effectively repel.
    Our national forests, growing older and thicker, look nothing like 
their historical predecessors, with some having reached astronomical 
densities of 2,000 trees per acre where 40-50 trees per acre would be 
natural. Consequently, plant and animal species that require open 
conditions are disappearing, streams are drying as thickets of trees 
use up water, insects and disease are reaching epidemic proportions, 
and unnaturally hot wildfires have destroyed vast areas of forest.
    Since 1990, we have lost 50 million acres of forest to wildfire and 
suffered the destruction of over 4,800 homes. The fires of 2000 burned 
8.4 million acres and destroyed 861 structures. The 2002 fire season 
resulted in a loss of 6.9 million acres and 2,381 structures, including 
835 homes. These staggering losses from wildfire also resulted in 
taxpayers paying $2.9 billion in firefighting costs. This does not 
include vast sums spent to rehabilitate damaged forests and replace 
homes.
    The monster fires that have been ravaging our Western forests are 
of a different breed from the fires that helped maintain forest health 
over the past several hundred years. Forests that just 150 years ago 
were described as being open enough to gallop a horse through without 
hitting a tree are now crowded with logs and trees of all size--you can 
barely walk through them, let alone ride a horse. The excessive fuel 
build-up means that today, every fire has the potential to wreak 
catastrophic damage.
    Historically, our forests were more open because Native American 
and lightning fires burned regularly. These were mostly gentle fires 
that stayed on the ground as they wandered around and under trees. You 
could walk over the flames without burning your legs even though they 
occasionally flared up and killed small groups of trees. Such hot spots 
kept forests diverse by creating openings where young trees and shrubs 
could grow.
    We need to return our forests to their natural state. We need to 
alleviate the threat to thousands who live in danger throughout 
Southern California, and ensure that residents of Northern California 
and throughout the West are spared the trauma and fear that people here 
live with daily.
    Fortunately, we as modern foresters have the knowledge to restore 
our forests. We can minimize the fire threat, accelerate forest 
restoration, and protect human lives.

The Road to Recovery
    The natural pine forest will soon be gone from these mountains. The 
most important question now is, what will replace it?
    There are two choices for the future of this forest, and no middle 
ground for debate. First, leave the forest alone. This would placate 
those who advocate ``letting nature take its course,'' though it would 
not result in the historically natural mixed-conifer forest that 
millions have enjoyed for centuries. Leave this forest alone, and we 
will perpetuate the unnatural thick forests of oak, fir, cedar, and 
brush--we will pass to future generations an unending cycle of 
destruction from fire and insects.
    Our second option is to restore the natural fire- and insect-
resistant forest through active management. And we must consider the 
entire forest, not just small strips of land around homes or near 
communities. Removing fuels around homes makes sense, but to think that 
a 100-foot wall of flames ravaging a forest will lie down at a small 
fuel break, or that swarms of chewing insects cannot penetrate these 
flimsy barriers, is to live with a false sense of security.
    The recipe for restoring San Bernardino forests is simple. Cut the 
dead trees, remove or chip the slash to reduce fuels, and leave enough 
snags and logs for wildlife. Then thin what's left to ensure that 
surviving trees grow quickly and to protect them from fire because they 
will become old growth in the future forest.
    Next, begin rebuilding the forest by planting native trees in gaps 
left by beetle-killed trees. Additional gaps will have to be opened and 
planted at different times and places to ensure that the restored 
forest has groups of trees of different ages. This will take five or 
more decades. By then seed from adjacent trees will fill new gaps and 
the forest will look relatively natural since some sites will grow 
trees 120 feet tall in 50 years. It will take centuries to replace the 
largest trees.
    This would be natural forestry not plantation forestry. That means 
using nature as a guide for creating a healthy, diverse forest that is 
fire, insect, disease, and drought resistant.
    Restoring the forest is easy. Paying for it is not. Reducing the 
fire hazard and restoring the forest could cost as much as $1,000 to 
$4,000 per acre. Prescribed burning can help, but it is too dangerous 
and expensive to rely on, and brings with it air quality and health 
risks that will prevent its widespread use.
    Practical solutions for forest restoration must therefore include 
the private sector. Redirecting tax money to forest restoration would 
help, but there just isn't enough to do the job. Success requires 
government and the private sector to work together. That means private 
companies harvest the trees needed for restoration and in exchange they 
get to sell wood products. This is just common sense--why allow insects 
or fire to wipe out our forests when we can use them in a way that also 
restores them? Wood is a renewable resource we desperately need.

Complete Restoration
    To fully restore our forests to health, we must fully understand 
the key issues in the forest health and management debate. Perpetuating 
myths in the name of advancing a particular cause does not serve the 
public interest. Our national forests belong to all people, and should 
serve all our needs. We need to dispel the popular misconceptions that 
mislead the public and hinder the implementation of sound forest 
policies. Only by understanding the facts can we make informed 
decisions about our forest heritage.

Myth 1: All fires are good and forest management is bad.
    This argument confuses small, naturally occurring fires with large 
conflagrations, calls all of them good, and blames forest managers for 
wanting to thin our incredibly thick forests and remove the fuel for 
monster wildfires.
    Today's catastrophic wildfires are bad for forests. When a 
devastating fire finally stops, it leaves a desolate moonscape 
appearance. The habitat for forest dwelling wildlife is destroyed, 
small streams are boiled dry, fish die and their habitat is smothered 
by silt and debris. The fire also bakes the soil so hard water cannot 
get through, so it washes away by the ton. All that is left are the 
blackened corpses of animals and fallen or standing dead trees. Often 
there are too few live trees left to even reseed the burn and the area 
soon becomes covered with a thick layer of brush that prevents a new 
forest from becoming established for many years.
    Historically, natural fires burned a far different kind of forest 
than the uniformly thick, overpopulated forests we have today. Forests 
of the past were resistant to monster fires, with clearings and patches 
of open forest that acted as mini-fuelbreaks for fires that were far 
smaller and far less hot. These light fires naturally cleared away 
debris, dead trees and other potentially dangerous fuels.
    Fires can't burn that way in the forest of today. They bite into a 
superabundance of fuel, burn super-hot, destroy wildlife and 
watersheds, and leave a desolate landscape scarred by erosion and 
pitted with craters. This is why forest management, which involves 
thinning in order to make our forests more like they used be--naturally 
resistant to fire--is so desperately needed.

Myth 2: Wildfires and massive insect infestations are a natural way for 
        forests to thin and rejuvenate themselves.
    On the contrary, ``no-cut'' policies and total fire suppression 
have created the overcrowded forest conditions that enable fires to 
spread over vast areas that never burned that way in their known 
history. The resulting devastation is not natural. It is human-caused. 
We must accept responsibility for the crisis we created and correct the 
problem.

Myth 3: If management is unavoidable, then deliberately set fires, or 
        prescribed fires, are the best way to solve today's wildfire 
        crisis.
    It is naive to believe we can have gentle fires in today's thick 
forests. Prescribed fire is ineffective and unsafe in the forests of 
today. It is ineffective because any fire that is hot enough to kill 
trees over three inches in diameter, which is too small to eliminate 
most fire hazards, has a high probability of becoming uncontrollable. 
Even carefully planned fires are unsafe, as the 2000 Los Alamos fire 
amply demonstrated.
    Not only that, there are very limited opportunities to burn. All 
the factors, such as fuel moisture, temperature, wind, existence of 
defensible perimeters, and available personnel, must be at levels that 
make it relatively safe to conduct a prescribed burn. This happens so 
rarely that it would be impossible to burn enough acreage each year to 
significantly reduce the fire hazard. Plus, prescribed burns inherently 
introduce air quality and health risk concerns.

Myth 4: Thinning narrow strips of forest around communities, or 
        fuelbreaks, is more than adequate as a defense against 
        wildfire.
    Anyone who thinks roaring wildfires can't penetrate these flimsy 
barriers could not be more mistaken. Fires often jump over railroad 
tracks and even divided highways.
    Fuelbreaks are impractical because forest communities are spread 
out, with homes and businesses scattered over huge areas. It would be 
virtually impossible to create an effective thinned ``zone'' to 
encompass an area so large.
    In addition, fuelbreaks only work if firefighters are on the scene 
to attack the fire when it enters the area. Otherwise, it drops to the 
ground, and moves along the forest floor even faster than in a thick 
forest. Furthermore, there is always the danger of firefighters being 
trapped in a fuelbreak during a monster fire.
    Catastrophic fires roaring through hundreds of square miles of 
unthinned, overgrown forest simply do not respect a narrow fuelbreak. 
Frequently, firebrands--burning debris--are launched up to a mile in 
advance of the edge of a wildfire, and can destroy homes and 
communities no matter how much cleared space surrounds them. When 
catapulted embers land on roofs, destruction is usually unavoidable.
    Fuelbreaks are a necessary part of a comprehensive community 
protection program, not a cure-all solution in and of themselves.

Myth 5: Removing dead trees killed by wind, insects, or fire will not 
        reduce the fire hazard.
    Experience and logic say this is false. Do logs burn in a 
fireplace? If dead trees are not removed, they fall into jack straw 
piles intermingled with heavy brush and small trees. These fuels become 
bone dry by late summer, earlier during a drought. Any fire that 
reaches these mammoth piles of dry fuel can unleash the full fury of 
nature's violence.
    Acting quickly to rehabilitate a wind or insect-ravaged forest, or 
a burned forest, is one of the surest ways to prevent wildfires or 
dampen their tendency to spread.

Myth 6: We should use taxpayer money to solve the wildfire crisis 
        rather than involve private enterprise.
    The private sector must be involved.
    A minimum of 73 million acres of forest needs immediate thinning 
and restoration. Another 120 million also need treatment. Subsequent 
maintenance treatments must be done on a 15-year cycle. The total cost 
for initial treatment would be $60 billion, or about $4 billion per 
year for 15 years. Then it would cost about $31 billion for each of the 
following 15-year maintenance cycles.
    This is far more money than the taxpayers will bear. But if private 
companies could harvest and thin only the trees required to restore and 
sustain a healthy, fire-resistant forest, it could be done. In 
exchange, companies sell the wood, and public expenditures are 
minimized.
    Unfortunately, there aren't any shortcuts. Human intervention has 
created forests that are dense, overgrown tinder boxes where unnatural 
monster fires are inevitable. This means we must manage the forest to 
prevent fires in the first place. We have to restore our forests to 
their natural, historical fire resistance. Thinning and restoring the 
entire forest is the only way to safeguard our natural heritage, make 
our communities safe, and protect our critical water sources.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Tuttle.

    STATEMENT OF ANDREA TUTTLE, STATE FORESTER, CALIFORNIA 
           DEPARTMENT OF FORESTRY AND FIRE PROTECTION

    Ms. Tuttle. Thank you, Chairman Pombo, and Members of the 
Committee. On behalf of Governor Davis and Secretary for 
Resources, Mary Nichols, I appreciate this opportunity to 
testify on the role of the State of California in this 
extraordinary tree mortality situation.
    As you have heard, this situation is a combination of 
drought, of poor forest management and explosive beetle 
populations, but this outbreak is just one example of what is 
happening throughout the West and Alaska. We have over the 
years been watching this area become a visual sea of orange. 
Over the past several years I've been here in 1999 we had a 
severe immediately north. This was the Willows fire which 
consumed around 62,000 acres and it is not regenerating well. 
Just recently, Regional Forester Jack Blackwell and I toured 
the area on our preparedness review on the status of evacuation 
planning and I accompanied Governor Davis here in April as he 
took an inspection tour.
    By necessity, the state and Federal first response has been 
to address the acute risk of wildfire, recognizing the severe 
threat posed by the dead fuels, Governor Davis proclaimed a 
state of emergency in March of this year, directing state 
agencies to clear evacuation routes in community shelter areas 
and to streamline state permit and contract procedures.
    Governor Davis also signed an executive order in June of 
this year to augment state fire suppression capability in the 
three counties. As a result, we have added 212 fire fighters on 
53 CDF engines. We've deployed 10 additional engines and 40 
crew members to three counties. A fire fighting helicopter and 
crew is assigned to San Diego County and four additional 
conservation camp fire crews were added in Southern California.
    The California National Guard has prepared its fixed wing 
aircraft in prepositioned ground support and the Office of 
Emergency Services is prepared as necessary.
    All affected local governments have undertaken many 
specific activities. San Bernardino oversight and San Diego 
have activated their emergency operation centers and we are 
managing this as an emergency through the instant command base 
multi-agency organization which you've heard about, the 
Mountain Area Safety Task Force.
    I cannot stress enough the importance and strength of the 
inter-agency cooperation in formulating our preparedness plans. 
Jack Blackwell and myself, Gene Zimmerman, my Unit Chief, Tom 
O'Keefe and Tom Tisdale and all of our staffs with the 
counties, I commend the County Boards of Supervisors, we have 
all been forced to work together in ways that we have never 
experienced before.
    From the State of California, CDF has taken a lead role in 
clearing evacuation routes, temporary community shelter sites. 
We have reduced the paperwork for cutting trees on private 
lands and coordinated implementation of the Endangered Species 
Act with the Department of Fish and Game.
    The Department of Transportation has provided trucks for 
hauling tree waste to disposal sites and has stockpiles signs, 
cones and heavy equipment for clearing routes in the event of 
evacuation.
    The Waste Management Board and the local air pollution 
control district has streamlined air quality permits for air 
curtain burners in use at the transfer sites. The Highway 
Patrol has worked closely with local sheriffs and law 
enforcement in unprecedented cooperation between law 
enforcement and fire officials in the event we need to get 
responders in while getting evacuees out.
    The California State License Board is conducting field 
inspections. We have participated in the table top exercise to 
prepare for wildfire in the area. Every strike team, every fire 
fighter coming into Southern California from other parts of the 
state is given a copy of the special Red Book and a mandatory 
briefing to inform them of the extraordinary fire behavior that 
they may encounter here which will exceed anything that they 
have ever experienced before.
    With respect to the tremendous amount of dead wood and 
slash, the Energy Commission, the Governor's Office of Planning 
and Research and the California Power Authority are working 
with Southern California Edison on the feasibility of locating 
a biomass power plant.
    As you've heard, our pre-fire preparedness was put to the 
test. I won't tell you about that fire again, but basically had 
conditions been windier or drier, the outcome could have been 
far different.
    We thank Congressman Lewis, Senator Feinstein and Secretary 
Veneman for your efforts in working to bring additional funding 
to this area. Significant progress has been made. This has not 
been simple for these many agencies to come together. This is a 
complicated many agency program.
    Fire season in Southern California is far from over and 
this condition will extend for many years before this acute 
threat has passed. With the emergency preparedness now fairly 
well developed, we're ready to transition into these longer 
term questions that you're talking about today. Again, I thank 
you for your Federal assistance and your attention to this 
matter and we look forward to working closely with you.
    Thank you.
    [The prepared statement of Ms. Tuttle follows:]

            Statement of Andrea E. Tuttle, State Forester, 
         California Department of Forestry and Fire Protection

    Chairman Pombo and Members of the Committee:
    On behalf of Governor Davis and Secretary for Resources Mary 
Nichols I appreciate this opportunity to provide information regarding 
the role of the state of California in this extraordinary tree 
mortality situation in the three southern California counties of San 
Bernardino, Riverside and San Diego.

History of the Problem
    As you have heard from other speakers, the nearly 400,000 acres of 
standing dead conifer, oaks and chaparral are the result of a 
combination of three primary factors: First, we have experienced four 
years of an unprecedented drought. The 01/02 winter was the driest year 
in recorded history. Last winter's precipitation was near normal but 
with significantly less snow fall than normal and, while not a drought, 
it did contribute to the drought effects. This has significantly 
weakened the trees. Second, many of these forest and chaparral stands 
are in an unnatural, overstocked condition due to a history of 
aggressive fire suppression coupled with a lack of forest management, 
i.e. lack of harvesting to reduce competition. Third, natural 
background levels of beetle infestation have suddenly reached epidemic 
proportions, taking advantage of the weakened condition of the trees 
and their inability to produce sap. Trees use their sap to ``pitch 
out'' insect eggs. Drought stressed trees don't have enough moisture to 
create the sap, therefore the larvae hatch and devour the tree from the 
inside. This outbreak is just one example of millions of acres of 
national forests now affected by beetle kill throughout the western 
states and Alaska. What makes this example especially compelling is the 
presence of the mountain communities of homeowners and recreational, 
tourist-based economies completely lying within U.S. Forest Service 
Direct Protection Area.
    The extraordinary nature of this die-off became especially clear 
last fall when vast areas of the conifer forest became a visual sea of 
orange. I have been on several reconnaissance tours of the area over 
the past several years: in 1999 I observed the Willows fire which 
consumed over 63,000 acres immediately adjacent to Lake Arrowhead to 
the north; early this summer USFS Regional Forester Jack Blackwell and 
I conducted a preparedness review on the status of evacuation planning; 
and more recently in April I accompanied Governor Davis on an 
inspection tour. With each trip we have witnessed ever expanding 
mortality.

California's Response
    Recognizing the severe threat of catastrophic fire posed by the 
dead fuels, Governor Davis proclaimed a State of Emergency in March 
2003 directing state agencies to clear evacuation routes and community 
shelter areas, and to streamline state permit and contract procedures. 
The California Department of Forestry and Fire Protection (CDF) 
initiated numerous tasks in cooperation with the Governor's Office of 
Emergency Services (OES), the United States Forest Service (USFS), 
local government agencies and Fire Safe Councils. Priorities for 
immediate action were originally set in four areas:
    <bullet> Creating safe evacuation routes by clearing dead trees 
and removing vegetation;
    <bullet> Creating safe shelter-in-place centers;
    <bullet> Creating safe communications centers on USFS land; and
    <bullet> Creating strategic community protection zones by clearing 
dead trees, thinning forests, and reducing flammable vegetation.
    This list has subsequently grown as we work with all agencies and 
levels of jurisdiction to include all the key task areas of evacuation 
planning, tree removal and waste disposal, and suppression 
preparedness.
    After the State of Emergency declaration in March, Governor Davis 
also signed Executive Order D-69-03 on June 20, 2003, to augment state 
fire suppression capability in the three counties. As a result, we were 
able to increase staffing on 53 CDF engines, which added 212 
firefighters, and the deployment of ten refurbished fire engines and 40 
crewmembers to the three counties. One firefighting helicopter and crew 
was leased, staffed and assigned to San Diego County, and four 
additional CDF Conservation Camp fire crews were added in Southern 
California. Additional funding allowed the California National Guard to 
prepare its fixed-wing aircraft and pre-position ground support 
equipment for immediate response in the event of a wildfire in the 
area. OES has developed and implemented a quick response plan to deploy 
OES engine strike teams into mountain communities as necessary. In 
support of these actions the expenditure of approximately $8.3 million 
was authorized.

Local Government Actions
    All affected local governments have undertaken many specific 
activities. As you will hear in more detail, Riverside, San Bernardino, 
and San Diego Counties have activated their emergency operations 
centers and have worked cooperatively through their respective offices 
of emergency management. San Bernardino and Riverside Counties manage 
the emergency through an incident command-based, multi-agency 
organization known as a Mountain Area Safety Taskforce (MAST). San 
Diego County created a similar organization called the Forest Area 
Safety Taskforce (FAST). These groups include the county emergency and 
public works organizations, local Fire Safe Councils, the USFS, CDF, 
OES, California Highway Patrol, California Department of Transportation 
(CalTrans), California Department of Fish and Game and local utility 
operators. These organizations developed and operate from strategic 
plans that serve to guide planning, preparedness, evacuation response, 
and mitigation activities.

Interagency Cooperation
    I cannot stress enough the importance and the strength of the 
inter-agency cooperation we have experienced with our partners in 
formulating these preparedness plans. Cooperation between Regional 
Forester Jack Blackwell and myself, between Forest Supervisor Gene 
Zimmerman and CDF Unit Chiefs Tom O'Keefe of San Bernardino County and 
Chief Tom Tisdale of Riverside, and between our staffs has been 
tremendous. At every step along the way, the federal, state, county and 
special districts have worked together in ways they have never 
experienced before.
    From the State of California many agencies have participated.
    <bullet> CDF has taken a strong role clearing evacuation routes, 
temporary community shelter sites and fuel breaks utilizing inmate 
crews. We have reduced the paperwork for cutting trees on private 
lands, and coordinated implementation of the Endangered Species Act 
with the California Department of Fish and Game, especially with 
respect to protecting the Southern Rubber Boa snake.
    <bullet> The California Department of Transportation has provided 
trucks for hauling tree waste to disposal sites, and stockpiled signs, 
cones and heavy equipment for clearing roads in the event of 
evacuation.
    <bullet> The California Integrated Waste Management Board has 
permitted expanded use of the transfer sites for the tremendous volumes 
of wood waste, and the local Air Pollution Control District has 
streamlined air quality permits for the air curtain burners. Those 
burners can efficiently dispose of large quantities of forest waste at 
very high temperatures with very little air emission.
    <bullet> The California Highway Patrol has worked closely with 
local sheriffs and law enforcement in designing and coordinating 
evacuation plans to help get responders in while getting evacuees out.
    <bullet> The Contractors State License Board, in coordination with 
CDF, is conducting field inspections to insure that the public is 
protected from fraudulent business practice.
    <bullet> We have participated with all the MAST agencies in San 
Bernardino County in a tabletop exercise to prepare for a wildfire in 
the Lake Arrowhead area.
    <bullet> Every strike team, every firefighter coming into southern 
California is given a copy of this special Red Book, a Structure 
Protection Pre-Plan, and mandatory briefing to inform them of the 
extraordinary fire behavior they may encounter, which may exceed 
anything they have ever experienced before.

Biomass Options
    As we move into longer term consideration of how to dispose of the 
tremendous volumes of dead wood and slash, the California Energy 
Commission, the Governor's Office of Planning and Research, and the 
California Power and Conservation Financing Authority are working with 
Southern California Edison to evaluate the feasibility of locating a 
biomass power plant. Inventories of available biomass are underway with 
the assistance of ESRI, a GIS and Mapping Software vendor which has 
voluntarily provided GIS mapping services and satellite imagery. CDF is 
working with CalTrans and Southern California Edison to survey tree 
mortality along the highways, evacuation routes and utility lines, and 
the USFS is working with CDF to co-fund a team of CDF foresters to 
assist.

Recent Fire Activity
    All of our pre-fire preparedness was suddenly put to the test 
earlier this month with the ignition of the Bridge Fire below the 
communities of Running Springs and Smiley Park. In a short time period 
the fire extended to 1400 acres moving up through chaparral that had 
not burned for 50 years. Fortunately, aggressive initial attack and an 
increase in humidity slowed the fire shortly before it reached the dead 
conifer zone. Reports indicate that the multi-agency response was 
excellent, voluntary and mandatory evacuations were conducted 
efficiently, and residents were prepared and cooperative. However, had 
conditions been windier and drier, this outcome could have been far 
different. This served as a sudden, startling wake-up call. It was a 
clear indicator of the flammability of the fuels and the speed with 
which a catastrophic fire could suddenly occur.

Conclusion
    We thank Congressman Lewis, Senator Feinstein and Secretary Veneman 
for their efforts in working to bring additional funding to this 
serious situation. Each entity brought resources to the table, but more 
is needed. The state continues to work closely with FEMA to determine 
what additional assistance may be available.
    As you can see, significant progress has been made but the 
continuing threat is enormous, and there is still much remaining to be 
accomplished. Nature is taking its course and has presented us with an 
ecological change on a scale that we have not experienced before. 
Academic researchers are anxious to document and study this extreme 
change.
    All the agencies are to be commended for coming as far as they have 
with as complicated a problem as they were faced with. We have made 
progress. The players are engaged. We have a good start on setting up 
the mechanisms for receiving funds and putting them onto the ground. 
Our first responders will do the very best they can if and when a 
wildfire occurs. The job of educating residents and visiting tourists 
on fire safety, evacuation planning, and tree clearance will be a 
continual one. With the entry of Southern California Edison and the 
large scale utility line clearance program we can start to think more 
comprehensively of long term biomass disposal options.
    It has not been a simple thing for the multiple agencies to face 
this. Everyone has had to work very hard, and I extend my sincere 
appreciation to them. Our firefighting season in Southern California is 
far from over, and this condition will extend for many years before the 
acute threat has passed.
    Again, I would like to thank you for the federal financial 
assistance we have received and for the outstanding support provided by 
USFS and FEMA in dealing with this threat.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. West?

              STATEMENT OF ALLAN J. WEST, MEMBER, 
        NATIONAL ASSOCIATION OF FOREST SERVICE RETIREES

    Mr. West. Mr. Chairman, Mr. Lewis and Members of the 
Committee, thank you for the opportunity to testify before you 
today on issues relating to the management of our national 
forests. You have a copy of my statement. I would just like to 
cover the highlights for you.
    I come before you today as someone who's devoted much of my 
professional career to fire management. As Director of Fire and 
Aviation Management, and as Deputy Chief, State and Private 
Forestry for the U.S. Forest Service, I have responsibility for 
fire protection over most of our nation's wildlands. In 
retirement, I chair the Watershed Fire Council of Southern 
California.
    I would like to address a few issues and potential 
solutions as they relate to the situation we find here in Lake 
Arrowhead and most of our western wildlands. The local citizens 
and most of our fire professionals will tell you they are 
sitting on a powder keg waiting to explode. With the number of 
dead and dying trees, and the volume of vegetation on the 
ground, all intermingled between houses, it's just a matter of 
time before disaster strikes.
    Devastation to important watersheds, wildlife habitat and 
personal property could set new records in terms of losses. The 
potential of entrapment of citizens is of grave concern.
    Wildland firefighters are dedicated to protecting lives, 
property and natural resources. However, under the conditions 
we find our forests today, their safety is of critical concern.
    These forests are under stress because of limited 
precipitation and increased annual growth that compete for the 
available moisture. When the trees are not vigorous, Bark 
Beetles attack, become established and then kill the trees.
    Active sanitation salvage programs during the 1950s, 1960s 
and 1970s, served to keep these stands relatively thrifty, but 
logging was opposed and consequently, the big bag timber 
company at Redlands closed, so today there are no ready markets 
for thinnings, except for firewood.
    Some suggest that the answer to destructive wildfire is to 
let them burn, just protect the little area around communities 
and residences and let nature take care of the rest. This fails 
the common sense test in many ways. Communities, fish, precious 
water supplies are equally at risk from the after fire floods 
and mudflows in unprotected and unstable watersheds, miles from 
the communities. It ignores the fact that our national forests 
are intermingled with private lands and it ignores the impact 
of smoke from forest fires on air quality and human health.
    As suggested by Northern Arizona University Professor, Dr. 
Wally Covington, treatment should be considered on the 
landscape of 100,000 to a million acres. Bark Beetles are not 
deterred by the thick bark of large trees. Evidence of this are 
the dead 400-year-old Ponderosa Pine throughout the San 
Bernardino National Forest.
    While some may argue that big trees should not be removed 
because they are fire resistance, history has demonstrated that 
big trees, while relatively resistant to fire, also burn.
    Many people do not want human intervention in the forest. 
Let the status quo might summarize as let's manage the forest 
as prior to European settlement. Common sense tells us we 
cannot ignore the presence of 280 million Americans in this 
country, nor the demands they make on our forests. There can be 
no more vivid example of the don't touch fallacy than right 
here on the San Bernardino National Forest.
    Annual appropriations must become an integral part for 
forest health maintenance. The Forest Service must have a 
program to address all aspects of forest health including 
prioritization. Some funding must be available to each forest 
supervisor so they can minimum skills and monitor and treat 
unhealthy forest conditions.
    Direct thinning projects have an important role. They are 
expensive, but effective. Fortunately, substantial portions of 
these stands need treatment and have added-on value: their 
potential markets for much of the material that needs to be 
removed as lumber, forest products and production of energy.
    The story of fire suppression in forestry in the last 
century is a great success story. In the early 1900s we were 
burning as much as 50 million acres a year. Today, 3 to 5 
million acres is a bad fire year.
    In the early 1900s, removal from our forests exceeded 
growth. Today, in spite of the significant population 
increases, growth exceeds removals. But our forests face a 
growing threat of fire, insect and disease because of 
overstocking. Fire can and should be used as one of the tools 
for reducing excessive fuel loading, but pre-treatment by 
mechanical removal is required in many areas before fire can be 
used without excessive damage and liability risk.
    Mr. Chairman, many of the views of the National Association 
of Forest Retirees is in this book, Forest Health and Fire, an 
Overview and Evaluation and we would like to submit this for 
the record.
    Thank you.
    [The prepared statement of Mr. West follows:]

  Statement of Allan J. West, National Association of Forest Service 
 Retirees, and Chairman, Watershed Fire Council of Southern California

    Mr. Chairman and members of the Committee:
    On behalf of the National Association of Forest Service Retirees 
thank you for the opportunity to testify before you today on issues 
relating to management of our National Forests. The association has 
members located throughout the nation who possess a unique body of 
knowledge, expertise and experience in the management of the National 
Forests, forestry research, and state and private assistance. I come 
before you today as someone who has devoted much of my professional 
career to fire management. As Director of Fire and Aviation Management 
and as Deputy Chief, State and Private Forestry for the U.S. Forest 
Service, I had responsibility for fire protection on most of our 
Nation's wildlands, both public and private. In retirement I chair the 
Watershed Fire Council of Southern California.
    The National Association of Forest Service Retirees believes that 
management of our National Forests must be based on sound science, 
technical feasibility, economic viability, and common sense. 
Unfortunately too much of today's debates about these valuable lands is 
based on myths and a ``Let's pretend'' approach.
    In my brief time with you I would like to address just a few of the 
issues and potential solutions. They relate to the situation we find 
here in the Lake Arrowhead area and most of our western wildlands. The 
local citizens and fire professionals will tell you they are sitting on 
a powder keg waiting to explode. With the number of dead and dying 
trees and the volume of vegetation on the ground, all intermingled 
between houses, it is just a matter of time before disaster could 
strike. Any fire escaping initial attack and burning into this beetle-
killed area could be catastrophic. Devastation to the important 
watersheds, critical wildlife habitats, homes, businesses and personal 
property could set new records in terms of losses. The potential 
entrapment of citizens is also of grave concern.
    Since my retirement 10 years ago, each year I have become 
increasingly more concerned with fire fighter safety, especially as I 
view the continuing decline in the health of our forests. There are 
locations to which you simply cannot, in good conscience, dispatch 
personnel. Wildland fire fighters are dedicated to protect lives, 
property and natural resources. However, under the conditions we find 
our forests today, their safety must be of critical concern. Even with 
all our modern equipment, helicopters, aircraft, advanced planning and 
highly trained firefighters, there is high potential for 
conflagrations.

Moisture Stress
    The forested areas of the San Bernardino, and other southern 
California forests are on the borderline of tree growth, because 
average annual precipitation is just over 12 inches. As a result the 
trees are in moisture stress any time precipitation is below normal. 
When stress is increased due to drought or overcrowding, the trees are 
especially vulnerable to insect attacks and to the problems of high 
ozone levels (once called ``The X Disease''). Foresters, entomologists 
and plant physiologists have long recognized that maintaining low stand 
densities in all size classes is essential to maintaining forest health 
in this particular situation.
    While there have been periodic outbreaks of insects, an active 
sanitation/salvage program during the 50's, 60's, and 70's served to 
keep the stands relatively thrifty. Unfortunately, the environmental 
movement that opposed logging disrupted the program on the San 
Bernardino and adjacent forests. Consequently the Big Bear Timber 
Company at Redland closed, so there is no ready market for thinnings 
except for firewood. There is adequate annual growth in the local 
forests, along with thinning and beetle and disease salvage, to support 
a modest-sized wood products industry. Effective forest management to 
reduce the hazardous fuel loadings in this area will be impossible 
without a viable forest products industry. An assured stable input of 
raw material would find markets for much of the wood that needs to be 
removed from the forest, with the larger material going to lumber and 
the smaller material to firewood and/or energy production.

Treatment of Large Landscapes
    Some suggest that the answer to destructive wildfire is to let them 
burn--just protect a little area around communities and residences and 
let nature take care of the rest. This suggestion fails the common 
sense test in many ways.
    <bullet> It ignores the damage that destructive fires do to 
watershed, wildlife and fish, recreation, and other forest values. We 
know that fire causes many soil types in the area to become impervious 
to water. Precipitation on these hydrophobic soils generates overland 
flows of water, soil and debris that can travel great distances. 
Communities, fish and precious water supplies are equally at risk from 
these after-fire floods and mud flows created in unprotected and 
unstable watersheds, miles from the communities.
    <bullet> It ignores the fact that our National Forests are 
intermingled with private lands, and fires burning on these Forests 
represent a threat to the private land values. The homes and forested 
land are intermixed. They do not form a separate interface where homes 
can easily be separated from forest fuels.
    <bullet> It ignores the impact of smoke from forest fires on air 
quality and human health. The towns in and around last year's fires can 
provide ample testimony on the impact of fires on the health of the 
inhabitants and their quality of life.
    <bullet> It ignores the practical problem, while individual houses 
that have defensible space can often be protected, that when fires come 
at a community on a wide front there are simply not enough resources to 
take advantage of the defensible spaces around many homes at the same 
time.
    <bullet> It ignores the complexity of hundred of miles of urban 
interface on the San Bernardino to be managed and protected, with 
little or no discrete stratification of fuel loading and types between 
the general forest and human habitations.
    Northern Arizona University professor, Dr. Wally Covington, argues 
the ``frequent fire forests,'' such as the San Bernardino, ``are so 
degraded and fragile that they are no longer sustainable, and a 
liability rather than an asset to present and future generations.'' 
Treatments, he suggests, should consider landscapes of 100,000 to 
1,000,000 acres. The entire fuel picture must be considered--the 
massive brush fields as well as the forested areas. Starting with 
highest risks, we should work back into the interior with fuel 
modification to where the costs of fire and values at risk reach some 
sort of equilibrium. The consequences of inaction will be to give 
residents a false sense of security that may put property and even 
their lives in danger.
    Similar rationale applies to forest insect epidemics. Beetles fly 
wherever they find suitable trees, and they respect no boundaries. 
Allowing a beetle epidemic to build up in the interior of a public 
forest jeopardizes private property as well. Thinning a stand increases 
the availability of soil moisture. Bark beetle populations can be held 
in check by modifying stand density because beetles do not become 
established in vigorous trees. Thinning is the only reasonable means to 
provide some insurance against the inevitable drought and lessen the 
effects of bark beetle infestations.

Treatment of Large Trees
    Bark beetles are not deterred by the thick bark of large trees. 
Evidence of this, in the form of dead 400-year-old ponderosa pine, 
pervades the San Bernardino. These dead trees, full of pitch and dried 
out by summer heat, will make a spectacular display of fire behavior 
when certain weather conditions and ignitions combine. The dead and 
down material will then generate an inferno, and the standing dead will 
act like Roman candles, scattering spot fires for miles ahead of the 
fire, making direct attack impractical and endangering life and 
property.
    While some may argue that big trees should not be removed because 
they are fire-resistant, history has demonstrated that big trees, while 
relatively resistant to fire, also burn with high intensity under very 
dry conditions and where ground fuels have built up. The Tillamook Burn 
in Oregon, at 355,000 acres, and the Yacoult Burn in Washington, of 
1,000,000 acres, were mostly old, large trees in much cooler moist 
coastal environments. The fires killed the large trees as well as the 
small ones.
    Restrictions on harvesting a given size or age of trees interrupt 
the succession necessary to maintain the basic health of the forest. 
The only responsible treatment is to remove the dead material and 
ladder fuels to an acceptable fuel loading, harvest the beetle-infested 
trees to prevent further spread, and thin the remaining stand to a 
density that reduces moisture stress and provides some resistance to 
drought. Size of individual trees must not be a deterrent to doing the 
correct silvicultural job.

The ``Don't Touch'' Fallacy
    Many people reject the idea of human intervention in the forest. 
The common view of the forest is one of stability and persistence, and 
we find a reluctance to intervene with this perceived static condition. 
But any knowledgeable observer of forest conditions recognizes that 
forests are not static, are never ``in balance''. They are constantly 
changing. The status quo view might be summarized as, ``Let's pretend 
there are only a few Native Americans in the country and manage our 
forests as they were prior to European settlement.'' In their view, 
roads, timber harvesting, fire protection, recreation developments, and 
other human activities are the cause of our current problems. Forget 
about managing the forest, just leave it alone and everything will be 
just fine.
    But Mr. Chairman, common sense tells us that we cannot ignore the 
presence of 280 million American in this country, nor ignore the 
demands that they make on our forests. There can be no more vivid 
example of the ``don't touch'' fallacy than right here on the San 
Bernardino National Forest and in much of the surrounding private lands 
where human impacts and moisture stress are at their highest.
    Over 350,000 acres of both public and private land in the San 
Bernardino and San Jacinto Mountains face drought-related mortality 
ranging up to 80 percent of the trees. Insisting that we let nature 
take its course in this highly populated and developed area, with 
severe drought on top of massive bark beetle infestation, is a certain 
disaster to life and property in the making. What will we be able to 
say to the American people if we do nothing, letting nature take its 
course, which results in substantial loss of human life?

Threatened, Endangered and Sensitive Species
    The southern rubber boa, Charima bottae umbratica, (State Status--
Threatened; Federal Status--Sensitive) resides in the San Bernardino, 
San Jacinto and San Gabriel Mountains above 1,500 meters. This creature 
will very likely become an issue when land management agencies propose 
forest health prescriptions. The Riverside County Multiple Species 
Habitat Conservation Plan lists a number of threats to the viability of 
the species; firewood harvesting, off-highway vehicle use, fern 
harvesting, commercial timber harvesting, fire management, skiing, and 
federal--private land exchanges. The fact that wildfire misses the list 
is a pathetic manifestation of a basic lack of understanding of the 
effects of fire on wildlife habitat. Reliable estimates of habitat loss 
of the northern-spotted owl due to the Biscuit Fire in Oregon last year 
amounted to over 80,000 acres. Owls are mobile, and an individual can 
escape a fire to take up residence elsewhere. But the lethargic, slow, 
earth-bound boas have no escape from even a moderately hot ground fire, 
let alone a massive conflagration that appears possible in the San 
Bernardino and San Jacinto Mountains. Habitat-destroying fire could be 
disastrous to the species.
    We don't propose to ignore the rubber boa's habitat needs, but one 
must consider the long-term effects of no action when assessing the 
short term. The Conservation plan describes the habitat destruction of 
the southern rubber boa as a consequence of moving logs around, logs 
that the extremely secretive boa uses for hiding. A schedule for forest 
management activities could be timed when the species are less active--
in the middle of the summer and in the winter, for example. In 
addition, only a small portion of the forest will be affected by fuel 
treatments at any one time. In any event the imperative is to carry out 
the necessary treatments whenever habitat loss in the long-term will 
exceed the immediate effects.
    Another commonly held argument against active management of habitat 
at risk harkens back to ``The No Touch Fallacy''. Wildfire (the claim 
goes) being ``natural'' is more acceptable than human intervention, 
even if ``unnatural'' human intervention is less damaging to the 
habitat than the alternative of no action. This amounts to sacrificing 
species health only for the sake of maintaining a misguided dogma.

Forest Health Funding
    Assured annual appropriations must become an integral component of 
forest health maintenance. On-again, off-again funding for forest 
health means that the field loses the necessary professional skills and 
that research into forest health problems dries up. It also precludes 
the development and maintenance of markets for material that needs to 
be removed. The Forest Service must devise a comprehensive programming 
and budgeting system that addresses all the aspects of forest health, 
including a prioritization scheme that sends the money where it's most 
needed. Funding must also be available to all forest supervisors to 
maintain minimum skills necessary to monitor and treat unhealthy forest 
conditions. A forest health program plan, once developed, should be a 
budget line item for Congressional appropriations.
    Direct thinning projects have an important role. They are 
expensive, but effective. Funding needs to be continued, but common 
sense tells me there is little likelihood that the Congress can provide 
appropriations at a level needed to make significant progress.
    Fortunately, substantial portions of the stands that need treatment 
have economic value. There are potential markets for much of the 
material that needs to be removed, as lumber or other forest products, 
or in the production of energy.
    Regarding the production of energy, two relatively new developments 
could be brought into play on the San Bernardino. One is the small 
power generating plant using small diameter forest residues, a 
demonstration of which is currently in the field testing stage by the 
Forest Products Lab; the other is the slash buncher now in use in the 
central Sierra, which binds small material in bunches for delivery to 
power plants. The San Bernardino area, with its developed 
infrastructure and copious supplies of raw material, provides a perfect 
location for additional field-testing of these activities. Additional 
funding for the Forest Products Lab for research and development would 
help refine these technologies to make them more lucrative as important 
adjuncts to forest health operations.
    Much can be accomplished in terms of stand management, while also 
contributing to the economy of local forest communities and to our 
energy needs, if the Agency is provided the flexibility to market 
commercially valuable material.
    Now I know the charge will be made that this is just another excuse 
for letting the timber industry back in the door, but using the 
economic value of this material is the only way the job is going to get 
done. It is also consistent with the statutory purposes for which the 
National Forests are established.
    Recognizing the immense cost of restoring forest health, we must 
not shrink from having forest products help pay for the cost. Recent 
studies by the Forest Service demonstrate that removing some 
commercially valuable material along with small material of negative 
value, results in better forest conditions and lower costs. Selling 
commercially valuable material, where it makes silvicultural and 
economic sense, will give us more bang for the appropriated buck.

The Case for Active Forest Management
    Mr. Chairman, clearly the forests of the country were not 
sustainable in the face of the level of forest fire activity that was 
occurring at the start of the 20th Century. The story of fire 
suppression and forestry in the last century is in fact a great success 
story.
    In the early 1900's we were burning as much as 50 million acres per 
year. Today we consider 5-6 million acres as a bad fire year. And let 
us look at the results. In the early 1900's, removals from our forests 
exceeded growth. Today, in spite of significant population increases, 
growth exceeds removals by substantial margins. Private firms and 
individuals invest in long-term forest management because there is some 
certainty that the investment will not be lost to fire. Water quality 
from our forested lands remains high. Populations of deer, elk, and 
other game species have increased dramatically. Recreation use of our 
National Forests has increased. By any objective measures, the 
condition of our forests has improved dramatically over the last 
century.
    But our forests today face a growing threat of loss to fire, 
insects and disease as the result of overstocking over wide areas. It 
is essential that efforts to deal with this problem be accelerated.
    Foresters and fuels management specialists on the National Forests 
know how to create stand conditions that reduce their vulnerability to 
fire and insects. They cannot fire proof these forests, but they can 
reduce the likelihood of devastating fires and reduce the damage 
resulting when fires do occur.
    Forests need to be thinned to reduce fuel loading and the 
likelihood of crown fires. We know quite a bit about the stand 
conditions that are required. The Agency needs to be provided with the 
full range of tools necessary to achieve these conditions. Stands must 
be treated not only adjacent to communities, but also throughout many 
of the vulnerable stands. Artificial limits on the size of trees to be 
cut must be avoided.
    Fire can and should be used as one of the tools for reducing excess 
fuel loading, but it is expensive. Pretreatment by mechanical removal 
is required in many areas before fire can be used without excessive 
damage and liability risks. Smoke management is a major issue. As a 
practical matter, there will be relatively little increase in 
prescribed burning under current clean air regulations. I will let the 
members speculate on the likelihood of a significant relaxation in the 
regulatory arena.
    Mr. Chairman, many of the views of the National Association of 
Forest Service Retirees on this issue are documented in the publication 
Forest Health and Fire an Overview and Evaluation. The publication is 
available in electronic form at www.fsx.org/NAFSRforesthealth.pdf. I 
ask that it be included in the record.
    Thank you again for the opportunity to take part in this critically 
important hearing. I would be happy to answer any questions.
                                 ______
                                 
    The Chairman. Without objection, it will be included in the 
record. Thank you.
    Mr. Jensen.

        STATEMENT OF JAY JENSEN, LEGISLATIVE DIRECTOR, 
             WESTERN FORESTRY LEADERSHIP COALITION

    Mr. Jensen. Thank you, Chairman Pombo and Committee. I'll 
be making frequent reference to my written testimony, so you 
might want to pull it out as it contains a number of figures 
and graphs that relate this Bark Beetle problem in a larger 
context of the West.
    My name is Jay Jensen. I'm the Legislative Director for the 
Western Forestry Leadership Coalition, a group of western 
states foresters, western USDA foresters, regional foresters 
and western USDA Forest Service research station directors. The 
coalition is a state and Federal partnership between these 34 
western leaders who have organized to come together to talk and 
tackle these issues, these forest resource issues that affect 
the West such as the Bark Beetle.
    What I'd like to talk today is to come before you and 
present some of our findings of our western Bark Beetle report 
and in the larger context talk to you about what is happening 
in the rest of the West in terms of the Bark Beetle.
    I think we've heard pretty good--I'm going to recap a 
little bit of my written remarks in the sense we've heard from 
the Panel and from the questions already about what the beetle 
means in terms of its impacts on forest health and in terms of 
fire. I think it's important to note that the Bark Beetle is 
actually an endemic species to the environment. It does play a 
natural role in keeping forests healthy. When a forest is 
healthy, they create low level disturbances that actually help 
with wildlife habitat, actually help with increasing diversity 
in trees. However, when our forests are unhealthy, what the 
Bark Beetle does is it exacerbates the problem. We see it 
impacting instead of tens of thousands of acres, hundreds of 
thousands of acres and that's what we see here today. We're 
dealing with the problem where we have unhealthy forests where 
the trees are, as Dr. Bonnicksen has pointed out, the trees are 
too close together. We have too many trees on the landscape. 
Throw on top of that the drought that we have, the problem is 
exacerbated even more.
    What this results in is we are prime and ripe for 
catastrophic wildfire to strike. Now the crux of the issue here 
is apparently is what the public expects out of their forests. 
Yes, these forests will grow back. Yes, the fires will happen 
and people will rebuild their homes in these areas, but is it 
acceptable for the people who live here now and what we value 
as a society to have that happen? I would submit to you that it 
is not. We must do something about that.
    Now I'm going to return and go back to the report a little 
bit and summarize to you perhaps the most striking finding 
that's in there. We found that over the next 15 years it's 
projected that 15 million acres will be impacted by Bark 
Beetles in the West.
    If you'll turn to page in my testimony, you'll note the 
first figure there. It's entitled Forest Health. That shows a 
graphic representation of where those 21 million acres are to 
be intact and on the landscape.
    On the following page, on page 4 of my testimony, you will 
note another graph. It shows 2002 fires in the West. What this 
map shows in red are all the forests in the West that are 
currently unhealthy and where the fires in 2002 impacted on the 
ground. You'll notice a pretty strong correlation between where 
those fires occurred and where we have unhealthy forests. If 
you juxtapose that first graphic and this next graphic you can 
see and anticipate where we're going to see future problems in 
the West.
    To provide a little more detail in terms of that, I'll 
again ask you to turn to page 5 of my testimony where there's a 
table. I'm not sure if the Clerk handed it out earlier, but 
there's actually a graph bar representation of what those 
numbers show there. And Chairman Pombo and Congressmen from 
California, you'll note what that table and this graph shows 
are acres of tree mortality by Forest Service region. 
California is Forest Service Region 5. You'll note from 2001 to 
2002, we have a tremendous leap. In terms of absolute numbers, 
we're going from 78,000 acres to 847,000 acres.
    Congressman Gibbons, Congressman Walden will also notice 
the same in your states and your regions. Now, this paints a 
fairly foreboding and a bleak picture, but I will say that we 
do have a course of action we can take to actively manage our 
forests.
    Our Bark Beetle report lays out the course of action that 
would need to be taken. I'll summarize that and briefly say 
that we need to undertake a national course that undertakes 
prevention, suppression and restoration of those forests.
    To wrap up my testimony, I'll bring it back to what's 
happening here in Lake Arrowhead and the San Bernardino 
National Forest. Lake Arrowhead is not alone and a community in 
itself. Where Lake Arrowhead is actually ahead is that they 
have, the communities come together and agree that action needs 
to have and that needs to take place. The same location in the 
rest of the country, but that debate is currently happening 
right now and I think what's happening with the Healthy Forest 
Restoration Act is a good example of what needs to happen so we 
can get to the point where we can take quick and decisive 
action to respond to these threats.
    I encourage you in that sense that we must continue the 
discourse on what our management reaction should be and the 
Healthy Forest Restoration Act is a good start to that 
discourse. Thank you.
    [The prepared statement of Mr. Jensen follows:]

            Statement of Jay Jensen, Legislative Director, 
                 Western Forestry Leadership Coalition

    Members of the House Resources Committee, thank you for the 
opportunity to testify before you today to present critical and timely 
information on the condition of our western forests. My name is Jay 
Jensen. I am the Legislative Director for the Western Forestry 
Leadership Coalition (Coalition), a group of western State Foresters 
<SUP>1</SUP>, western USDA Forest Service Regional Foresters, and 
western USDA Forest Service Research Station Directors <SUP>2</SUP>. 
The coalition is a federal-state partnership representing the expertise 
and experience of these 34 western forestry leaders who have organized 
to help tackle many of the current resource issues we face in the West.
---------------------------------------------------------------------------
    \1\ Includes the U.S. Territorial Foresters in the Pacific
    \2\ Includes the Forests Products Lab Director in Madison, WI
---------------------------------------------------------------------------
    You are here today to discuss the forest health crisis in the San 
Bernardino National Forest, but, as you will see, the problem of bark 
beetles in the West is not unique to Southern California. The Coalition 
and its members are seriously concerned about what western bark beetles 
are doing to our forests and communities throughout the west. We 
greatly appreciate this opportunity to speak with one voice on this 
bark beetle issue and would like to present the findings of a report 
entitled, Western Bark Beetle Report: A Plan to Protect and Restore 
Western Forests (www.WFLCcenter.org). Requested by the House Resources 
Subcommittee on Forests and Forest Health, the USDA Forest Service in 
cooperation with the Western Forestry Leadership Coalition released the 
report in April of 2002.

Historical Role of Bark Beetles
    Today I would like to discuss the important recommendations of the 
report, but first allow me to present the larger context of western 
bark beetle impacts in relation to Lake Arrowhead's situation. Bark 
beetles in western forests have been present for millennia. They are an 
endemic species, that is one that is native to the area, and have a 
very important natural role to play in keeping forest ecosystems 
healthy that should be recognized. They act as ``agents of change.'' 
Forests are dynamic and beetles contribute a healthy level of 
disturbance in the forest. Within their historic natural range of 
variation, they can act as a low-intensity disturbance in the forest, 
maintaining a proper balance of numbers of trees and forest ecosystem 
structure. Similar to fire, these low-intensity disturbances are an 
integral dynamic in keeping forests healthy.
    However, when our forests are unhealthy, the normal balance that 
exists is disrupted by numerous factors. In an unhealthy forest, 
normally low-level disturbances are exacerbated and result in high-
level catastrophes that tend to be harder and costlier to address in 
terms of dollars and lives. Rather, these unhealthy forests can lead to 
high-level catastrophes that threaten the myriad of resources the 
public values in our forests; clean water, wildlife habitat, scenic 
beauty, timber, and clean air. Many of our western forests are no 
longer resilient to bark beetle outbreaks. No longer are forests able 
to withstand their effects, thus preventing the beetles from playing 
the role of a positive ``agent of change.''
    The reasons why beetles are able to act outside their normal 
disturbance role are complex, but can be simply summed up by saying 
there are too many trees in the forest. Due to diminished active 
management in forests as a whole and decades of efficient wildfire 
suppression, forested lands have grown overcrowded. I am here to relay 
that many of our forests throughout the west are overstocked, over-
mature, and lack diversity in species and age. Just as people are more 
susceptible to disease when in crowded environments, trees are forced 
to compete for more limited resources like water, sun and nutrients. 
Forests in these conditions cannot withstand natural stresses such as 
drought. With the ongoing droughts that are affecting much of the west 
compounding the problem, it becomes clear that trees and whole forests 
are extremely susceptible to health threats such as the bark beetle. In 
these conditions, beetles act outside of their natural range of 
variation, resulting in potentially devastating impacts to forest 
communities and, perhaps more importantly, human communities.

Values At-Risk
    Our forests do not stand in isolation from the communities within 
and around them. On the contrary, people depend on them. The human 
communities around Lake Arrowhead are a perfect example. Within their 
branches, forests hold much of what we as a society value and, to some 
degree, take for granted every day. Forests provide benefits to urban 
and rural communities in the forms of recreation, wood products, clean 
and adequate water, wildlife habitat, scenic quality and jobs. As a 
whole, these items define our quality of life. When our forests are 
devastated by a wildfire outbreak, the forests and the resources that 
we hold so dear are at risk of deteriorating. This is what we risk when 
bark beetles are allowed to operate outside their natural range of 
variation.

[GRAPHIC] [TIFF OMITTED] T9420.008


Western Impacts
    Our western bark beetle report found that over the next fifteen 
years, twenty-one million acres of western forests <SUP>3</SUP> are at 
high risk of experiencing significant tree mortality caused by bark 
beetles [See Figure 1--``Forest Health''; page 3].
---------------------------------------------------------------------------
    \3\ There are 362 million acres of western forests.
---------------------------------------------------------------------------
    Combined with continuing drought, we have a recipe for disaster, 
like the one we see here in Lake Arrowhead. Dead, dry acres of trees 
wait for a match or lightning strike to erupt into a wildfire affecting 
people and the communities that live and depend on these forests. 
Figure 2 [``2002 Fires in the West,'' page 4] is a powerful visual that 
shows the direct relationship between the condition of the land and the 
occurrence of wildfires from the 2002 wildfire season. You will note 
that the major wildfires from 2002 coincide with areas that are in the 
worst condition class. In straightforward terms, catastrophic fires are 
occurring primarily where forests are unhealthy.

[GRAPHIC] [TIFF OMITTED] T9420.009


    The truly unfortunate situation is that the problem is not getting 
better on its own. Table 1 [``Acres of mortality,'' page 5] shows the 
acreage adversely affected by bark beetles over the past six years. As 
you can see, we are moving on an exponential scale where the number of 
trees that have died over the past two years has more than doubled from 
1.9 million acres to 4.1 million acres.

[GRAPHIC] [TIFF OMITTED] T9420.010


    This information presents an ominous case for the challenge ahead 
of us in the west, yet we have an answer. By actively managing the 
threatened acres of our forests, we can restore them to a healthy 
condition and avoid creating more situations like Lake Arrowhead. We 
have, within our knowledge and skills, the ability to avoid this. 
Specific actions can restore our forest to good health and reduce the 
threats to communities. The Western Bark Beetle Report--A Plan to 
Protect and Restore Western Forests, focuses on three courses of 
action; prevention, suppression and restoration, all of which must be 
applied across all ownerships and boundaries to be effective.

Prevention
    I would submit to you that prevention is the best option of the 
three to pursue and makes the most sense. If one can prevent or 
diminish unwanted bark beetle outbreaks before they occur, costs, 
impacts and disruptions are all minimized. A good analogy is our own 
health. It is smart to see a doctor regularly for preventative health 
measures. The same applies to bark beetles and other forest health 
threats. Preventative bark beetle efforts are aimed at returning the 
land to a more natural condition where a mosaic of species and forest 
age classes exist. Ultimately, prevention treatments, such as thinning 
forests (removing excess trees) and prescribed fires (intentionally set 
fires with management objectives), will result in lower overall fuel 
accumulations and fewer ``ladder fuels'' which allow flames from 
wildfire to spread from normal ground fires, high into the canopy. The 
end-result is a forest functioning within the normal and historic range 
of variation.

Suppression
    If preventative measures fail or are not in place, the next option 
is to suppress the bark beetle outbreak. Unfortunately, suppression 
efforts tend to be the most costly option to undertake. Suppression 
strategies call for expedited treatments in order to limit the negative 
impacts of ongoing outbreaks. Emphasis should be placed in high-valued 
areas such as the wildland-urban interface, threatened and endangered 
species habitat, recreation sites, and critical watersheds that provide 
drinking water. Suppression actions include removal of potential and 
infested host material; the use of pheromones to capture beetles; and, 
at times, the limited use of pesticides to protect high-value trees 
during an outbreak.
    Suppression efforts may give resource managers valuable time to 
design and implement prevention and restoration treatments that will 
reduce further bark beetle spread and return forests to a more 
resilient condition in the future.

Restoration
    In some sense, restoration is the final goal of all our actions. We 
want to return forests to a healthier condition so they are more 
resilient to bark beetle outbreaks. When trees are healthy, they can 
fend off these natural predators with their own defense mechanism; the 
tree's own sap and pitch. This should be a guiding goal in all our 
efforts. The approach to restoration involves re-establishing proper 
tree spacing and an appropriate diversity of tree species for the site 
through targeted tree removals and plantings. Again, the challenge here 
is the magnitude of the problem ahead. As much of the west's forests 
are in poor health (estimates are as large as 190 million acres of 
federal land in either condition class 2 or 3), much work needs to be 
done to restore these lands to a point where bark beetles can return to 
their natural range of variability and act within its historic role as 
an agent of change.

Research
    A word needs to be said about the continued need for research and 
development on bark beetles. We already know much about the interaction 
of unhealthy forests and outbreaks of bark beetles. Enough so that we 
can take action and have the confidence in knowing what we are doing 
will improve the situation. However, in order to become more effective 
in our response capabilities, continued improvement in our prevention, 
suppression and restoration abilities is prudent.
    We can benefit from continually improving research efforts that 
include the following:
    <bullet> Improved methods to predict where, when and how much bark 
beetle activity will occur on forested landscapes;
    <bullet> Clarified results and interactions between bark beetle 
populations, wildfires and prescribed fires;
    <bullet> Technologies for using natural attractants and 
repellents; and
    <bullet> Continued education and outreach to improve understanding 
of the ecological role of disturbances caused by insects, disease and 
fire.

Conclusion
    Lake Arrowhead is not an isolated situation. It is clear that much 
of the west faces similar threats from bark beetle outbreaks. The 
difference between current and historic outbreaks is the scale of 
interaction between bark beetles and their hosts. Present day western 
forests are much more susceptible to large-scale tree mortality caused 
by bark beetles, whose impacts are even further exacerbated by drought.
    The urgency is upon us. We risk damaging and losing forest 
resources Americans value so deeply. The evidence is clear that we need 
to actively manage our forests to have any chance in improving our 
forests' health. Strategic direction is already laid within the 
National Fire Plan and the guidance of the 10-year Comprehensive 
Strategy Implementation Plan. We must now make a long-term commitment 
to prevent, suppress and restore bark beetle impacted forests that 
involves all interested stakeholders as partners and approaches the 
issue of bark beetles across all ownerships.
    We all can learn much from what plays out here in Lake Arrowhead, 
but we must continue public discourse on what our management response 
should be.
                                 ______
                                 
    The Chairman. Thank you. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and 
Supervisor Hansberger, what percentage of the tax revenue base 
for San Bernardino County is affected by the Lake Arrowhead and 
the San Bernardino Forest property and the fires here?
    You talked about $8 billion valuation. That's a property 
tax valuation. What percentage of that is that of San 
Bernardino County's revenues?
    Mr. Hansberger. Actually, it's probably a fairly small 
percentage. I should have those numbers at my fingertips. I do 
not. I would say it's probably somewhere in the range of less 
than 8 or 9 percent. However, local--there are many local 
service agencies within these mountain communities who rely on 
property tax as their means of survival and this is the 100 
percent of their property tax revenue. So if you are a local 
community service district, if you are a local fire district, 
if you're a local hospital district, a local school district, 
you are heavily impacted by this and it may be the entirety of 
your income. The county itself may not be losing as much of the 
revenue, but it would have an adverse impact on us.
    Mr. Gibbons. So theoretically, if a disaster struck in this 
part of the county, it could bankrupt the others who would then 
have to support the small local community infrastructure that 
would not be supported by the tax base?
    Mr. Hansberger. That's true.
    Mr. Gibbons. Dr. Bonnicksen, does treatment preclude fire 
or does it simply mitigate the type of fire?
    Mr. Hansberger. Which treatment?
    Mr. Gibbons. Treatment of a forest, whether it's thinning, 
whatever the proposals are for this type. Not including, of 
course, pre-fires.
    Mr. Hansberger. Treating a forest properly, in other words, 
making the forest function and look more or less as it should 
naturally will substantially reduce the fire hazard, but it 
doesn't eliminate the fire hazard.
    However, in a forest like this, historically, these fires 
were every 9 to 18 years, sometimes a little longer in between, 
but most of the time the flame heights were a foot or two above 
the ground and then it flared up in patches here and there that 
were overgrown because there's always going to be a certain 
proportion of the forest in small patches, usually less than 2/
10ths of an acre in size for this forest, where it would flare 
up, but the other patches being relatively fire resistant, 
would contain those flare ups and the fire would drop back down 
to the ground. So that would be a normal fire regime here and 
that's what you'd get if you restored the forest.
    Mr. Gibbons. So theoretically, even if you treated the 
urban forest interface for a fire, you wouldn't preclude a fire 
from going through that area?
    Dr. Bonnicksen. First of all, it's awfully tough for me to 
figure out where this urban interface really is. If you look in 
these communities, you'll find these houses are scattered 
throughout the forest. We have Boy Scout Camps, Girl Scout 
Camps, cabins everywhere. I'm not sure I know where the 
interface is. It's all interlaced. The people live within the 
forest and there's no wall that we can build to separate them 
from the forest, so I'm convinced that there's only one way to 
protect both the communities and the forest and that's to 
manage it in a way that mimics its history.
    Mr. Gibbons. I guess the question was premised on the idea 
that if you treated a forest, you get less crown fires, which 
are devastating to a forest versus a ground fire which usually 
helps in terms of the health of a forest.
    Dr. Bonnicksen. I would certainly hope that once the forest 
is restored, recognizing in this case we're dealing with for 
the most part a dead forest, we can, however, through 
management and planning and other things, bring back the 
forest.
    I would hope that fire would play some of its historic role 
in that future forest, continue to think it, continue to reduce 
the fuels, but it would never be possible to do that on a scale 
that matched its history because people live here, air 
pollution restrictions and so on, so it would always play a 
supplemental role. You're going to have to use mechanical 
methods from now into the foreseeable future to supplement 
that.
    Mr. Gibbons. Ms. Tuttle, I've only got a few seconds here 
left. I'd like to ask you how the State of California balances 
out the resource utilization between California International 
Guard map units and contracted out commercial fire fighting 
units?
    Ms. Tuttle. That would probably take more time than we have 
here. You recall that the State of California has its own fire 
resources that we draw upon. We have engines. We have fire 
fighters. We have crews. We have an aviation tanker force and 
helicopters and we work in close coordination with our Federal 
partners. We are dispatched together. We have regional 
operation centers. So the coordination with the Federal 
resources is if we need them on the particular fire. We had 
state responsibility fires. We have Federal fires and it just 
depends on the extent of resources needed and we share our 
resources. That's the strength of our system.
    Mr. Gibbons. I failed to ask the question properly, but my 
time has expired, so you----
    Ms. Tuttle. I'll be happy to talk with you afterwards.
    Mr. Gibbons. Exactly. Thank you, Mr. Chairman.
    The Chairman. Mr. Cardoza.
    Mr Cardoza. Thank you, Mr. Chairman, I'd like to start by 
just making an observation that it seems to me after hearing 
this testimony that we're loving our forests to death and the 
hands off policy just isn't working.
    The Chairman. One of the things I'd like, Dr. Bonnicksen, 
or the supervisor to mention or to answer this, is that it 
seems to me that because there's a lack of logging resources in 
the area, there's nobody left to utilize or to process the wood 
that you need to take out of the forest at this time. Is that 
right?
    Mr. Hansberger. Essentially that's correct. Unfortunately, 
one of the ways we're disposing of timber today either at the 
county landfill or through the air curtain and destructors to 
actively burn the wood which breaks my heart to see a resource 
like that be destroyed without it ever having a use.
    I mentioned earlier I appreciated the comment area, having 
grown up in this region, I remember when Big Bear Timber 
Company was an active company and we were actually logging here 
and I defy anybody to find today the results of that in a 
negative way in our forests. It simply isn't present and having 
lost them, we lost a very valuable tool.
    Mr Cardoza. That's the reason why I asked the question is 
because I recently was in Klamath Forest up north and they're 
afraid the same thing is going to happen to them that's 
happened down here and they feel that they're fearful that a 
lack of logging and lack of proper forest management will cause 
the same devastation that you're experiencing here with poor 
management practices.
    Mr Cardoza. I just recently came back from a trip to 
Israel, Dr. Bonnicksen, and in Biblical times they talk about 
how Israel, which has a very similar climate to here is a 
bountiful and forested land. And Mark Twain, in the 1860s goes 
over there and it's--he calls it a denuded wasteland, void of 
any vegetation for miles. Now you go back and there are healthy 
forests.
    Is that the kind of forest practices that you're hoping to 
see in the rejuvenation after we can clear out here or does 
that really take a much more intensive effort than what we've 
put forward?
    Dr. Bonnicksen. Not to be too facetious, but not the forest 
practices that denuded the forest, but those that----
    Mr Cardoza. Exactly.
    Dr. Bonnicksen. I think here--I'm been dealing with 
restoration forestry for a very long time, actually restoration 
forestry began with Aldo Leopold in 1934, but we're used to 
dealing with a living forest. We just have to scope out its 
history. Here we're actually starting from scratch. I've never 
seen anything like this where we have to start with virtually 
no forest and build a whole new one. This is a monumental 
challenge that I think we as a society are obligated to 
undertake.
    Mr Cardoza. Ms. Tuttle, currently, the State of California 
is looking at a bill, S.B. 810. I believe it's on the 
Governor's desk. It would further restrict timber--it would put 
additional regulation on timber harvest plans. Does your 
administration have a position on that yet? I could just put in 
my two cents worth. I am thinking that this is not the proper 
way to go, but really need to do better planning and I'd 
encourage the Governor to veto that bill, but I'll let you 
speak.
    Ms. Tuttle. It is on the Governor's desk and the decision 
at this point is his to make. We do have a very rigorous Forest 
Practice Act in California. We do protect public trust 
resources. I personally have been very committed to retaining a 
strong sustainable forest products industry in California and 
keeping our forest lands, our privately owned forest lands, in 
forest use because we grow trees, we have wonderful forest 
soils. This is a very sustainable and important industry to 
retain in California.
    The forest practice rules do have salvage provisions in 
them for dead, dying and diseased material. The relationships 
with the regional water boards which is what you're referring 
to here with S.B. 810 is one that we try very hard through the 
review team process to accommodate the comments of the regional 
water boards. We accommodate or accept approximately 95 percent 
of what they request in terms of site-specific mitigation.
    It's those--that other portion, particularly on the north 
coast where most of the concern has been raised.
    Mr Cardoza. If I could just have one more moment, Mr. 
Chairman, I'd just like to build upon what Mr. Walden said. I 
was in San Francisco the day of the Oakland Hills fire and 
there were embers and ash coming clear across the Bay so the 
amount of distance that these fires can travel and the embers 
that float from these devastating fires can go quite a 
distance.
    The Chairman. Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman. Chairman Hansberger and 
Ms. Tuttle, I must say that I'm very pleased that you are part 
of the Panel for it's a reflection of the reality that many 
agencies are involved here. The challenge is a long one. Real 
dollars are going to be required. The county is under great 
pressure for their budget difficulties, the state is as well, 
so is the Federal government, but in the meantime, this is a 
crisis and we do not tend to be other than a crises-oriented 
society. I would hope that long-term commitment of all of our 
dollars would be a part of this.
    Mr. Chairman, with your leave, I'm going to do everything I 
possibly can within that other piece of the body, the 
appropriations process, to try to help.
    But I've never had the privilege, Mr. Chairman, to sit with 
a Panel quite as varied, but also talented, as this one. And so 
if you'll forgive me, Dr. Bonnicksen, let me specifically as 
you to help me understand what kind of model and what kind of 
time is required to do what you suggested? We've got a dead 
forest that is unprecedented. We must do what we need to do to 
protect those trees that have survived and in turn, go about 
what I was talking about earlier, perhaps modeling a way that 
we collect the seeds, build the foundation for replacing those 
trees that are going to be removed, hopefully not all by fire, 
but removed. What kind of time is involved, what kinds of 
dollars in your best guesstimate are involved in a 
comprehensive modeling of this forest?
    Dr. Bonnicksen. First of all, there's absolutely no 
question that we start close to the homes and businesses and 
schools where people are. We have to start there to do 
everything we can to protect them. We have to remove the dead 
trees, protect those trees that are alive, thin those trees 
that are in patches that are still too thick, release some of 
the big old Black Oaks that still have some full-size trees 
surrounding them and strangling them.
    We have to be gentle on the site with the machinery we use 
so that it does not disturb the soil any more than necessary. 
We have to plant in the openings those species that are 
appropriate to the size of the opening. If it's a small 
opening, you'd put in fir or cedar, although I think that will 
be naturally seeded in some areas.
    In a somewhat larger opening, you'd put in sugar pine and 
in a larger opening still, you'd put in Ponderosa Pine. So we 
know basically how to do those things. And then work our way 
out from the communities into the forest at large. The cost is 
something like an average of between $1,000 and $4,000 an acre. 
I think we can recoup some of that cost if we can build 
infrastructure for the processing of biomass for energy 
production, for the production of ethanol, for example, as 
another source we can use.
    In addition to that, I think if we move quickly in those 
areas closer to the communities where there are--there may be 
billions that you'd need ultimately on this forest that we'd 
harvest. We have to, I think, demonstrate or make people aware 
of the fact that this material, this wooden material, if we get 
to it quickly enough, even though it has blue stain in it from 
the--that was brought by the beetle, is still perfectly good 
wood for building homes. It's structurally sound and there 
should be no stigma attached to it. That's one of the reasons 
that value drops on this 52 percent within about 2 months after 
the beetle hits a tree is because people think that blue stain 
is not good wood. It's actually quite decorative and 
structurally sound. So I think we also have to educate the 
public to the value of this product so that we can market it at 
a price that makes it possible for the taxpayers to recoup some 
of the costs. But you just have to multiply out those numbers.
    There's no way in the world that we're ever going to manage 
474,000 acres because if you look at the terrain you can see it 
would be physically impossible to harvest that material and 
replace the forest. It's too steep, the soils are too shallow 
in some areas, so we're really talking about strategically 
restoring parts of this forest and then I'm afraid some of it's 
going to be a write off. We can't do anything about other than 
to hope it recovers as best it can, but I think at least half 
of this forest could be easily restored, but it would take 
ultimately that cost, minus whatever money we can recoup from 
the products we produce. Fifty to 100 years, they have a forest 
that looks like a real forest, depending upon the site, and I'd 
say a 10-year process to achieve what's achievable.
    Mr. Lewis. And 10-year process and probably literally 
hundreds of millions of dollars perhaps?
    Dr. Bonnicksen. It could easily be hundreds of millions of 
dollars. In fact, I offered kind of humorously to one of the 
guys in the Forest Service, I said, OK, I'll take this forest 
at $400 million. He said sold. I said uh-oh. So I don't know if 
that wold do it, but I do think that if we restored half of 
that and multiplied it by $1,000 to $4,000 per acre, minus 
whatever value we get, that's the cost.
    Mr. Lewis. It's my understanding that in areas like Mr. 
Walden's northwest that blue stain pine has become a popular 
product and literally being used in the marketplace. That kind 
of sale needs to take place in Southern California as well, but 
indeed, there are portions of the forest that are highly usable 
in the marketplace, if we will. In the meantime, I appreciate 
all of your testimony. It's a very valuable panel. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I want to go 
back to this issue of the wildland urban interface because as I 
was reading the testimony we're going to hear soon from a 
representative of the Wilderness Society, he makes a very 
interesting point and that is that in California, 85 percent of 
all the land within a half a mile of 814 communities identified 
as being at risk from fire is nonFederal in ownership, a 
crucial fact completely overlooked by HFI. Is that--if that's 
the case then, I now better understand why some of these groups 
are pushing to focus virtually the entire portion of this bill 
on that half mile interface because then the bill would do 
virtually nothing. Is that not accurate? Anybody want to 
comment on that?
    Go ahead, Ms. Tuttle.
    Ms. Tuttle. Let me venture into this, not as an endorsement 
or nonendorsement.
    Mr. Walden. We'll accept an endorsement, but go ahead.
    Ms. Tuttle. Of any position, but let me just say that 
California has more wildlife urban interface than any other 
state in the nation. The entire front face of the Sierra, the 
entire Marin County up to Sonoma and Mendocino, the entire San 
Francisco south down through Monterey, all across this area, 
this region here, we have more interface than any other simply 
because we have a larger population and a larger mixing of 
these two land types.
    We also have three types of interface. One is the interface 
with the Federal nexus. One is the intermix which is privately 
owned lands that have homes built in the forest and the third 
type is the interface that does not have a Federal nexus which 
is the Oakland Hills fire where that was regional parks next to 
dense urban areas. Down here, you have a lot of nonFederal 
nexus.
    So just to clarify that, we have so much interface, 
frankly, I will take any projects any place. We do need to 
focus on the interface in California because of the loss of 
property aspect. It's different from Montana and Wyoming which 
has a different development.
    Mr. Walden. I fully agree with you and in fact, commend 
your agency for the partnerships you have, frankly. In my state 
and in the Forest Service, you've done tremendous work. My 
point though is we looked in the Federal process to be better 
able to manage Federal lands. If we restrict the bulk of this 
process to a half a mile within a community, it's not that that 
work doesn't need to be done, it's that you've basically taken 
what we're trying to do to improve a system, focus virtually 
all of it over here where it will have little, if any, effect 
because according to this testimony, 85 percent of that land 
isn't Federal anyway.
    So that's my issue.
    Ms. Tuttle. I'll let you have the conversation about that--
--
    Mr. Walden. I didn't mean to put you on the spot, but I 
guess the question I'd have of you, I noticed that Governor 
Davis, you mentioned in your testimony, issued an emergency 
order to deal with some of these issues. Did that emergency 
order also deal with the planning process to get in and treat 
state lands or to work with private landowners that might fall 
under California state law? Did you streamline that and 
expedite it? And I'd be curious too, to know, what limits you 
may or may not have on types of materials that can be taken 
out, sized, diameter, all of that.
    How does California deal with that?
    Ms. Tuttle. Because California has so much interface, we've 
been in this business a lot longer than the National Fire Plan. 
For at least 10 years, we have developed an infrastructure of 
three primary elements one of which is our Fire Safe Councils. 
This is the work that you have very active Fire Safe Councils 
here. They've been instrumental in bringing us together.
    The second leg is the California Fire Alliance which are 
the combination of state and Federal agencies. We meet 
regularly to--and certainly now with the National Fire Plan and 
the grants, we've been using the alliance as our focus for the 
grants.
    Because of the--because the philosophy of the Fire Safe 
Councils is to build constituencies from the bottom up rather 
than the top down, we have had very good environmental and 
public support for the fuel breaks projects that we do in our 
interface communities. We have not had the same kind of 
dissension in our fuel break projects.
    Mr. Walden. Do you have the same kind of appeals process as 
the Forest Service has?
    Ms. Tuttle. Fuel break projects on private land, on our 
side of the Federal/private boundary, projects don't go forward 
if there is tremendous dissension on them. So we have had very 
high success with the projects that have been derived by the 
Fire Safe Councils, yes. And these are spread throughout the 
state.
    Mr. Walden. And do you work on coming up with multiple 
alternatives for each project, or do you try and get a 
consensus to one?
    Ms. Tuttle. I failed to mention the California Fire Plan. 
We have a very rich data base of what are fuels are, what our 
fire behavior is and we have the knowledge in our unit chiefs 
and our fire managers. We come into this community of many 
stakeholders, the insurance companies, and so on, and we show 
them where, for example, if you have community that's totally 
surrounded by fuel, but the wind usually goes this way, then 
you would put a fuel break project here, not there.
    We help them identify where the projects would make the 
most sense and then we build the consensus, we see what kinds 
of resources are available to us. We use every mix of fueling 
from below, sheltered fuel breaks, whatever it may be, whatever 
is appropriate for that site.
    Mr. Walden. My time has expired, thank you.
    The Chairman. If could just follow up on Mr. Walden's 
question, if you could explain to me what--maybe I 
misunderstood it, what did Governor Davis do in that emergency 
declaration of whatever it was? What--because I understood that 
it was a change of policy and from what your answer was, you do 
all these great things now.
    Ms. Tuttle. The executive order was very specific. There's 
an issue of gifts of public funds to private lands. We are not 
allowed to use our crews, our innate crews unless the tree is 
actively hot, where it is now bug infested. After the bugs have 
left and the trees are dead, the responsibility is on the local 
home owner, the private property owner to remove those trees. 
What the executive order did in March was to give us the 
authority to go on the private lands, on to trees that the bugs 
have left as long as we were within evacuation corridors. We 
were worried about trees falling and blocking the road during a 
fire and so we have a wider corridor where we now have 
executive authority to go onto private lands and that is where 
we have focused our efforts.
    The second part of the--there were two orders. One was in 
March that gave us that authority to go on to private land and 
it also streamlined some of our permit conditions for taking 
trees, the Timber Harvest Plan permit and contracting law, we 
simplified.
    The second portion of the executive order was to frankly 
provide this additional funding for fire fighter response. We 
have a fourth fire fighter on each engine. We have additional 
engines. We have additional crews and we have a leased 
helicopter.
    The Chairman. OK, I think I get it. Because the way it was 
reported, I thought there was something else that went along 
with that because at the Federal level we have to deal with all 
of the appeals process and everything else and that seems to be 
a big part of our problem in trying to deal with some of these 
clean up projects and thinning projects. I had understood that 
the state had done something to deal with that project.
    Ms. Tuttle. It's mostly through our--the system of bottom 
up, grass roots stakeholder built projects where we have 
agreement, we have so much interface and we have been able as 
much--every dime that you have provided through the Fire Plan 
grants, we have put to very good use and we appreciate it very 
much. There's lots of capacity here to receive and work with 
the funds.
    We work well with our Federal partners. We've had to. We've 
been at it somewhat longer.
    The Chairman. Obviously, we have a lot more to do.
    Supervisor Hansberger, obviously, you're a lot more 
familiar with how this area is laid out in terms of private and 
public ownership and what the impacts are. One of the 
difficulties that we have had is that when we get the Forest 
Service comes in and they say we've looked at this forest and 
this is the area that we feel we should treat first, because of 
the wind patterns, because of the topography of an area and all 
of the different impacts, if we get into he issue of severely 
limiting where the Forest Service can go to protect those 
hands, in fact, one of the graphs that we have up here, in 
showing where the dead and dying trees are versus where the 
urban interface is, if we went a half mile outside of the urban 
interface, I don't see how it would do anything to solve some 
of the safety problems that we have.
    Obviously, you guys have spent a huge amount of money in 
trying to deal with this issue. How do you deal with that urban 
interface, wildland interface?
    Mr. Hansberger. Supervisor Bellen has joined me today and I 
represent a significant portion of--well, we represent 
virtually all the mountain top except in the Brightwood area 
and I have been very concerned because I've had sort of the 
unique experience, having been around a long time, and I've 
actually participated with the fire fighters in 1970 in what's 
called the Bear Fire and I was right in the midst of the 
Panarma Fire in 1980. The Panarma Fire in 1980 which took, I 
think, 347 homes in the town of San Bernardino. It started up 
here on the mountain and moved its way all the way down the 
mountain.
    I was well over a half a mile from the fire with a couple 
of fire chiefs when we were trapped inside of our car by embers 
that were coming so hot and so fast that we could only stay in 
our car and keep driving, but we would have been severely 
injured if we left the car and it was igniting grasslands, a 
mile, mile and a half, two miles away from the forest because 
of the severe winds that we suffer here on this mountain and 
people who have not experienced what we refer to as our Santa 
Ana winds which is an incredible wind force, just don't 
understand what it can be with burning embers and how far they 
can carry them.
    At that time, I lived in the town of Redlands and burning 
embers fortunately did not start a new fire, but actually were 
carried that far. So they carry for miles, Congressman, and I 
personally experienced--I call myself an expert only because I 
actually was there and it happened to me.
    The Chairman. Thank you. And I thank the entire panel for 
your testimony. This has been one of the most informative 
panels that we have had on this subject in all of the hearings 
that we've had and I appreciate a great deal the time and 
effort that all of you put into your testimony. Thank you very 
much.
    I'd like to call up our third panel. On Panel 3 we have Mr. 
Joe Grindstaff, General Manager, Santa Ana Watershed Project 
Authority; Dr. Hugh Bialecki, President of Save our Forest 
Association; Mr. Jay Watson, Director of Wildland Fire Program, 
the Wilderness Society; Mr. Richard M. Rosenblum, Senior Vice 
President, Transmission and Distribution, Southern California 
Edison Company; and Mr. Eddie Phillips, Americans For Forest 
Access.
    Thank you and welcome today. I will remind our witnesses 
that under Committee rules you must limit your oral testimony 
to 5 minutes, but your entire written testimony will appear in 
the record.
    I now would like to recognize Mr. Grindstaff for his 
statement.

    STATEMENT OF JOE GRINDSTAFF, GENERAL MANAGER, SANTA ANA 
                  WATERSHED PROJECT AUTHORITY

    Mr. Grindstaff. Thank you very much, Mr. Chairman and Mr. 
Lewis. I appreciate the opportunity to be here and recognizing 
the time, I will try and be brief.
    The Santa Ana Watershed Project Authority, the Santa Ana 
Watershed, covers from Big Bear in Idyllwild all the way on 
down to, through Orange County to the beach and about 5.3 
million people live in our watershed. And contrary to popular 
belief about two-thirds of our water supply comes from our 
local water shed. So over a million acre feet of water per year 
is generated in a water shed here for local use and we spend 
lots of time fighting about the Colorado River and dealing with 
the Bay Delta, but our local resources are incredibly 
important.
    I'm not an expert in forests and how to manage them, but I 
can tell you that the potential impacts of the fire here are 
really very, very significant. We put together just a kind of a 
brief estimate of what the impacts of the kind of potential 
fire we frankly expect will happen here will be and we expect 
it to be, costs to all of the people of the watershed to be on 
the order of $200 million and the impacts come first from 
flooding, although frankly because Mr. Lewis has done such a 
good job and we've gotten Seven Oaks in, I'm not as worried 
about the immense flood potential. Although if we had a 100-
year storm, after this kind of fire event happened, Seven Oaks 
wouldn't be enough, frankly. What we have in place would not be 
enough. But when you look at the debris, the mud, the rocks, 
the other kinds of things that come down, and we have one 
estimate that's in here of 1.7 billion cubic yards. Now it's an 
incredible amount of debris. Debris flows are not really well 
understood, but this area is relatively young geologically and 
would, in fact, have tremendous debris flows that would cost 
huge amounts of damage, really depending on what the nature of 
the fire would be.
    Other kinds of impacts from fire, for example, you wouldn't 
think about it, but the salt level, the TDS level in the water 
coming down the mountain would be increased and that--it still 
would be drinking water quality, but the impact on the ground 
water would be that it would raise the TDS level and we'd 
actually have to put in treatment systems because we're 
regulated about water quality on our ground water here and it 
would reduce the number of times we'd be able to recycle the 
water and right now we recycle our water about three times 
before it actually makes its way to the ocean. So that would be 
a significant impact.
    Ash contains in it enormous amounts of organic compounds. 
Those organic compounds, when combined in the water and used 
for drinking can create carcinogens, so again that would cause 
a problem for drinking water supplies, as we move forward. In 
these mountains, in particular, we have a lot of uranium, so a 
large fire would free up uranium and we would end up with 
radionuclides and that would also--and radon is also a problem 
in the region, that this would dramatically increase the 
impact. It's not something that, as a professional, I've spent 
a lot of time, but as we looked at this and we started to look 
at what the potential problems are, a fire up here could cause 
major, major impacts for everyone downstream in the watershed 
and it's really important that not only we take care of this 
here, but that we prevent this kind of thing happening in all 
of the watersheds throughout the nation, whether it's--before I 
worked here, I worked in Salt Lake City. The watersheds are 
incredibly important there. The watersheds are important 
throughout the nation. So with that, I commend the Committee 
for dealing with this issue and ask you to address it as you 
move along to try to prevent this in the future.
    Frankly, I think we're going to have to deal with it and I 
think the forest here, as I understand it is dead and we're 
going to have more or less some of those impacts are going to 
be inevitable.
    Thank you.
    [The prepared statement of Mr. Grindstaff follows:]

          Statement of P. Joseph Grindstaff, General Manager, 
                 Santa Ana Watershed Project Authority

    Chairman Pombo, and members of the Committee on Resources, thank 
you for providing me this opportunity to address the potential 
watershed impacts to the Santa Ana Watershed from a significant forest 
burn in the San Bernardino National Forest. Over the long-term, it is 
crucial that we take steps to protect our forests from the kind of 
situation we face here. I also thank you for addressing the suitability 
of a federal grants program, which would minimize damage impacts of 
fire to the area and to increase the potential for fire control, life 
and property protection and a reduction in habitat loss.
Background
    The Santa Ana Watershed derives a majority of the water for over 5 
million people from the rainfall in and around the San Bernardino, San 
Gorgonio and San Jacinto Mountains' forest areas. Rainfall in these 
mountainous areas provides surface water flows and groundwater recharge 
throughout the region. Impacts to these areas will have significant 
impacts on the Santa Ana River and its watershed water quality. The 
last several years have seen significantly decreased rainfall and 
resultant drought conditions in these forests. This drought stress has 
made the forest susceptible to infestation by the Pine Bark Beetle, a 
serious pest of conifers. This combination of factors has resulted in 
large-scale mortality of trees in the area and the presence of an 
enormous source of combustible material. Fires in these areas are 
likely to be large and difficult to contain; the aftermath of any fire 
events will have extraordinary impact on the forest and the watershed.

[GRAPHIC] [TIFF OMITTED] T9420.001


    The purpose of this summary is to document the significance of the 
likely damage to the forests, water quality, flood management, and 
related issues that require planning, monitoring and funding in the 
watershed. Impacts from large fires in isolated forest areas will be 
felt in areas far from the location of the fire and many of these costs 
will be borne by local government.
    Fuel loads in the area of Lake Arrowhead and Big Bear Lake are 
extraordinarily high due to forest and private property management 
practices in these urban forest areas. Air and ground surveillance in 
January 2003, found over 171,000 total acres of forest area have 
significant tree mortality of which 70,000 acres are privately owned. 
Estimates by California Department of Forestry officials indicate over 
180,000 acres are estimated to be at these levels. Mortality at these 
levels over such a large area and the resulting dry, standing timber 
will lead to high likelihood of uncontrollable fire situations in the 
forest above the watershed. It is now estimated that over 350,000 acres 
have been attacked by the beetle.

Threat
    A likely burn risk scenario for this summer could include as much 
as 180,000 acres. This large impact to the forest would cause 
significant impacts to the watershed's water quality and flood 
management capability. These impacts will be apparent at the site of 
the fire and in the communities occupying the lower parts of the 
watershed. The impacts of this unusually high magnitude fire are 
estimated below.
    Estimating the water quality impacts of a large burn are difficult 
but some research indicates this is a dire situation if winter rains 
are normal or heavy. Bureau of Land Management and Forest Service EIR's 
filed for controlled burn management, Forest Service research 
publications, Los Angeles County Flood control plans, impact history 
from the Heyman fire in Colorado and personal communications with 
Riverside Fire Lab personnel document the following impacts from ash 
runoff water from areas of burns:
    1. A significant increase in total runoff and peak storm flows, 
more rapid snow melt and decreased snow pack;
    2. Catastrophic increases in sediment and water turbidity from 30-
to-50 times the normal expected debris flows with fine sediment carried 
far down stream;
    3. Doubling or greater increases in total dissolved and suspended 
solids from even small burn areas;
    4. Significant increases in nutrients loading, primarily nitrates 
and phosphorus formerly bound in soil and from prior airborne 
deposition in some areas where ground and surface waters already exceed 
Federal standards for these pollutants;
    5. In cases where foundation rocks contain radionuclides, 
increases in Gross Alpha and Beta were observed; the headwaters of the 
Santa Ana River were home to a small Uranium mine and transport of 
uranium and its radiological progeny downstream in to near surface 
water is well documented;
    6. Increases in organics, including toxic organics and 
carcinogenic compounds from partial combustion of forest materials and 
the transport of these compounds downstream to urban areas; and
    7. Significant stress to forest species and to endangered and 
threatened species in the Santa Ana River and its tributaries; this 
would include the Federally protected San Bernardino kangaroo rat, the 
threatened Santa Ana sucker fish and the Santa Ana wooly star.

Impacts
    These documented impacts will be expressed following any large fire 
in the Santa Ana Watershed. These impacts, when estimated from a likely 
burn scenario for the fire season of 2003 or 2004, could result in the 
following:
    1. Total runoff is likely to increase by more than 10 percent and 
peak storm flows increases about 5 times the average to between 200,000 
and 300,000 cubic feet per second. This is also likely to be 
exacerbated by more rapid snow melt;
    2. Sediment loads carried downstream could 30 to 50 times normal 
taking an estimated 1.7 billion cubic yards of rock, sand, and debris 
into control structures and dams. The quantity of this material could 
take months or years to remove;
    3. Long duration increases in water turbidity with fine sediment 
may be carried far down stream complicating groundwater recharge 
efforts;
    4. A 2-10 fold increase in dissolved solids (TDS) or salts with 
increased flows could result in as much as 500,000 tons of added salt 
in the river and groundwater basins. Runoff water is needed for 
recharge or consumptive use, significant treatment requirements to 
remove or mitigate this TDS;
    5. As much as 20,000 tons of nutrients nitrates and phosphorus 
formerly bound in soil and from prior airborne deposition released into 
the peak storm flows and eventually making its way into the groundwater 
in the first few years;
    6. Significant transport of uranium and its radiological progeny 
downstream in surface waters and into near surface groundwater 
increasing the cost of radon treatment and future monitoring;
    7. Increases in organics, including toxic organics and 
carcinogenic compounds from partial combustion of forest materials that 
will decrease the usability of one of this region's primary water 
sources; and
    8. Sedimentation of the lands used by the San Bernardino kangaroo 
rat and the Santa Ana woolystar and choking turbidity reducing the 
useable habitat for the Santa Ana sucker fish.
    These impacts are likely to be severe over five or more years 
depending on rainfall and storm intensity. The estimated cumulative 
costs to the watershed are estimated to be greater that $800 million, 
not including fire damage to homes and habitat.

Funding Recommendations
    In addition to these expected impacts, several funding 
recommendations are listed to minimize the impacts of the fire to the 
area and to increase the potential for fire control, life and property 
protection and a reduction in habitat loss:
    1. A dead tree removal matching grant to help fund tree removal on 
private lands in communities that agree to adopt ordinances, zoning and 
building codes and planning policies that ensure fire-wise building and 
rebuilding. $200 million.
    2. Local Forest Service and California Department of Forestry crew 
augmentations to increase the rate of dead tree removal. $5 million for 
FY 2003 and $6 million for FY 2004.
    3. Management planning and outreach for impact reductions and 
maximal compliance with existing damage minimization measures within 
the forest and watershed. $1 million FY 2003 and $2 million FY 2004.
    4. Pre-fire and post-fire long-term monitoring of forest health, 
including strategic planning for long-range sustainable forestry 
practices after fires. $5 million FY 2003 and $7 million FY 2004.
    5. Funding for desalting and salt management efforts in the San 
Jacinto and Santa Ana Watersheds to reduce the impact of salt and 
contaminants to the watershed. $40 million, grant on $80 million 
project.
    6. Emergency Disaster funding through FEMA to declare a drought 
emergency to allow the use of FEMA assistance in advance of the fire. 
Policy Direction Fiscal Impact Unknown.
    The following table lists significant cost items:

    [GRAPHIC] [TIFF OMITTED] T9420.002
    

Requested Action
    Fund the Programs and Impacts above to minimize damage and future 
costs and prepare to fund actual fire costs as they occur.
                                 ______
                                 
    The Chairman. Dr. Bialecki.

          STATEMENT OF DR. HUGH BIALECKI, PRESIDENT, 
                  SAVE OUR FOREST ASSOCIATION

    Dr. Bialecki. Thank you and good afternoon. Chairman Pombo, 
Congressman Lewis and Members of the Committee, good afternoon, 
and welcome to Lake Arrowhead. I'm Dr. Hugh Bialecki, President 
of Save Our Forests Association; Board Member, past President 
of the Lake Arrowhead Communities Chamber of Commerce; and 
local business owner.
    I'm speaking today on behalf of Save Our Forests 
Association, a leading local conservation organization in the 
San Bernardino Mountains and I welcome this opportunity to 
address the Panel.
    As a long-time resident of the San Bernardino Mountains 
community, I and the constituents I represent are very 
concerned about the forest health crisis in the San Bernardino 
National Forest and throughout the West. We're also concerned 
that the leading prescription to address the crisis, the 
Healthy Forest Initiative, was passed by the House of 
Representatives earlier this year. We applaud the Committee's 
request to the Congress to pass a wildfire fighting 
supplemental, addressing this year's fire fighting needs.
    Our primary concerns with the Healthy Forest Initiative has 
to do with the lack of direct funding through block grants to 
assistant communities in creating and maintaining community 
protection zones, the lack of opportunities for communities to 
be directly involved in the creation, and the review of many 
fuel reduction options the Forest Service should consider in 
creating and maintaining CPZs and the severe limitation of our 
right to challenge a Federal agency's input when we believe the 
agency is moving in a direction that will not or is not 
creating conditions that improve or protect our quality of life 
and quality of the forest experience for our visitors.
    In light of the legislation's first purpose, to reduce the 
risk of damage to communities, we see little or nothing 
contained in the legislation that will immediately increase the 
efforts of the agencies to create and maintain community 
protection zones, the areas 500 yards of the community. The 
Forest Service, the Western Governors Association and a host of 
fire scientists around the country have repeatedly said that 
the most effective protection for communities will occur within 
the community protection zones and immediately around 
structures.
    Today, adequate community protection zones are in their 
earliest stages of design and implementation. Public land 
advocates have been asking the Forest Service to create CPZs 
around our forest communities since the mid-1990s. I point to 
the Sierra Nevada framework as an early example.
    I'd like to take this opportunity to recognize and thank 
the efforts of Congresspersons Lewis, Bono, Senator Feinstein 
and County Supervisors Dennis Hansberger, Paul Bellen and 
Forest Supervisor Gene Zimmerman, for recognizing the threat to 
our community and working with us through the fire agencies and 
local fire safe councils to obtain emergency funding. We also 
thank Congressman Lewis for his foresight and leadership in 
providing consistent land and water conservation revenue to 
this forest.
    What does a healthy forest mean here in the San 
Bernardinos? An urban forest with an easy access of 20 million 
Californians, an urban forest that is the most recreated 
national forest in the country, maintaining a healthy forest in 
the SBNF means maintaining our mountain quality of life. It 
means maintaining the resources that provides that special 
quality of life which includes open space, clean air, 
watersheds, serenity, aesthetics, recreation, wildlife, 
solitude and providing an outlet and an escape from the 
pressures of city life.
    Because of forest density, multi-year drought, Bark Beetle 
infestation, we do not have a healthy forest. This national 
forest is at extreme risk of catastrophic fire. Some say our 
forest is dying. Some say it is already dead.
    The Save Our Forest Association and many others are not 
giving up on this forest. The Bark Beetle infestations spreads 
like wildfires and it must be fought like wildfires.
    We believe that the health of the forest can be recovered.
    There's obviously a critical need for fire protection. 
We're fully aware of that fire danger and have recently 
evacuated residents from the Bridge fire. Prior to that the 
Willow Fire which consumed over 60,000 acres of our resources 
while costing millions of dollars.
    Four important steps should be taken. One, declare a 
Federal state of emergency.
    Two, establish community protection zones to avoid 
devastation within the communities such as we've already seen 
in some of our local war zone neighborhoods, denuded trees, 
loss of ecosystems, wildlife with incredible economic loss to 
private homeowners.
    Three, maintain public participation in the process. Who 
has a more invested interest to ensure protection of the SBNF 
from fire than residents, visitors and resource users in 
surrounding communities?
    Four, immediate intensive reduction of fuel load, removing 
hundreds of thousands of dead and Bark Beetle infested dying 
trees to involve substantial increase in Forest Service 
personnel, increases in Federal funding, creating products from 
the biomass and developing incentives for non-local loggers to 
remain working in the SBNF.
    We need to protect and enhance the health of our present 
forest resources, taking action to ensure that the healthy 
trees and ecosystems stay healthy, to increase the number of 
Forest Service research scientists and properly fund those 
scientists to manage the forests with designated funding. 
Following scientists' recommendations on how to maintain a 
healthy forest, increasing funding and personnel on a long-term 
basis, we know preventive measures are cost effective and that 
crisis management in fighting forest fires are not.
    And again, we need to maintain public participation.
    Henry David Thoreau perhaps said it best ``in wildness is 
the preservation of the world.''
    California needs your help in preserving this island of 
wildness in these mountains. The time for action is now. Our 
public is already working toward achieving this common goal. 
We're counting on your help. Thank you.
    [The prepared statement of Dr. Bialecki follows:]

Statement of Dr. Hugh Bialecki, President, Save Our Forest Association, 
    and Board Member, Lake Arrowhead Communities Chamber of Commerce

    Chairman Pombo, Congressman Lewis, and members of the committee. 
Good afternoon and welcome to Lake Arrowhead. I am Dr. Hugh Bialecki, 
President of the Save Our Forest Association, Board member and past 
president of the Lake Arrowhead Communities Chamber of Commerce, and am 
speaking today on behalf of the Save Our Forest Association, the 
leading local conservation organization in the San Bernardino 
Mountains. I welcome the opportunity to address the panel today.
    As a long-time resident of the San Bernardino Mountain's community, 
I and the constituents I represent are very interested in and concerned 
about the on-the-ground effects of the Healthy Forest Bill, as passed 
by the House of Representatives earlier this year. Before I get to 
that, I'd like to applaud the committee's request to the congress to 
pass a wildfire fighting supplemental addressing this year's fire 
fighting needs.
    First, we agree that work must be done to address the health of our 
forest environment and that action is needed to address the many short 
and long term issues our forests face. We agree that harmful logging 
practices and effective fire suppression have created forest conditions 
that threaten communities and in some cases may threaten the wild 
characteristics American's seek when they live in or visit a forest. I 
believe that Martha Marks, President of Republicans for Environmental 
Protection, expresses the feelings of most Americans when she describes 
our national wildlands as, ``...an intrinsic part of this nation's 
patriotic heritage, the symbol of our national vigor and freedom, and 
an irreplaceable trust for our future.'' I thank the committee for 
bringing focus to this very important national issue.
    Our primary concerns with the Healthy Forest Initiative have to do 
with the lack of direct funding through block grants to assist 
communities in creating and maintaining community protection zones, the 
lack of opportunities for communities to be directly involved in the 
creation and review of the many fuel reduction options the forest 
service should consider when creating and maintaining community 
protection zones, and the severe limitations of our right to challenge 
the federal agencies in court when we believe the agency is moving in a 
direction that will not or is not creating conditions that improve or 
protect our quality of life and the quality of the forest experience 
for visitors.

Lack of Focus and Direct Funding to communities though block grants
    In light of the legislation's first purpose, ``to reduce the risks 
of damage to communities,'' we see little or nothing contained within 
the legislation that will immediately increase the efforts of the 
agencies to create and maintain community protection zones, the areas 
within 500 yards of a community. The Forest Service, the Western 
Governors Association and a host of fire scientists around the country 
have repeatedly said that the most effective protections for 
communities will occur within the community protection zone and 
immediately around structures. Today, adequate community protection 
zones are in their earliest stages of design and implementation. Public 
land advocates have been asking the Forest Service to create CPZ's 
around our forest communities since the mid-1990's. I point to the 
Sierra Nevada Framework as an early example.
    One could imagine the greater security in communities like 
Crestline, Lake Arrowhead, Running Springs, Big Bear and Idyllwild 
would have if maintained CPZ's existed, and all of our homes and common 
buildings had defensible fuel zones. The threat of fire would be 
greatly reduced. However, much of this does not exist, and there is 
much to be done by the community, the county, the state and federal 
government. For instance, updating county zoning regulations 
specifically defining and mandating defensible space while also 
providing for adequate monitoring and enforcement will make our 
communities safer tomorrow. We'd still be removing those dead trees 
killed by the bark beetle, but there would be a lot less work to do. 
Since the early 1990's the Save Our Forest Association and the Sierra 
Club's San Gorgonio Chapter have been prescient in the education of our 
community by hosting forums calling attention to the need for fuels 
reduction and responsible logging practices. For instance, the removal 
of small diameter trees and brush reduction.
    Unfortunately, it takes the overt threat of disaster to get people 
to recognize what needs to be done. Today, as we are addressing the 
issue, other obstacles are in our way. The local, county and state 
governments are all operating in deficit and money and manpower are 
scarce; however, an emergency situation requires the federal government 
to step in. I would like to take this opportunity to recognize and 
thank the efforts of Congresspersons Lewis and Bono and County 
Supervisor Hansberger and Forest Supervisor Zimmerman for recognizing 
the threat to the community and working with us to obtain emergency 
funding. We understand that the latest five million dollars to come to 
the San Bernardino National Forest was money that had been appropriated 
for fuel reduction projects in the eleven national forests of the 
Sierra Nevada. While we obviously appreciate the prioritization and 
movement of the money, we ask that those affected forests are 
reimbursed in full, as soon as possible. It would be a tragedy if other 
needed fuel reduction projects could not be completed because the money 
was directed elsewhere, leaving other communities at risk.

Priorities
    In the light that the administration has identified the increased 
threat to communities from forest fire due to successive years of 
drought, dead trees and insect infestations, I'll speak now to funding 
priorities. The Fiscal Year 2004 budget put forward by the 
administration proposes to spend $265 million on commercial timber 
sales, while only $228 million are going for hazardous fuel reduction 
projects. What is more important, getting the cut out, or protecting 
communities by thinning small diameter trees and clearing brush? 
Furthermore, while the Healthy Forest Initiative would appropriate $25 
million a year through 2008 to biomass companies, it appropriates zero 
dollars to communities through block grant programs. We agree that if 
the slash and small trees removed in the creation and maintenance of 
community protection zones can be utilized commercially, they should 
be; however, we are very concerned that the focus of forest health not 
be dominated by the economics of extraction and the pursuit of 
profitable balance sheets. Commercial logging or resource extraction 
under the guise of forest thinning /fuel reduction will result in the 
further degradation of our forest resources. Our community will not 
accept a trade-off that endangers its wildlife, aesthetic values, 
recreational opportunities and watersheds. The bill has an excessively 
broad definition of areas that will be eligible for thinning 
operations, and locally would include the entire forest, even remote 
roadless areas far from our community. Scientists, including former 
Forest Service Chief Jack Ward Thomas, have identified that the 
critical areas to be treated occur within 500 yards from a community. 
We can contemplate a situation where the local forester is tasked to 
create revenue by logging large trees away from the community, moving 
scarce resources from the creation and maintenance of community 
protection zones.

Public Comment
    There is a well-established right for the people to fully 
participate in the formulation of federal administrative actions. The 
Healthy Forest Initiative attempts to scale back public participation 
in crucial community decision-making. The position that allowing the 
public to participate in the formulation of local policy and that 
lawsuits have prevented fuel reduction projects from occurring is 
misleading and unfounded. Two successive reports from the General 
Accounting Office in 2002 and 2003 state that 95 percent of fuel 
reduction projects proceed without objection and 97 percent proceed 
within the 90-day appeal process. Furthermore, I have a local example 
of a fuel reduction project in 1991 that was found to be cutting trees 
in excess of 22'' in diameter leaving behind smaller trees, brush and 
slash. This was a commercial timber sale under the guise of a fuel 
reduction project. Only through community involvement was the 
inappropriate cutting of large trees stopped, with a legal settlement 
that specifically allowed the Forest Service to cut trees 22'' in 
diameter or less and those ``...infested with mistletoe, insects, 
parasites or disease creating a danger to the health or vigor of a 
surrounding tree or tree stand. The Forest Service may thin small trees 
in any of the units as a silviculturist deems necessary.''
    Additionally, over the last couple of months, the forest community 
has participated in the San Bernardino National Forest Mountain Summit 
which brought together over 200 people, from various backgrounds and 
points of view, to discuss the future of this forest fifty years from 
now. Protecting the quality of life and visitor's experience in the San 
Bernardino's was the dominant theme. There was consensus that 
fundamental to the mountain quality of life is the protection of 
wildlife, the watersheds, recreational opportunities and fire safe 
communities. Ultimately we agreed that only by increasing the 
communication between our community and the agencies can the public 
gain the confidence that the Forest Service is managing this national 
forest effectively.
    Finally, the work that must be done in our forests and communities 
is not only long term, but perennial. Only through the provisions of 
the National Environmental Policy Act can we know that forest projects 
are being planned and executed appropriately. Open and transparent 
deliberations are the cornerstone of sound public policy and the most 
direct route to creating a healthy future for the San Bernardino's and 
all our national forests.
                                 ______
                                 
    The Chairman. Mr. Watson.

STATEMENT OF JAY WATSON, DIRECTOR OF WILDLAND FIRE PROGRAM, THE 
                       WILDERNESS SOCIETY

    Mr. Watson. Mr. Chairman, Members of the Committee and 
Congressman Lewis, my name is Jay Watson and I'm Director of 
the Wilderness Society's Wildland Fire Program. I work out of 
the State of California. It is all too clear that the San 
Bernardino region deserves your attention and therefore, I 
really would like to congratulate Senator Feinstein and 
Representative Lewis for securing an additional $30 million for 
the region.
    This Administration, the Congress, future Administrations 
have to make a sustained investment in hazardous fuel reduction 
for years to come if we are going to reduce the risk of fire 
and bring forest ecosystems back into some kind of ecological 
balance.
    I would also say that securing new monies for the area is a 
much better approach then one recently followed by the 
Administration and that approach $5 million was taken from the 
Hazardous Fuel Reduction budgets of 11 other national forests 
in California and rerouted to San Bernardino. I don't dispute 
the fact that the San Bernardino needs that money, but so do 
those 11 other forests. They face hazardous fuel, fire risk 
problems as well.
    I also note that two-thirds of the $30 million will float 
to nonFederal jurisdictions and that also stands in sharp 
contrast to the Healthy Forest Initiative which applies solely 
to Federal lands. While land fire doesn't recognize land 
ownership boundaries so any solution to reducing fire risk must 
make resources available to and work across all land 
ownerships.
    The situation here in San Bernardino cries out for 
cooperation and a commitment to finding ways to alleviate the 
danger that now exists. That is what we have seen in many, many 
ways. MAST has been established and no one will disagree with 
their short term and midterm priorities.
    I do see the possibility for future controversy as perhaps 
as the Forest Service moves out into more remote forest health 
projects, but to reduce and perhaps even avoid that 
controversy, the Agency should involve the local community, all 
stakeholders and balance the equally legitimate, but sometimes 
competing goals of habitat protection and fire risk reduction. 
After all, in many places in the West and throughout 
California, the land itself, the forests and the lakes are what 
are attracting new businesses and new evidence of and new 
economic opportunity to many regions.
    Just as there is no single cause for this situation, facing 
the San Bernardino, there is no single solution. I'll get to 
the question from Mr. Walden about the half mile zone later, 
but one of our other fundamental criticisms of the Healthy 
Forest Initiative is that it brings with it little or not new 
money. Rather, it seeks to pay for the removal of surface and 
ladder fuels through timber sales and through increased 
deficiency and decisionmaking.
    Make no mistake about it, the Wilderness Society does not 
oppose commercial logging. That is not the issue. The issue is 
that a significant investment is going to have to be made in 
forest restoration and community protection and one of the 
greatest obstacles I believe throughout the West to a 
successful hazardous fuel reduction program is that by and 
large, the predominant materials that have to come out of the 
forest, are surface fuels and small and mid-diameter trees 
would serve as ladder fuels. And in many cases, those materials 
have little or no commercial value. So we simply have to find 
new markets, new uses for materials that today are considered 
noncommercial.
    Biomass, perhaps, is part of the answer here. It seems 
unfortunate, if not crazy, to be burning hundreds of tons of 
wood every day and not generating a single watt of electricity, 
yet again we're competing regulatory mechanisms or capital 
needs to make that possible.
    In an industrial infrastructure of skilled and well-paid 
forest workers are needed to do the actual job of reducing 
hazardous fuels and I would argue that an appropriately scaled 
community-based forest industry can play an important role in 
seeing that the right works gets done in the right places. It 
can do so because a community-based forest industry works on an 
economy of scale that can turn a profit, can employ people by 
using the right materials, small diameter trees and mid-
diameter trees and perhaps even dead and down wood material for 
biomass. One thing the Forest Service can do to benefit and 
promote a community-based forest industry in an economy of 
scale is to recommit to small business set asides, simply 
writing contracts for the big boys in the timber industry who 
need large volumes and large trees. Small mill owners, local 
contractors can be part of the solution, but they need to have 
access to material. With that said, the Wilderness Society will 
gladly work with and support the Forest Service and the State 
of California in finding legitimate solutions to the situation 
facing the San Bernardino region and elsewhere.
    Thank you.
    [The prepared statement of Mr. Watson follows:]

   Statement of Jay Thomas Watson, Director, Wildland Fire Program, 
                         The Wilderness Society

    Mr. Chairman, members of the committee, my name is Jay Watson. I am 
the Director of The Wilderness Society's Wildland Fire Program. This is 
my second trip to the San Bernardino National Forest this year, and I 
am pleased to see the Committee focus its attention on the ``San 
Berdoo'' as it is commonly called. It is all too clear that the San 
Bernardino region needs and deserves this attention, as well as a 
series of other state and federal investments. Perhaps your visit today 
will help lead to those investments of resources, time will tell. Along 
those lines, I would like to recognize and congratulate Senator Dianne 
Feinstein and Representative Jerry Lewis for securing an additional $30 
million for the region as part of the Fiscal Year 2004 Legislative 
Branch Appropriations Bill.
    Securing new monies earmarked for the area is a far preferable 
approach than the Robbing Peter to Pay Paul approach recently followed 
by the Bush Administration. That approach resulted in $5 million being 
taken from the fire risk reduction budgets of 11 other national forests 
in California--forests that needed that money for their own hazardous 
fuel reduction and community protection efforts. Moreover, I note that 
two-thirds of the $30 million will flow to non-federal jurisdictions. 
That stands in sharp contrast to the Administration's Healthy Forests 
Initiative, which provides no assistance to non-federal jurisdictions 
for fire risk reduction. Since wildland fire doesn't recognize land 
ownership boundaries, any legitimate and effective solution to reducing 
the risk of wildfire must work across all land ownerships in a 
coordinated fashion. That is one of the fatal flaws of the Healthy 
Forests Initiative, it focuses exclusively on federal land and does 
nothing to reduce fire risk across a landscape characterized by mixed 
ownerships.
    The situation here in the San Bernardino region was decades in the 
making. It was the result of a number of factors including fire 
suppression, sustained drought, insects, and an overly dense forest in 
many places, primarily because of the exclusion of periodic fires that 
would have reduced the number of small trees. The acute danger produced 
by this combination of factors has been further complicated by 
geography, population growth, and development patterns.
    It is a complex and quite frankly frightening situation for which 
there is no easy answer. The crisis on the San Bernardino cries out for 
cooperation--people pulling together to find solutions and taking 
actions to alleviate the danger that now exists. Certainly, here in 
Lake Arrowhead, that is what we have seen in many, many ways.
    For example, federal, state, and local jurisdictions and agencies 
have joined together to form the interagency Mountain Area Safety Task 
Forces (MAST) in Riverside and San Bernardino Counties to facilitate a 
comprehensive approach to addressing the public safety threat facing 
the region. To date, no one could argue with the short and mid-term 
priorities established by MAST. So congratulations are in order. I do 
see the possibility for controversy in the out-years as the Forest 
Service undertakes more general and possibly less defined forest health 
treatments. To reduce that controversy, the Forest Service must balance 
the sometimes competing, yet mutually important and legitimate, goals 
of habitat protection and fire risk reduction.
    Just as there is no single cause for the situation facing the San 
Bernardino, there is no single answer either. Make no mistake about it, 
the Healthy Forests Initiative (HFI) is no panacea to the situation 
facing the region. First, as I mentioned earlier, the HFI applies only 
to federal land. Here in the San Bernardino region, as in every other 
western state, land ownership patterns are a mixture of federal, state, 
local, private, and tribal lands. In fact, here in California, 85 
percent of all the land within one-half mile of 814 communities 
identified as being at risk from fire is non-federal in ownership--a 
crucial fact completely overlooked by the HFI.
    Secondly, the Healthy Forests Initiative will bring with it little 
or no new funding. Rather, it seeks to pay for the removal of hazardous 
fuels through traditional timber sales. Another way of saying that is 
that under HFI, we will be cutting down the very trees we are 
supposedly trying to save from burning up to pay for the removal of 
surface and ladder fuels. The Wilderness Society does not oppose 
commercial logging, that is not the issue. The issue is that a 
significant investment is going to have to be made in forest 
restoration and community protection. Tens of billions of dollars in 
taxpayer monies have been spent removing fire from the landscape, 
building logging roads, and subsidizing timber production on the 
national forests--to think we can restore the forests and protect 
communities on the cheap is a fallacy. It is going to take real money 
and time. If we are truly facing a forest health crisis--then show me 
the money and don't pretend that we can treat millions of acres of land 
without having to pay for it. Unfortunately, if you read H.R. 1904, 
which embodies the President's Initiative, no where is there an 
authorization of appropriations for hazardous fuel reduction.
    Therefore, the solution to the crisis on the San Bernardino will 
more likely be found in a combination of individual actions, such as 
Governor Davis's emergency proclamation which enhanced fire 
preparedness and eased restrictions on removing trees from private 
lands, last week's $30 million infusion in federal money, MAST, a lot 
of notable work on private lands by individual landowners, and 
additional funding being made available across ownerships.
    Some suggest that the answer is simply a question of returning 
timber management to the San Bernardino National Forest. That is a 
grossly simplistic suggestion. A timber program would not have 
prevented what we see happening here today. A timber program would not 
have prevented a sustained four years of drought. Moreover, the absence 
of a wood products industry in southern California, combined with the 
reality that many of the dead or dying trees are of declining timber 
value, or no value at all in the case of Coulter pine, which account 
for a significant portion of the trees in the surrounding forest, tells 
me that a sawtimber solution is a fantasy.
    With that said, tree removal obviously plays an important role in 
the response to this situation in the San Bernardino region. However, a 
primary obstacle to seeing that tree removal is undertaken as 
legitimate hazardous fuel reduction, i.e. ``the right work in the right 
places,'' throughout the west, is the challenge of finding appropriate, 
commercial uses for forest materials that are generally thought of as 
having little value. I am talking about surface and small-diameter 
ladder fuels, which every reputable fire scientist clearly recognizes 
as the most important fuels in need of treatment to reduce the risk of 
uncharacteristic wildland fire.
    In other words, new uses, new markets, and value-added wood 
products must be identified and developed. The reality is that a 
certain amount of industrial infrastructure and trained workers are 
needed to do the actual work of reducing fire hazards and restoring 
fire-adapted ecosystems. But it must be the right infrastructure and 
the right wood products industry--a wood products scaled to make use of 
those smaller diameter materials and markets.
    Towards that end, appropriate hazardous fuel reduction efforts 
would be facilitated and enhanced by the work of small mill owners and 
contractors. Appropriately scaled, community-based forestry and local 
contractors can play a vital role in seeing that the ``right work gets 
done in the right places.'' They can do so because their economies of 
scale allow them to turn a profit utilizing the same raw materials that 
should be removed through hazardous fuel reduction--materials such as 
surface and ladder fuels. Jobs would be created in the wood products 
industry, people would benefit, rural communities would benefit, as 
would the forest. Another part of that equation is a Forest Service 
willing to enter into smaller contracts, rather than focusing solely on 
large contracts with just the big boys in the timber industry--
contracts that small mill owners have no hope of bidding on.
    Here, in the San Bernardino region, that could take the form of 
small or portable biomass plants and portable sawmills to supplement 
the production of mulch and other uses that are being found for the 
woody material being removed. As far as I can tell, some of these 
opportunities are being investigated, while others are actually being 
pursued through the Forest Service's State and Private Forestry 
Program. I would be interested in learning more about these efforts as 
they would appear to be a good match with our vision of an 
appropriately-scaled wood products industry being part of the solution 
to reducing fire risk. After all, it is truly unfortunate to be 
incinerating several hundred tons of wood every day and not generating 
a single watt of electricity.
    In conclusion, The Wilderness Society will gladly work with and 
support the Forest Service, the State of California, and local 
interests in finding legitimate solutions to the situation facing the 
San Bernardino region.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Rosenblum.

   STATEMENT OF RICHARD M. ROSENBLUM, SENIOR VICE PRESIDENT, 
   TRANSMISSION AND DISTRIBUTION, SOUTHERN CALIFORNIA EDISON 
                            COMPANY

    Mr. Rosenblum. Mr. Chairman, Members, Congressman Lewis, 
I'm Dick Rosenblum with Southern California Edison. I head up 
the transmission and distribution department of our utility and 
we're the group mostly responsible for Southern California 
Edison's work up here in this crisis. In my time, I'd like to 
make probably three quick points.
    First, Southern California Edison comes at best after more 
than a century operating in these communities. We've always 
felt ourselves as responsible for our communities and stewards 
of both the infrastructure and the land.
    In this area, we have about 700 miles of electric 
conductor, that's exposed to this forest. About 20,000 
structures, most of those are wooden poles, but others are 
substations and transformers and the like. We've been working 
cooperatively and in what I think is the best partnership I've 
seen in 28 years in this business with California Department of 
Forestry and Fire Protection, the U.S. Forest Service, the 
local fire agencies up here, the California Public Utilities 
Commission and the other members of the MAST. It's really been 
by my observation the best partnership I've seen ever. I think 
that's largely due to the efforts of everybody involved.
    Two, I'd like to point out one of the effects of the 
Governor's emergency declaration and that was to order the 
utilities in California, which in this case is primarily 
ourselves, to completely remove trees as opposed to just 
trimming trees that might come in contact with our lines when 
they fall. Now the difference would be, for instance, if a tree 
were 90 feet away from the lines and it was a 100-foot tree. In 
the past, our responsibility was to cut the top 10 feet so when 
it fell over, it wouldn't hit the lines. Now we're to remove it 
completely to the ground. That is an immense task. Just our 
portion of this effort will be by our current preliminary 
estimate 350,000 trees will have to be removed.
    We have today, 55 management employees, largely foresters, 
working on identifying the areas and 15 crews when we're fully 
staffed will be working here at cutting down trees. That will 
be about 275 trees a day. And even at that rate, we estimate 
that will take us 6 years. It is an immense project.
    The third point I'd like to make in my brief comments is 
that the biggest single restricting factor in this effort is 
the debris removal. Others have already talked about that. We 
think it would be about 750 tons of debris a day, when we're at 
capacity just for our effort. Fixing that restricting is 
probably the single biggest and most important task that faces 
all of us. At Edison, we're already looking at the biomass 
plans that several people have referred to. We've taken it upon 
ourselves without yet CPUC approval, Public Utility Commission 
approval, to develop a request for proposal for a plant that we 
think could dispose of a great portion of that debris. We will 
move forward, together with the Public Utilities Commission to 
try to select a plant and get one installed in a timeframe that 
will help solve the problem, but it need be soon. It would 
almost certainly have to be new plant and it will take some 
time.
    One way to sort of summarize the cost of this, of the whole 
project is by cost. Our estimate is today that our cost alone 
would be about $350 million over the next 6 years and that will 
be borne by all 4.4 million of our customers.
    As I've said, and I really want to reinforce, a very 
effective partnership moving forward today. We've grown to be a 
part of that partnership. We think this effort can be done 
safely expeditiously and with full regard to the environment.
    Thank you very much.
    [The prepared statement of Mr. Rosenblum follows:]

       Statement of Richard M. Rosenblum, Senior Vice President, 
   Transmission and Distribution, Southern California Edison Company

    Chairman Pombo and Members of the Committee,
    Southern California Edison Company (SCE) appreciates the 
opportunity to appear before you today. Even more, we appreciate the 
interest that the Committee has taken in the critical problem faced by 
the beautiful mountain communities that are such an integral part of 
our service territory. We have served the residents and businesses in 
the San Bernardino National Forest for over a century. These are our 
neighborhoods too. Many of our employees live, work and raise their 
families in these mountain communities. In cooperation with the U.S. 
Forest Service, the California Department of Forestry, County and local 
fire agencies, the California Public Utilities Commission, the Mountain 
Area Safety Task Force (MAST), local fire safety councils and the other 
dedicated agencies and community alliances working on the Bark Beetle 
problem, we're gratified to be a part of the solution.
    Just a few years ago, none of us could have imagined that we would 
now be facing the loss of the vast majority of the pine trees that are 
such a hallmark of these picturesque communities. While such a 
concentration of trees has long presented a challenge for us in keeping 
our transmission and distribution lines clear of vegetation, our 
extensive inspection and maintenance programs have enabled us to do a 
good job of it. And yet all these efforts pale in comparison with what 
we must now do to help solve the current problem.
    A few statistics help to convey the scale of SCE's commitment to 
this problem:
    <bullet> Within the infested area, SCE has approximately 700 miles 
of electric line, 20,000 structures (primarily poles) and 5 
substations;.
    <bullet> We currently estimate that, in keeping with Governor 
Davis' Emergency Proclamation and the direction of the Public Utilities 
Commission, we will be removing in excess of 350,000 dead or dying 
trees that could potentially fall into our electric lines. These are 
typically large, mature trees--so we must often clear a path 100 feet 
or more on either side of each of the lines that run to every home and 
business in these communities. The immediate and startling implication 
is that there will be very few pine trees left standing around any 
inhabited structure in many of the impacted communities;
    <bullet> SCE has 55 management employees involved in addressing 
the Bark Beetle situation, with more to be added as necessary;
    <bullet> We currently have contracts with 3 tree removal firms, 
and recently issued a Request for Proposals to bring on additional 
crews; when we are fully manned, we will have about 15 full-time 
contract tree removal crews with in excess of 100 people working every 
day in the infested area.;
    <bullet> We are ramping up our removal efforts as quickly as 
possible; soon we will be removing 275 or more trees per day. As noted 
below, this number, especially when combined with the removal efforts 
of other agencies, may well exhaust the capacity of the various 
existing disposal means;
    <bullet> We are currently lowering and reinstalling about 10 
electric distribution lines every day to permit the safe removal of 
trees near the wires. This total will increase dramatically as we and 
others continue to ramp up tree removal efforts- and our customers will 
continue to be substantially inconvenienced by the necessary 
interruptions in their electricity;
    <bullet> To reduce the threat of fire in the affected areas, we 
have initiated special operating procedures that require any circuit 
that experiences an unplanned outage to be fully physically inspected 
before it can be re-energized. While this is a necessary safety 
precaution, it will significantly increase the length of outages 
experienced by our customers;
    <bullet> The current estimate is that it will take approximately 6 
years to remove the over 350,000 dead or dying trees that could fall on 
our electric lines; and
    <bullet> Our current estimated cost for the project, which we 
expect the Public Utilities Commission will order be borne by all of 
our 4.4 million customers, is over $300 million--and potentially 
substantially more. It's important to note that our tree removal 
expenses are a pass-through for SCE. That is, there is no profit 
component, and cost recovery in rates is subject to retrospective 
review and approval by the PUC.
    Frankly, the magnitude of this problem is unlike anything we've 
dealt with before. The trees in question are generally very large and 
often close to homes and businesses as well as power lines. Many must 
be removed using cranes and other heavy equipment. Furthermore, one of 
the greatest challenges, and the limiting factor in our progress, is 
the disposal of the countless tons of organic matter generated by the 
accelerating tree removal effort. We are working earnestly to support 
the responsible agencies as they look for innovative solutions to the 
disposal problem. Possibilities such as wood-fueled biomass plants are 
being thoroughly examined. SCE has also volunteered to coordinate the 
process of seeking out qualified firms that could build such 
facilities, and then contracting with them for the electricity 
generated from their operations. As you might imagine, pursuing such 
solutions on an accelerated basis is not easy, and we may need your 
help to expedite the permitting of such projects. That brings us to the 
topic of what you can do to help us deal with this problem.
    The communities and agencies impacted by this problem are energized 
and working together earnestly. What they need most are time and money. 
The costs and logistics to remove and dispose of over 1 million dead or 
dying trees in the affected areas are simply immense. Many property 
owners are personally facing removal costs in the tens of thousands of 
dollars, and agency staffing and financial resources are being 
stretched to their limits. Any federal funds that can be allocated to 
our State to ultimately defray homeowner and agency costs can and will 
be used quickly and efficiently on the front lines of this battle. The 
second way that you can help is to provide the means to shorten or 
eliminate the processing of required permits or expedite the issuance 
of waivers of regulations that will almost certainly be needed to allow 
innovative disposal methods to be quickly implemented. We hope that 
your Committee will want to serve as a focal point and ``barrier 
breaker'' when the need for quick governmental action arises as this 
situation continues to unfold.
    Our corporate goal is to do everything we can to cooperate with the 
responsible agencies to mitigate the Bark Beetle problem safely, 
expeditiously and with full regard for our environment. We can do 
nothing less for our customers, neighbors, colleagues and families.
    Thank you again for the opportunity to address the Committee today.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Phillips.

                 STATEMENT OF EDDIE PHILLIPS, 
                  AMERICANS FOR FOREST ACCESS

    Mr. Phillips. Thank you, Congressman Pombo, staff, invited 
guests. I thank you for the opportunity to address you with my 
concerns and the concerns of the Americans For Forest Access 
and affiliated organizations.
    My name is Eddie Phillips. I was born in Big Bear 67 years 
ago and have lived in the mountains most of my life. Recently, 
we were spared from a disaster. Everything was perfect for a 
total aerosol on the Bridge Fire, available aircraft, close 
proximity to loading facilities with almost perfect weather, 
low winds and a massive amount of ground support. As everyone 
is aware, the forests in Southern California are a disaster 
waiting to happen. We have many sick forests like the San 
Bernardino National Forest. Visual damage, millions of dead and 
dying trees caused by drought and Bark Beetle. This mess will 
take many years to clean up and correct. We need to look at the 
past to make corrections for the future health of the forest.
    Before man, fire cleansed the forest. Now that man is part 
of the equation we must find another way of cleansing the 
forest without catastrophic fires. Our forefathers raised 
cattle which lowered the amount of flash fuels in the forest 
floor. They allowed the forests in Southern California using 
select logging methods which always left a healthy stand of 
trees. We have mining which was and still is an important part 
of the industry. For this our forefathers had been criticized 
partially by the environmentalists. If you look at what 
actually took place, cattle grazing kept down the growth of the 
brush and grasses. Logging kept the forests from being 
overgrown with trees. Miners and loggers built the roads for 
access, for their use, but also for fire suppression. During 
drought years, trees were able to fight off disease and the 
Bark Beetle because of competition for water wasn't as great as 
the overgrown forests of today.
    In recent years, everything is directed at saving the 
endangered species, while the overall health of the forest has 
been ignored. The public lands have been assaulted by armies of 
botanists and biologists, all looking for a species to save and 
to protect using taxpayer and foundation grants to help them in 
their search. The policy is now and has been for many years to 
let the brush grow, leave the dead and dying vegetation on the 
forest floor to create and maintain what these experts claim is 
a more natural setting and homes for all these tiny critters.
    All but a few cattle are gone because the allotments were 
canceled and logging has been stopped except for salvage sales. 
Mining has been almost regulated out of business and the forest 
is overgrown with brush and trees. What else was done? We have 
limited the access to public lands to protect species and what 
has that got us? A disaster waiting to happen that will not 
only take our homes, but will kill all the species we have been 
trying to save.
    What can we do for the future? Look at the past. Use what 
we have learned. Inject proven science with a good dose of 
common sense.
    What can we do now to protect our homes and forests? Keep 
hoping all existing access to our public lands that exist 
today, all system and nonsystem roads and trails are needed 
today more than ever to access for fire crews, their equipment 
and to remove the dead and dying trees. Without the access, 
these trees will remain in the forest and the fire danger will 
increase.
    The Forest Service will tell you they can't afford to 
maintain these roads. The Forest Service has never maintained 
the majority of these roads. They continue in existence because 
they are driven on regularly by forest visitors. Use is what 
keeps them open.
    The San Bernardino National Forest, Mountain Top District 
is presently going through the NEPA process to close an 
additional 80 plus miles of nonsystem roads. The claim is they 
are illegal, short, too close together and serve no useful 
purpose. On a flat map, this is the way they appear. Go drive 
them. If you can find one that's not already blocked off or 
fenced, the majority are not what they appear to be on the map 
and are extremely useful to access many areas in the forest.
    Next, we have the new Forest Management Plan for the four 
Southern California forests. The proposals on the table are new 
wilderness designations, roadless areas, potential roadless, 
areas nonmotorized, special interest areas, wild scenic rivers, 
nonmotorized back country and back country motorized. These all 
represent motorized access closures. Any and all of these can 
be modified, deleted during the planning process. If you stop 
the forest visitors from using these roads, the roads will 
disappear into the underbrush. How will the fire crews protect 
our homes in the forest and its creatures and how will the 
Forest Service manage the forest without good access?
    I'd like to point out and you have in these books a couple 
of maps. That one there covers the system and nonsystem roads. 
This is the way many of the roads in the forest have been 
blocked, with boulders to keep out illegal recreation vehicles. 
All we've done with this, they can go right by it or over it, 
but the fire trucks and emergency vehicles cannot access these 
areas.
    That one marked 1, 2 and 3, blocks off approximately 
between 2,000 and 3,000 acres for emergency services other than 
by air. I've tried to find roads into that area and I haven't 
been able to locate any yet that are good enough to take fire 
equipment on. There's private property on the edge of that 
that's fenced on the backside.
    Down here, we have the 24,000 to 45,000 acre mineral 
withdrawal. They've gone to extensive degrees in their books 
saying how they will not affect any other type of use other 
than mining, but everywhere I go I find fences. This slide that 
says--I'm sorry, I put that one upside down. It says ``please 
help protect our forest habitat. Foot travel only. No 
vehicles.'' And this--where you find it is in this mineral 
withdrawal area to protect the limestone and endemic weed.
    Thank you for your time and allowing me here today.
    [The prepared statement of Mr. Phillips follows:]

         Statement of Ed Phillips, Americans for Forest Access

    Gentlemen: Thank you for the opportunity to address you with my 
concerns and those of Americans for Forest Access and its affiliate 
organizations.
    My name is Eddie Phillips. I was born in Big Bear city 67 years ago 
and have lived in these mountains most of my life.
    Recently we were spared from a disaster. Everything was perfect for 
a total air assault on the Bridge Fire. Availability of aircraft, close 
proximity to loading facilities with almost perfect weather and low 
winds and a massive amount of ground support.
    As everyone is aware, the forests in southern California are a 
disaster waiting to happen. We have many sick forests like the San 
Bernardino National Forest (SBNF.) The visual damage is millions of 
dead or dying trees caused by drought and Bark Beetles. This mess will 
take many years to clean up and correct.
    We need to look at the past to make corrections for the future 
health of the forest. Before man, fire cleansed the forests. Now that 
man is part of the equation, we must find another way of cleansing the 
forest without catastrophic fires. Our forefathers grazed Cattle, which 
lowered the amount of flash fuels on the forest floor. They logged the 
forests in southern California using select logging methods, which 
always left a healthy stand of trees. We have mining, which was and 
still is an important industry. For this our forefathers have been 
criticized harshly by environmentalists. If you look at what actually 
took place, cattle grazing kept down the overgrowth of brush and 
grasses. Logging kept the forests from being overgrown with trees. 
Miners and Loggers built the roads for access for their uses but also 
for fire suppression activities.
    During drought years, the trees were able to fight off disease and 
the Bark Beetle because the competition for water wasn't as great as in 
the overgrown forests of today.
    In recent years, everything is directed at saving endangered 
species while the overall health of the forest has been ignored. The 
public lands have been assaulted by armies of botanists and biologists 
all looking for a species to save and protect using taxpayer and 
foundation grants to help them in their search. The policy is now, and 
has been for many years, to let the brush grow and leave the dead and 
dying vegetation on the forest floor to create and maintain what these 
``experts'' claim is a more ``natural'' setting and homes for all those 
tiny critters.
    All but a few cattle are gone because the allotments were 
cancelled. Logging has been stopped except for salvage sales, mining 
has almost been regulated out of business, and the forest is overgrown 
with brush and trees. What else was done? We have limited the access to 
Public Lands to protect the species and what have we got? A disaster 
waiting to happen that will not only take our homes but will kill all 
those species we have been trying to save!
    What can we do for the future? Look at the past. Use what we have 
learned. Inject only proven science with a good dose of common sense.
    What can we do now to protect our homes and forest? Keep open all 
of the existing access to our Public Lands that exist today. All system 
and non-system roads and trails are needed today more than ever for 
access for fire crews and their equipment and to remove the dead and 
dying trees. Without this access these trees will remain in the forest 
and the fire danger will increase.
    The Forest Service (FS) will tell you they can't afford to maintain 
these roads. The FS has never maintained the majority of these roads. 
Their continued existence is because they are driven on regularly by 
the Forest visitors. Use is what keeps them open. The SBNF Mountain Top 
District is presently going thru the NEPA process to close an 
additional 80+ of non-system roads. The claim is they are illegal, 
short, too close together and serve no useful purpose. On a flat map 
this is the way they appear. Go drive them, if you can find ones that 
are not blocked off or fenced. The majority aren't what they appear to 
be on the map and are extremely useful to access many areas in the 
forest.
    Next we have the new Forest Management Plan for the four southern 
California forests. The proposals on the table are: new wilderness 
designations, roadless areas, potential roadless areas, non-motorized, 
special interests areas, wild and scenic rivers, non-motorized back 
country, and back country motorized. These all represent motorized 
access closures. Any or all of these can be modified or deleted during 
the planning process. If you stop the forest visitors from using these 
roads, the roads will disappear into the underbrush. How will the fire 
crews protect our homes or the forest and its creatures and how will 
the Forest Service manage the forest without good access?
    I will be happy to answer any questions you may have regarding my 
testimony or the documents or maps that I have included.
    Once again, thank you for your time and for allowing me to be here 
today.
                                 ______
                                 
    The Chairman. Thank you very much. I recognize Congressman 
Walden.
    Mr. Walden. Thank you, Mr. Chairman. I just wanted to 
follow up on a couple of things that have been said because I 
think it's important to make sure the bill is fully understood 
and I believe it was Dr. Bialecki that said at least in your 
prepared testimony that the healthy forest legislation 
jeopardizes ``public participation'' in the planning process.
    And I struggle with that because the legislation locks in 
the current public notice and comment requirements. It locks in 
the existing public scoping requirements that are there already 
in the law and rule. It requires an additional public meeting 
over and beyond what is currently required. The Bipartisan 
Western Governors Association recently sent a letter to the 
legislation for actually codifying or attempting to put into 
law the Western Governors Association collaborative public 
participation framework and so as I hear this over and over 
about how we're going to cut the public out, a reading of the 
bill would indicate we're actually expanding and trying to do 
exactly what I think you and Mr. Watson said, in fact, to 
involve the public more in the beginning. Because I think that 
ultimately is how we get that solved is you get the 
stakeholders in a community like this together with the 
agencies and you work out--in fact, that is why we're trying to 
change the appeals process so that when the local stakeholders 
have come together, you don't have somebody that never 
participated, having the right to appeal. And what we're 
proposing in this legislation is that in order to have standing 
to appeal, you would have had to have participated in a 
substantive manner in the process, which I think is a good 
idea. Do you have a comment on that?
    Dr. Bialecki. Well, I do. I believe the fuels process is 
actually shortened down to 15 days and it's my experience that 
realistically, formulating an appeal takes more than 15 days, 
even when you've been involved in the process previously, so 
that's a key point.
    Mr. Walden. You're talking about to go to court is 15 day 
period. The status quo is the same--the appeals process is 
status quo. We haven't changed that. We're saying if you're 
going to court, it's 15 days.
    Dr. Bialecki. When we can avoid those processes in the 
beginning, everyone benefits.
    Mr. Walden. I couldn't agree more and that's the crux of 
the problem. The GAO found that of those thinning projects that 
were subject to appeal and 457 of them they looked at weren't 
even subject to appeal, they were the prescribed burns that 
aren't subject to appeal. If you take those out, you find 59 
percent of the thinning projects were appealed. And moreover, 
52 percent of the projects proposed for the wildland urban 
interface on Federal lands were appealed, more than half. So 
what we're trying to do is drive a system that streamlines this 
before everything burns. And so that's important.
    The other point I'd like to make is on funding. I helped 
write the bill last year that we came very close to and we 
worked closely with George Miller from California and my 
colleague Peter DeFazio and myself and Scott McInnis from 
Colorado. We had an authorization in that bill of $3.8 billion, 
I think over 10 years. Now remember, an authorization doesn't 
get you a dime, it just says you can go to the appropriators 
and try to get money. So that's all we can do even in this 
legislation. And we got the bejeezus beat out of us by various 
environmental group.
    Senator Feinstein sort of widened, got attacked, and we had 
an authorization in there. So all of a sudden this year we 
don't have an authorization. That seems to be the issue, but 
that aside, in the Fiscal Year 2004 Interior bill we got $36 
million in state and private forestry line items to fund, cost 
show projects on private lands; $51 million in national fire 
plan for state and private forest restoration has fuels 
reduction; $22 million to attack insect and disease outbreaks 
on private lands. It's a new program to deal with this threat 
in the West. So that partnership is to work with private lands. 
federally, for Federal lands, we have over $400 million set 
aside to deal with hazardous fuels reduction and the estimates 
we're beginning to get if we implemented this legislation is a 
savings to the agencies to do the work to fund the people we 
all know need to be in place would be upwards of $100 million 
that instead of concocting plans that will never go anywhere, 
and over half of them being appealed anyway, can actually be 
put in thinning and saving our forests in our communities.
    And so I guess I come to this with a huge amount of 
frustration because I've heard the talk about small mill towns. 
You come to my District. I'll show you small mill towns where 
single operators did exactly what you said 10 years ago. They 
can go down to a 5-inch diameter tree and when the forests 
burn, it takes 3 to 5 years to get the wood out because of 
appeals and it is worthless at that point. They have shut down, 
they are dismantling, they're importing lots from fires in New 
Mexico, Arizona and now moving their whole operations to 
Lithuania and you don't have the infrastructure in my District. 
You don't have it here. And we're not going to have it anywhere 
in our forests and we, as taxpayers, are going to pay the bill 
for it.
    I apologize, I've gotten on my soapbox and my time is up. 
Thank you, Mr. Chair.
    [Applause.]
    The Chairman. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and I 
wanted to go back to a statement that Mr. Grindstaff spoke 
earlier about, a large amount of debris that will flow off of 
the watershed into the water systems in these communities, 
carrying an inordinate amount, probably, of uranium which is a 
naturally occurring mineral in these hills. Now I'm very 
sensitive to that, simply because I worry that when you have 
this uranium-enriched sludge, you'll want to send it to Nevada.
    [Laughter.]
    I hope that's not the case. We must do something to stop 
this run off.
    In any event, what is the likelihood that fire in this 
area, the San Bernardino Forest, could have a dramatic effect 
on the water supply to Southern California areas?
    Mr. Grindstaff. A major fire, there's 100 percent 
likelihood that it will have an impact. Absolutely, there is no 
doubt that if we have the kind of fire that I think we're 
likely to have from everything I've heard from professionals, 
if we have 100,000 acre fire here, that flows into our 
watershed, that will have an impact on our water supply. 
Depending upon the area, we may have uranium released, we may 
not.
    We certainly will have lots of organic chemicals that come 
down as part of the ash. We certainly will have lots of 
sediments that cause us not to be able to recharge as much 
water into the ground. We certainly will have lots of debris 
that in the kinds of geologic conditions we have may be more 
dangerous than the water from flooding. So I think that's 
absolutely 100 percent certain and a major fire, that will have 
major impacts on our water supply.
    Mr. Gibbons. Could you actually, in some instances, lose 
access to drinking water?
    Mr. Grindstaff. Absolutely. In some instances, we would 
lose that, at least temporarily. I think in most cases with 
money you can do lots of things with water. You can clean it 
up. But it will take time and money and we could certainly lose 
facilities that currently deliver water to customers throughout 
the upper watershed. We certainly would lose, have major water 
quality problems throughout the watershed and it would 
certainly cost us, I think our $200 million estimate is low and 
that's just capital costs. That's not on-going, that's just up-
front capital costs for some of those issues.
    Mr. Gibbons. That is an incredible statement you've made. I 
know there's concern because you can go 2 weeks without food 
and still survive, but you can't go very long without water.
    Mr. Grindstaff. Probably one of the impacts would be we'd 
want to import more water from Northern California, as popular 
as that would be, or we'd want to get more water from the 
Colorado River and I mean those are the kinds of balancing acts 
and you're trying to figure out.
    Right now, we do a very good job of optimizing our local 
water supply. In Southern California, our watershed, Riverside, 
San Bernardino and Orange Counties are the least dependent on 
imported water.
    Mr. Gibbons. I would presume that you've actually got a 
plan in place to be able to provide water, drinking water to 
the people of this region, should a disastrous fire occur.
    Mr. Grindstaff. We do. We have a plan in place to do that, 
but it does involve right now using stored water, using water 
that we would import from other areas, but principally stored 
water.
    Mr. Gibbons. Let me ask Mr. Watson, does the Wilderness 
Society advocate a minimum size tree or a maximum size tree to 
be left in a forest for cutting.
    Mr. Watson. No. I do not believe there's any single 
diameter limit you can pick throughout the West and have it 
apply to all forest types. I think we're really much more of a 
case by case forest type by forest type basis. The Forest 
Service has tried to do that in the Sierra Nevada, but what you 
come up with there doesn't apply in another forest type. So I 
don't think it's feasible to do that in legislation.
    Mr. Gibbons. Mr. Watson, let me say that you're the voice 
of reason for the Wilderness Society.
    Mr. Watson. I've been told that before.
    Mr. Gibbons. We have heard vastly different way from a 
number of other witnesses who have purported to represent the 
Wilderness Society, the Sierra Club, etcetera, all of the 
groups that are intrastakeholders in forests that have a 
standard by which they want to advocate no larger than say 18 
inches would ever be cut, regardless of the quality, the 
thickness, the distribution and cover of a forest or tree area 
within a specific area.
    Mr. Watson. We have a Sierra Nevada framework which ranges 
anywhere from 12 inches and sort of out in the middle of 
nowhere, low intensive treatments up to 30 inches in diameter, 
close to homes and towns. And we supported that plan strongly.
    We opposed where the Forest Service is going now because 
it's changing that to 30 inches everywhere, even in the best of 
the best old growth, but no, you cannot pick any single 
diameter tree and I would say that generally speaking it's the 
smaller diameter and mid-diameter trees, the so-called ladder 
fields that are the primary cause of catastrophic wildfires, 
combined with surface fuels, but I'm glad to answer the 
question the way I did.
    Mr. Gibbons. I think, since my time has expired, all I can 
say is that you did hear Dr. Bonnicksen say that you do need 
the small, medium and large diameter trees to have a healthy 
forest, so you can't just leave old growth there.
    Mr. Watson. Of course not, I'm not saying scoop everything 
out from underneath the big trees and walk away. That's--it's a 
balancing act.
    Mr. Gibbons. Thank you.
    The Chairman. I'm going to go to my questions and I'll 
recognize Congressman Lewis last.
    Mr. Watson, I want to get your perspective on--because this 
is something I struggle with, on the urban wildland interface. 
In some areas, it would make sense to concentrate on the half 
mile or a mile from an urban area. In other areas, when we had 
a hearing in Arizona, they talked about how because of the 
valley that led up to the particular town that we were in and 
it made a lot more sense for them to go on the other end of 
that valley and thin that and try to stop the fire from coming 
in because of the wind effects and everything that came down 
that valley, doesn't that--on a case by case basis, forest by 
forest, community by community, doesn't it make a lot more 
sense to have the people that are actually on the ground making 
the decisions as to where best to spend a limited amount of 
money than for Congress to pass something that says you've got 
spend it within a half mile of the interface?
    Mr. Watson. That's ayes and no. On the Senate side, we're 
seeing legislation crafted that goes beyond a half a mile, 
maybe it links up with--extends three quarters of a mile to 
link up with a logical geographic feature, a ridge top, a road 
or river, something like that to make an effective fuel break.
    The Chairman. But even that's talking about three quarters 
of a mile.
    Mr. Watson. OK, and then beyond that, looking at--defining 
that acceptable zone as the area that's been looked at through 
a community based fire protection plan that cuts across 
ownerships and that could extend out to the ridge two miles 
out, but there's been some kind of process, like you said, 
locally based to develop a comprehensive fire protection plan 
for that specific community and I think that bears looking at 
very closely because it certainly could be far more practical 
than just an arbitrary figure.
    A half mile might be out in the middle of a dog-eared 
thicket. It doesn't solve any purpose. I think one reason that 
figure has shown up is if you look back to the National Fire 
Plan, the Western Governors Association, the Sierra Nevada 
framework, interior report language, they all have asked and 
set the top priority as the wildland urban interface, however 
that may be defined. I guess it could be defined in a number of 
ways, but the top priority in the near term, next 5, maybe 10 
years, is the wildland urban interface. That's probably how 
long it's going to take to wok in that zone. And then once 
that's done, then start going out into the forest.
    The Chairman. In the bill that the House passed, that is 
identified as the priority because I think we can all agree 
that that should be the priority, but I've heard ever since 2 
years ago, I guess, that we got into this bill, or 3 years ago 
now, they keep talking, going back to trying to limit it as 
much as they possibly can to as small an area as possible and 
the more that we go out and listen to people and look at 
forests in different places, we keep hearing from the people 
who actually are there, that won't work here.
    Mr. Watson. It's one size fits all. That doesn't make 
sense.
    It's got to be locally--I suspect that's where things will 
wind up. Maybe it will be 50-50 in where the funding is spent. 
I think the reason people are calling for a hard requirement, 
not just setting priorities, but a hard requirement to spend X 
percent in the wildland urban interface is Congress has been 
asking the Forest Service to do that for a couple of years now 
and it was 30 percent the first year and then maybe 50 percent.
    I think in many ways there are times when the Agency has to 
be given pretty clear direction on where it's supposed to work 
because it does have a habit of wondering off wherever it wants 
to work.
    The Chairman. I don't disagree with you on that. I've been 
a strong advocate of us being much more direct in the 
legislation we pass and taking a more firm stand on exactly 
what congressional intent is.
    That's been--we like to blame the agency when they don't do 
what we thought we told them to do, but we're not clear as to 
what we told them to do. That happens all the time, but in this 
particular case, I think it would be a huge policy mistake to 
follow along this idea that we're going to have an arbitrary 
limit and I don't care if it's a half mile or three quarters or 
a mile. You can come up with whatever number you want because 
every forest is different. And if we just look around here and 
what I know and what I've seen of this particular area, that 
doesn't necessarily solve the problem. In some areas it does 
and other areas it just doesn't make sense.
    Mr. Watson. And there's room for abuse at the other end. 
You can sit at the bottom of the east slope of the Colorado 
Rockies and say the wildland urban interface extends up to the 
continental divide. That's not practical either. I mean that's 
how far the fire may have burned, but that's not a practical 
area to focus limited resources.
    The Chairman. No. When you're dealing with limited 
resources, you're accurate in that respect, but in terms of 
what's best for the health of the forest, that may be what we 
need to do. And if you look at the San Bernardino Forest, 
obviously, the entire forest is in a world of hurt right now.
    Mr. Rosenblum, I wanted to ask you, you said that it would 
take 750 tons a day and that's just your work.
    Mr. Rosenblum. That's correct.
    The Chairman. That's not the rest of this stuff. That's 
just what you have. So I guess it's about 30 truckloads a day 
that will be coming out of there just doing yours?
    Mr. Rosenblum. I think that's roughly correct.
    The Chairman. And where would that go?
    Mr. Rosenblum. Right now, it's going to all the places that 
have been mentioned, some of it is trucked down the hill and 
sold as lumber. Some of it as pulp. Some of it is going to 
landfills and some of it will be in burners.
    The Chairman. Why would we be putting it in landfills? Is 
it because there's nowhere else to put it?
    Mr. Rosenblum. I think that's essentially it. It has to go 
somewhere.
    That's why we're focusing so strongly on a biomass power 
plant. We really think that's by far, if it's feasible, the 
best solution. Unfortunately, it's going to take a certain 
amount of time to bring it on line.
    The Chairman. In this bill, we do address the biomass side 
of it and the energy bill, as you know, we're trying to get 
that through as well.
    Thank you very much. Mr. Lewis?
    Mr. Lewis. Thank you very much, Mr. Chairman. I ask the 
Chairman to allow me to comment and perhaps question last 
because first of all I very, very much appreciate the 
dedication of Mr. Pombo, the Chairman of this Committee and the 
Members who've been here today, but beyond that, Mr. Chairman, 
to mention to you and to those members that we are for good or 
for ill a crises-oriented society.
    Mr. Grindstaff mentions some dams around this territory 
that have finally been completed. I have told the story of a 4-
year-old boy standing by his back window on 17th Street in San 
Bernardino and dropping a ping pong ball which dropped about 
three feet and hit the water and floated out through the back 
fence. Some 60 years after that, we completed the Seven Oaks 
Dam which was stimulated by that flood.
    Here, we have a potential crisis that is incredible to 
imagine and yet you really have to see it to believe it. Mr. 
Rosenblum has talked about the cost of just doing his work on 
the hill. Between Mr. Rosenblum and Mr. Grindstaff's problem 
with our watershed, we're talking about somewhere near a half 
billion to $750 million of a real outlay by the citizens who 
are serviced by these two areas. Taxpayers are involved, 
consumers are involved and I would just really urgently ask you 
and your members to help us convince the Congress that we must 
give priority for high levels of dollar input now not later.
    We're beginning to get the message, but sessions like this 
help a lot. I see in the audience people who have spent their 
lifetime in our forests, some professionally, others loving it, 
but we're about to lose it because in many cases in many ways 
by public policy and otherwise, we have abused it and indeed I 
hope we can use this crisis to rethink our preconceived notions 
about what is good management in terms of environmental 
practice.
    This forest is an incredible asset. We are about to lose 
it. I will not stop here for we can play a progressive role 
month in and month out to make sure that this model becomes a 
forest that's being rebuilt as we go about trying to figure out 
what to do with the dead trees.
    I very much appreciate all of those on the Panel, 
particularly the Wilderness Society as Mr. Pombo discussed Mr. 
Watson, perhaps a moderate, but frankly those voices who care 
about our environment need to be heard and in turn, those who 
have cared the most over the years need to use crises like this 
to rethink where we ought to be going because those simply 
answers just don't provide real answers for the long term.
    Mr. Chairman, you've helped us all a lot. You're to be 
congratulated and we appreciate all of the Members' 
participation.
    The Chairman. Thank you.
    [Applause.]
    I just want to conclude by thanking the other Members of 
the Committee, Mr. Cardoza is from Northern California. He had 
a plane to catch, so he apologized to everyone, but he had to 
leave a little bit early.
    Mr. Gibbons from the State of Nevada, Mr. Walden from the 
State of Oregon, have made the effort to take time away from 
their Districts and their families to be here and I appreciate 
the effort that they put in to be here as well.
    I'd like to thank Congressman Lewis for his persistence in 
getting us out here and constantly reminding us that the San 
Bernardino National Forest is in a state of crisis and it was 
extremely important that we bring the Committee here so I thank 
him for doing that and for hosting us today.
    I'd also like to thank all of our witnesses for the effort 
that they put in. It is never easy to come before a 
congressional panel and testify and usually it makes people a 
little bit nervous about doing it and I appreciate the effort 
that all of you put in in preparing your testimony and for 
being able to answer the questions that the Committee has.
    I will say that if there are any further questions, they 
will be submitted to you in writing. If you could answer those 
in writing in a timely manner so that they can be included in 
the hearing record.
    To those members of our audience who did not have the 
opportunity to testify who would like to have had that 
opportunity, the Congressional Record will be held open for 10 
days. You can submit written testimony to the House Resources 
Committee. That testimony will be included as part of this 
hearing and it will be included at the proper point in the 
Congressional Record.
    I want to thank everybody for your hospitality. Thank you 
for being here today. I thank our witnesses and members and 
most of all, thank the audience for being here. And I'd also 
like to thank the staff. They did a fantastic job of putting 
this all together. It's always a little bit more difficult for 
them to go away from D.C. and try to put a hearing together out 
in a place like this, but I appreciate the work that they put 
in.
    Thank you all very much and the hearing is adjourned.
    [Applause.]
    [Whereupon, at 3:54 p.m., the hearing was adjourned.]


</pre></body></html>
